<html>
<title> - OFFSHORE AQUACULTURE: CHALLENGES OF FISH FARMING IN FEDERAL WATERS</title>
<body><pre>[Senate Hearing 109-1118]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 109-1118
 
   OFFSHORE AQUACULTURE: CHALLENGES OF FISH FARMING IN FEDERAL WATERS

=======================================================================

                                HEARING

                               before the

              SUBCOMMITTEE ON NATIONAL OCEAN POLICY STUDY

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                              JUNE 8, 2006

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation





                  U.S. GOVERNMENT PRINTING OFFICE
64-706                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



       0SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                     TED STEVENS, Alaska, Chairman
JOHN McCAIN, Arizona                 DANIEL K. INOUYE, Hawaii, Co-
CONRAD BURNS, Montana                    Chairman
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
JIM DeMINT, South Carolina           FRANK R. LAUTENBERG, New Jersey
DAVID VITTER, Louisiana              E. BENJAMIN NELSON, Nebraska
                                     MARK PRYOR, Arkansas
             Lisa J. Sutherland, Republican Staff Director
        Christine Drager Kurth, Republican Deputy Staff Director
             Kenneth R. Nahigian, Republican Chief Counsel
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
   Samuel E. Whitehorn, Democratic Deputy Staff Director and General 
                                Counsel
             Lila Harper Helms, Democratic Policy Director
                                 ------                                

              SUBCOMMITTEE ON NATIONAL OCEAN POLICY STUDY

                JOHN E. SUNUNU, New Hampshire, Chairman
TED STEVENS, Alaska                  BARBARA BOXER, California, Ranking
TRENT LOTT, Mississippi              DANIEL K. INOUYE, Hawaii
KAY BAILEY HUTCHISON, Texas          JOHN F. KERRY, Massachusetts
OLYMPIA J. SNOWE, Maine              MARIA CANTWELL, Washington
GORDON H. SMITH, Oregon              FRANK R. LAUTENBERG, New Jersey
JIM DeMINT, South Carolina
DAVID VITTER, Louisiana

                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 8, 2006.....................................     1
Statement of Senator Boxer.......................................    47
    Additional information.......................................    50
Statement of Senator Stevens.....................................    54
Statement of Senator Sununu......................................     1
    Prepared statement of Thomas D. McIlwain, Director Emeritus, 
      University of Southern Mississippi, Gulf Coast Research 
      Laboratory.................................................     2

                               Witnesses

Bedford, David, Deputy Commissioner, Alaska Department of Fish 
  and Game.......................................................    42
    Prepared statement...........................................    44
Cufone, Marianne, Esq., Managing Partner, Environment Matters....    35
    Prepared statement...........................................    37
Eichenberg, Tim, Director, Pacific Regional Office, The Ocean 
  Conservancy....................................................    11
    Prepared statement with attachments..........................    13
Keeney, Timothy R.E., Deputy Assistant Secretary for Oceans and 
  Atmosphere, National Oceanic and Atmospheric Administration, 
  Department of Commerce.........................................     3
    Prepared statement...........................................     5
MacMillan, John R. ``Randy'', Ph.D., President, National 
  Aquaculture Association........................................    29
    Prepared statement...........................................    31

                                Appendix

Ayers, Jim, Vice President, Oceana, prepared statement...........    59
Hauter, Wenonah, Executive Director, Food & Water Watch, prepared 
  statement......................................................    60
Response to written questions submitted by Hon. Daniel K. Inouye 
  to:
    David Bedford................................................    74
    Tim Eichenberg and Marianne Cufone, Esq......................    69
    Timothy R.E. Keeney..........................................    66
    John R. ``Randy'', MacMillan, Ph.D...........................    76
Response to written questions submitted by Hon. John E. Sununu 
  to:
    David Bedford................................................    73
    Tim Eichenberg...............................................    72
    Timothy R.E. Keeney..........................................    64
    John R. ``Randy'', MacMillan, Ph.D...........................    75
United States Offshore Aquaculture Community, joint prepared 
  statement......................................................    63


   OFFSHORE AQUACULTURE: CHALLENGES OF FISH FARMING IN FEDERAL WATERS

                              ----------                              


                         THURSDAY, JUNE 8, 2006

                               U.S. Senate,
       Subcommittee on National Ocean Policy Study,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10 a.m. in 
room SD-562, Dirksen Senate Office Building, Hon. John E. 
Sununu, Chairman of the Subcommittee, presiding.

           OPENING STATEMENT OF HON. JOHN E. SUNUNU, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Sununu. Good morning. We're going to begin on time 
this morning. For those members that may be joining us later in 
this hearing, we do have a vote scheduled for 10:45 or 11, so I 
am going to move forward with a very brief opening statement 
but then move directly to the witness testimony so we have much 
time as possible for your statements and for questions as well.
    This is the second hearing of the National Ocean Policy 
Study dealing with offshore aquaculture. I'll note that today 
is the 13th Annual World Oceans' Day which was marked by events 
all across the world. In April we heard from our panel of 
experts on the potential and the challenges of allowing 
deepwater fish farming operations in Federal waters.
    Today we will focus on the regulatory steps that are 
necessary to ensure that such operations take place in an 
environmentally sustainable matter. International fish farming 
accounts for a very significant and growing portion of the 
seafood that Americans consume every day. These fish and 
shellfish are raised and harvested overseas far from the reach 
of American environmental standards, but we do not have a 
functional method here in this country for American companies 
to meet the growing demand in our own Federal waters.
    The early results from deepwater aquaculture around the 
country have been excellent. Small scale and research 
operations off the coasts of New Hampshire, Hawaii and Puerto 
Rico are raising high-quality products with little if any 
detectable impact on water quality, wild fish stocks or human 
health. This Subcommittee is exploring the best approach to 
expanding these operations in the future and we ask today's 
witnesses to help us identify the standards required to ensure 
that water quality, wild fish stocks and human health remain 
protected.
    I will ask that the all of the witnesses submitted 
testimony and any supplemental materials be made part of the 
record and that the record will remain open for 2 weeks for 
additional questions that members might want submit. I also ask 
consent to place in the record a statement from Professor 
Thomas McIlwain who is Director Emeritus of the University of 
Southern Mississippi Gulf Coast Research Laboratory.
    [The information referred to follows:]

Prepared Statement of Thomas D. McIlwain, Director Emeritus, University 
        of Southern Mississippi, Gulf Coast Research Laboratory
    First I would like to thank you for introducing ``The National 
Offshore Aquaculture Act of 2005'' and for this and the previous 
hearing held in April on this most important legislation. It is 
important legislation that will, when enacted, contribute to a stable 
and sustainable domestic food supply. It is also important that all of 
the issues involved in developing this new industry be fully discussed. 
Seafood and the seafood industry are integral to the culture and 
economy of the Northern Gulf of Mexico region (NGOM). Here as in other 
places, fish stocks are under pressure and aquaculture is perhaps one 
more approach to both meet the growing demand for fish and fish 
products and to rebuild the seafood industry in the post-Katrina era.
    Global production of wild-caught seafood is generally considered to 
be at maximum capacity and unsustainable over the long term. As demand 
for seafood continues to increase over the years, aquaculture 
production has become the fastest growing sector of worldwide food 
production. This increased production worldwide has lead in part to a 
U.S. trade deficit in fishery products of over $7 billion. Worldwide, 
cage or net pen culture including offshore, open ocean cage culture has 
contributed a significant and growing portion of production. In the 
United States, however, the growth has elicited concerns and anxieties 
that include competition for space and resources with industrial and 
recreational user groups, the use of non-indigenous species, impacts on 
genetic diversity of wild stocks, disease, and environmental issues 
such as exposure to human-induced pollution and the impact of waste 
feed, chemicals, and excretory effluent. This legislation will address 
these concerns and speed the development of the industry, especially 
the permitting process. It is imperative that we develop information to 
address these concerns as well as to designate one agency as the lead 
agency responsible for the development of this new industry. The 
legislation will allow the building of a foundation for sustainable 
economic development of aquaculture that will contribute to the 
redevelopment of the seafood industry along the NGOM following 
Hurricane Katrina and contribute to the development of a more stable 
domestic food supply for the U.S. and contribute to a reduction in our 
fishery trade deficit.

    At this time, I am going to introduce each of the panelists 
and let me just check the order. We will take the statements in 
the order that I introduce you.
    Let me go through all of the introductions and I do 
appreciate the time you have all taken to be here.
    Tim Keeney is the Deputy Assistant Secretary of Commerce 
for Oceans and Atmosphere. Mr. Keeney is responsible for 
environmental policies, strategic planning and program analysis 
for a number of ocean issues ranging from invasive species to 
ocean observations, and I welcome him here once again.
    Tim Eichenberg is the Director of the Ocean Conservancy's 
Pacific Regional Office in San Francisco. He also teaches ocean 
and coastal law at Vermont Law School.
    Dr. Randy MacMillan is President of the National 
Aquaculture Association. That's the largest national trade 
association representing a very diverse group of aquatic animal 
species producers. He also serves as a member of the National 
Agricultural Research Extension's Education and Economics 
Advisory Board.
    Marianne Cufone. Did I pronounce that right? Marianne 
Cufone is the Managing Partner of Environment Matters, an 
environmental consulting firm based in Tampa and David Bedford 
is Deputy Commissioner of Fisheries for the Alaska Department 
of Fish and Game. That's a lot of fish and a lot of game. He 
brings to this hearing great experience in government but also 
as an owner and operator of a commercial fishing vessel and is 
past director of the Southeast Alaska Seiners Association.
    Welcome of all of you and we will begin with the testimony 
of Mr. Keeney.

               STATEMENT OF TIMOTHY R.E. KEENEY,

           DEPUTY ASSISTANT SECRETARY FOR OCEANS AND

          ATMOSPHERE, NATIONAL OCEANIC AND ATMOSPHERIC

             ADMINISTRATION, DEPARTMENT OF COMMERCE

    Mr. Keeney. Good morning and thank you for inviting me to 
testify on behalf of the Administration on S. 1195, the 
National Offshore Aquaculture Act of 2005. My name is Tim 
Keeney. I'm Deputy Assistant Secretary of Commerce for Oceans 
and Atmosphere at the National Oceanic and Atmospheric 
Administration within the Department of Commerce.
    My testimony today will address the opportunities and 
challenges by offshore aquaculture and the Federal Government's 
role in setting the stage for more robust commercial production 
of cultured seafood. We believe the development of the domestic 
marine aquaculture industry in the United States is essential 
to meet the growing demand for seafood.
    Right now, the U.S. imports over 70 percent of our seafood 
and half of those imports are products of aquaculture. This 
bill presents a rare opportunity for the United States to 
become more self-sufficient in the production of health seafood 
by growing more of it here at home. This bill also lays the 
foundation for creating more jobs in coastal communities, and 
for reducing our nearly eight billion dollar seafood trade 
deficit. In terms of where aquaculture fits with commercial 
fishing, we believe the U.S. must develop aquaculture as a 
complement to commercial fishing because both are needed to 
produce seafood to meet growing demand.
    Now is the time for us to be bold and decisive, to look 
into the future, to develop offshore aquaculture.
    On April 6th, Dr. Bill Hogarth, NOAA's Fisheries 
Administrator, emphasized that NOAA considers S. 1195 to be a 
starting point. I want to underscore that point again today. 
The Administration believes that S. 1195 maps out a careful and 
inclusive process to establish a regulatory structure for 
offshore aquaculture.
    Our goal is to work with you and our stakeholders to create 
an opportunity for aquaculture in Federal waters so we can 
ensure that the industry develops in a predictable and 
environmentally compatible and sustainable manner in 
conjunction with our wild harvest. We also want to ensure that 
our other top priorities, including the protection of the 
marine environment, the rights of other users of the marine 
resources, and human health and safety. However, we also 
acknowledge that there are concerns about the bill and we would 
like to work with the Subcommittee to address those concerns.
    We want to assist in developing clarifying language 
regarding environmental requirements, including the need to 
provide for public comment and to consider risks and impacts 
including cumulative impacts.
    I'd also like to stress that the U.S. is prepared to take 
this step forward toward offshore aquaculture. The socio-
economic issues and environmental impacts associated with 
marine aquaculture are not new. NOAA and the Federal agencies 
have been working to address this for over 30 years by funding 
cutting-edge research and technology development. In addition 
to this work, NOAA has been preparing specifically for offshore 
aquaculture for the past 10 years.
    Thirty years of improvements to marine finfish and 
shellfish aquaculture practices in the United States and abroad 
have shown that many problems can be prevented by continuous 
technological innovation, best management practices, careful 
species selection, aquaculture animal health programs, proper 
site selection and development of alternatives to fish meal and 
fish oils in feed.
    I would like to give a brief overview of these 
environmental safeguards. First best management practices have 
been developed and refined over the years to ensure that 
aquaculture operations minimize risk and operate safely and 
securely. Some standard management practices used today to 
reduce risk associated with aquaculture include regular 
inspection by divers to ensure the integrity of nets and net 
infrastructure; cameras and surveillance to monitor efficient 
use of feed; regular health inspections to prevent disease and 
comprehensive sanitary and bio-security programs to prevent the 
introduction and/or spread of pests and diseases.
    Another key environmental safeguard is species selection 
which is one of the most effective techniques available to 
reduce the impact of escapes. NOAA and other agencies have over 
30 years of experience in stock enhancement research and 
programs to support commercial and recreational fishing.
    Another key safeguard for protecting wild stocks is aquatic 
animal health. Good aquatic animal health practices and 
programs are well established in the U.S. More important, these 
practices further reduce the possibility of negative health 
impacts on wild resources from cultured aquatic animals.
    Another important issue that NOAA continues to advocate is 
careful site selection as a key factor in minimizing 
environmental risk and maximizing the environmental benefits of 
aquaculture--no matter what organism is being cultured. That 
means that operators and NOAA will seek to provide the maximum 
benefit with the smallest ecological footprint.
    Another area of aquaculture where advancements are being 
made is the development of alternatives to fishmeal and fish 
oil for feed. It is a fact that overall the reliance on 
fishmeal and fish oil for aquaculture has been significantly 
reduced based on research advances using plant-based 
alternatives in feed.
    NOAA plays a vital role in that research. Groundbreaking 
research includes using soybeans, barley, rice, peas and other 
crops as alternatives is expanding in the U.S. and across the 
globe. Further development of plant-based feeds also represents 
a huge economic opportunity for American agriculture.
    Finally, I would like to address a vexing issue related to 
both wild and cultured seafood that is the misinformation 
related to the health and safety of seafood products. 
Inaccurate information about the safety of our seafood supply 
hurts all of us. In light of this, NOAA will take every 
opportunity to address and underscore seafood safety based on 
the latest, fact-based information from leading scientists, 
nutritionists and medical and health care professionals. It's 
clear based on the facts that the health benefits of eating 
seafood far outweigh the risks due to trace-level contaminant 
exposure.
    In fact, recent studies link seafood consumption to higher 
intelligence in babies and children, lower heart rates in 
adults, lower cholesterol, lower blood pressure and lower body 
weight, and seafood has been scientifically shown to fight 
cardiovascular disease, cancer, Alzheimer's disease and other 
major illnesses. So the bottom line here is eat seafood, both 
wild and cultured. It is good for your mind and good for your 
heart. This again was confirmed by an FDA advisory to consumers 
2 days ago.
    So in conclusion, the Department is looking forward to 
working with you, the public, the fishing and aquaculture 
industries, and the environmental community to craft a 
regulatory framework for offshore aquaculture. In the long run, 
U.S. fish communities will be harmed more by foreign 
competition than by a robust domestic aquaculture industry. The 
challenge is to find ways for our domestic fishing industry and 
coastal communities to benefit from the use of aquaculture 
technologies to produce additional seafood as fisherman are 
doing in some parts of the U.S. and other countries. Offshore 
aquaculture has great potential to make a significant 
contribution to our seafood supply and our Nation's economy, 
but this potential will be realized in the U.S. only if we can 
provide the regulatory certainty for businesses to make sound 
investment decisions. S. 1195 will give the Department the 
authority it needs to provide the regulatory certainty. I 
appreciate the opportunity to testify today in support of 
advancing the National Offshore Aquaculture Act of 2005.
    I would be happy to answer any questions.
    [The prepared statement of Mr. Keeney follows:]

 Prepared Statement of Timothy R.E. Keeney, Deputy Assistant Secretary 
      for Oceans and Atmosphere, National Oceanic and Atmospheric 
                 Administration, Department of Commerce
    Chairman Sununu and Members of the Subcommittee, good morning and 
thank you for the invitation to testify on behalf of the Administration 
on S. 1195, the National Offshore Aquaculture Act of 2005. My name is 
Tim Keeney, and I am the Deputy Assistant Secretary for Oceans and 
Atmosphere at the National Oceanic and Atmospheric Administration 
(NOAA), within the Department of Commerce.
    My testimony today will address the opportunities and challenges 
posed by offshore aquaculture and the Federal Government's role in 
setting the stage for more robust commercial production of cultured 
seafood. We believe the development of the domestic marine aquaculture 
industry in the United States is essential to meet the growing demand 
for seafood.
    Right now, the United States imports over 70 percent of our seafood 
and half of those imports are products of aquaculture. This bill 
presents a rare opportunity for the United States to become more self-
sufficient in the production of healthy seafood by growing more of it 
here at home. This bill will also lay the foundation for creating more 
jobs in coastal communities, and for reducing our nearly $8 billion 
seafood trade deficit. The United States must develop aquaculture as a 
complement to commercial fishing because both are needed to produce 
seafood to meet the growing demand. Now is the time for us to be bold 
and decisive, to look to the future and to develop offshore 
aquaculture.
The National Offshore Aquaculture Act is a Starting Point
    On April 6th, Dr. Bill Hogarth, the Assistant Administrator for 
Fisheries at NOAA, testified before this Subcommittee and emphasized 
that NOAA considers S. 1195 to be a starting point. I want to 
underscore that point again today. The Administration believes that S. 
1195 maps out a careful and inclusive process to establish a regulatory 
structure for offshore aquaculture. NOAA would like to work with the 
Committee to address the amendments and concerns about the bill. We 
want to help clarify language regarding environmental requirements, 
including the need to provide for public comment and to consider risks 
and impacts, including cumulative impacts. Our goal is to work with you 
and our stakeholders to create an opportunity for aquaculture in 
Federal waters so we can ensure that the industry develops in a 
predictable, environmentally compatible, and sustainable manner in 
conjunction with our wild harvest. We also want to ensure other top 
priorities, including the protection of the marine environment, the 
rights of other users of marine resources, and human health and safety.
    Of the many challenges faced, regulatory uncertainty is widely 
acknowledged as the major barrier to the development of offshore 
aquaculture in the United States. S. 1195 will provide regulatory 
certainty, which is important to the offshore aquaculture industry as 
well as to those who are concerned about the potential impacts of 
offshore aquaculture. Business needs regulatory certainty to make sound 
investment decisions and obtain financing. Those concerned about the 
impacts of offshore aquaculture need to know the industry will be held 
to strict environmental standards.
    Enactment of S. 1195 would authorize the Department of Commerce to 
directly regulate aquaculture in Federal waters, and to establish a 
coordinated permitting process among Federal agencies. We envision a 
one-stop regulatory shop, coordinated by NOAA, and integrated into 
NOAA's environmental stewardship responsibilities. Action on S. 1195 
will allow us to begin a public rulemaking process to produce a 
comprehensive, environmentally sound permitting and regulatory program 
for aquaculture in Federal waters, as we committed to do as part of the 
U.S. Ocean Action Plan.
    S. 1195 will:

  <bullet> Authorize the Secretary of Commerce to issue offshore 
        aquaculture permits and to establish environmental requirements 
        where existing requirements under current law are inadequate;

  <bullet> Stipulate that aquaculture will not be subject to fishing 
        regulations that restrict size, season, and harvest methods;

  <bullet> Require the Secretary of Commerce to work with other Federal 
        agencies to develop and implement a coordinated permitting 
        process for aquaculture in Federal waters. This includes the 
        authority to require that development proceeds in an 
        environmentally responsible manner that protects wild stocks 
        and the quality of offshore ecosystems and is compatible with 
        other uses;

  <bullet> Establish a research and development program in support of 
        offshore aquaculture; and

  <bullet> Provide for enforcement of the Act, its implementing 
        regulations, and the terms and conditions of any permits issued 
        under the Act.

    The bill will not supersede existing laws such as those concerning 
navigation, offshore structures, management of fisheries, environmental 
quality, protected resources, and coastal zone management. The 
implementation of the offshore aquaculture bill will complement NOAA's 
management and research responsibilities over wild fisheries and 
resolve some of the challenges the agency has faced trying to manage 
existing aquaculture under laws, regulations, and fishery management 
plans written for wild harvest fisheries.
    Once a bill is enacted, NOAA envisions that a substantial role for 
the Regional Fishery Management Councils will evolve as part of the 
rulemaking process. A well-defined consultation process for the 
Councils will be integral to the success of the permitting process for 
aquaculture in Federal waters.
    Under S. 1195, NOAA would consult with the Councils in the 
development of regulations, in the establishment of environmental and 
other requirements (especially as they relate to interactions with wild 
stocks managed by the Councils), and in the review of individual permit 
applications. Councils may also help identify areas of the U.S. 
Exclusive Economic Zone (EEZ) where offshore aquaculture would be least 
likely to interfere with known fishing activities and other managed 
areas offshore.
Aquaculture is an Important Opportunity for U.S. Coastal Communities
    By enacting legislation to allow the development of an offshore 
aquaculture industry in the United States, we are creating 
opportunities for coastal communities struggling with issues of 
overcapitalization and limited harvests in commercial fishing. With a 
more robust domestic aquaculture industry, boats used for fishing could 
also service aquaculture operations. Similarly, seafood industry 
infrastructure could process and distribute both cultured and wild 
harvest fishery products. Domestic aquaculture could provide a steady, 
year-round source of product and, in some locations, it could prevent 
processing facilities from closing down altogether due to insufficient 
harvest from wild fisheries.
    Aquaculture, like agriculture, requires inputs of goods and 
services from many sources, while its outputs are processed into value-
added offerings. Beneficiaries include owners and employees of 
aquaculture businesses, equipment suppliers, boat owners and operators, 
feed ingredient suppliers (e.g., soybean farmers and fishermen who 
supply fishmeal), feed manufacturers, seafood processors, and 
transportation and distribution companies. Other opportunities include 
sales, marketing, and accounting services. In turn, these activities 
benefit the coastal communities in which these businesses operate. And, 
of course, the public will eat seafood and benefit from its health 
attributes.
    The successes of aquaculture-related businesses to date have 
demonstrated direct economic benefits from an increase in domestic 
aquaculture production, including offshore. More and more communities 
are recognizing that aquaculture presents a sustainable alternative for 
areas hit hard by job losses, natural disasters, or other challenges. 
As interest grows, these communities are beginning to integrate 
aquaculture into their economies. For example, NOAA research and 
technology on the culture of oysters, mussels, clams, hybrid striped 
bass, offshore shrimp, abalone, moi, cobia, salmon, and crayfish has 
helped build annual aquaculture production in the United States to an 
industry worth over $150 million a year. One highlight is the Hawaiian 
Islands, where Sea Grant estimates the number of aquaculture 
enterprises is up to 126 farms valued at $25.2 million supporting 
approximately 630 jobs.
    Preliminary NOAA economic assessments indicate that the development 
and expansion of offshore aquaculture in the United States Federal 
waters could also significantly contribute to job creation. Preliminary 
production estimates indicate that domestic aquaculture production of 
all species could increase to 1 million tons per year by 2025. The 
additional production could include 760,000 tons from finfish 
aquaculture, 47,000 tons from crustacean production, and 245,000 tons 
from mollusk production. Of the 760,000 tons of finfish aquaculture, 
590,000 tons could come from marine finfish aquaculture.
Aquaculture and Commercial and Recreational Marine Fisheries
    NOAA is currently studying the economics of offshore aquaculture as 
it relates to commercial and sport fishing, market opportunities, 
global trends, underused processing capabilities, value-added niche 
markets, and coastal job development. The report, which will be 
available in late 2006, is the next step toward anticipating and then 
designing a strategy to address the socioeconomic questions associated 
with aquaculture production.
    Although NOAA is certain benefits will result from the bill, the 
agency must consider its potential impacts as well, including the 
impact on our Nation's commercial fisheries. Some have expressed 
concern that offshore aquaculture will hurt wild harvest in the United 
States. If aquaculture is managed correctly, we do not believe wild 
harvest will be affected.
    Aquaculture products, whether imported or domestic, compete with 
wild-caught fisheries. And this competition will exist with or without 
domestic aquaculture. We live in a global market and demand for seafood 
products is growing. The United States cannot meet that demand through 
wild-caught fishing activities alone. Seafood imports and other forms 
of protein, such as beef and chicken, already provide significant 
competition. Over 70 percent of the seafood Americans consume annually 
is imported, and half of those imports come from foreign aquaculture 
operations. The challenge is to integrate aquaculture into domestic 
seafood production so that our boat owners, fishermen, processors, and 
marketing companies can benefit directly.
    Recreational and commercial fishing will also benefit from 
hatcheries and stock enhancement techniques developed for offshore 
aquaculture. Currently, U.S. hatcheries grow finfish and shellfish to 
enhance recreational and commercial fishing stocks with great success. 
For example, recreational fishermen in Southern California and the 
Hubbs-SeaWorld Research Institute are cooperating on a white seabass 
restocking program. This excellent program helped rebuild and sustain 
the valuable recreational fishery for seabass in California.
    The United States needs a strong commercial fishing industry and a 
robust aquaculture industry to meet projected seafood demand and supply 
the Nation's stock enhancement needs. While we look for aquaculture to 
help meet demand, NOAA will continue to assist wild-capture fisheries 
with management programs, stock enhancement, and marketing to channel 
wild-capture products to high-valued premium market outlets. But we 
also need to supply that vast middle market that demands a year-round 
supply of affordable, healthy, and safe seafood. We can do this through 
domestic aquaculture.
Preparing for Offshore Aquaculture in the United States
    The socioeconomic issues and environmental impacts associated with 
aquaculture are not new. NOAA and other Federal agency partners have 
been working to address them for the past 30 years by funding cutting-
edge research and technology development. In addition to this work, 
NOAA has been preparing for offshore aquaculture for the past 10 years. 
NOAA is currently:

  <bullet> Designing environmental risk management guidelines for 
        aquaculture, as highlighted in a recently published NOAA 
        technical memo (Guidelines for Ecological Risk Assessment of 
        Offshore Fish Aquaculture [NOAA Technical Memorandum NMFS-
        NWFSC-71]);

  <bullet> Analyzing the economics of offshore aquaculture;

  <bullet> Outlining regulatory steps to be taken if legislation is 
        passed;

  <bullet> Consulting with communities and businesses; and

  <bullet> Examining aquaculture's role in ecosystem management with an 
        international group of experts.

    With leadership and foresight provided by NOAA through the National 
Marine Aquaculture Initiative's competitive grants program, the United 
States has invested over $10 million in offshore aquaculture research. 
The resulting technology is in use in commercial applications in 
Hawaii, Puerto Rico, and New Hampshire. All of these operations involve 
some combination of U.S. investors, including coastal fishermen, 
university scientists, and local processing, hatchery, feed, and 
equipment supply companies.
Environmental Standards
    Also central to the National Offshore Aquaculture Act is the 
authority to establish rigorous environmental standards. For example, 
S. 1195 authorizes regulations or permit conditions to avoid, minimize, 
or mitigate unacceptable impacts. The bill also authorizes emergency 
actions to address unanticipated impacts in a timely manner. S. 1195 
does not override or preempt existing laws to protect the offshore 
environment, wild stocks, endangered species, marine mammals, and 
habitat.
    Thirty years of improvements to marine finfish aquaculture 
practices in the United States and abroad have shown that many problems 
can be prevented by continuous technological innovation, best 
management practices, careful species selection, and proper site 
selection.
    Today's aquaculture cages, pens, and anchoring systems are more 
durable and have dramatically reduced the number of escaped fish. We 
expect these types of technological innovations will continue to 
develop.
Best Management Practices
    Best management practices have also been developed and refined over 
time to ensure that aquaculture operations minimize risk and operate 
safely and securely. Some standard management practices used today to 
reduce or mitigate the risks associated with aquaculture include:

  <bullet> Regular inspections by divers to ensure the integrity of 
        nets and net infrastructure;

  <bullet> Cameras and surveillance to monitor efficient use of feed, 
        which reduces discharges of uneaten feed into the marine 
        environment;

  <bullet> Regular health inspections to prevent disease; and

  <bullet> Comprehensive sanitary and bio-security programs to prevent 
        the introduction and/or spread of pests or diseases from one 
        farm site or cage to another or into the marine environment.

Species Selection
    Another key environmental safeguard is species selection, which is 
one of the most effective techniques available to reduce the impact of 
escapes. NOAA and other agencies have over 30 years of experience in 
stock enhancement research and programs to support commercial and 
recreational fisheries. The knowledge gained from these programs will 
allow managers to design safeguards for conserving wild stocks.
    All of the open ocean aquaculture efforts currently in the United 
States involve species native to the region in which the demonstration 
project or commercial operation is located. For example, the University 
of New Hampshire's Open Ocean Aquaculture project raises blue mussels, 
cod, haddock, and halibut--all native to the Northeast. The open ocean 
operations in Hawaii raise Pacific threadfin and yellowtail, both 
native to the islands. With careful broodstock management, selective 
breeding protocols and technologies, and good management practices to 
prevent escapes, the culture of indigenous species should present few, 
if any, risks to wild stocks. Scientific protocols for considering and 
testing the use of non-native species are also well-established.
    Aquaculture operations in coastal waters in the United States have 
never raised genetically modified fish--another concern often raised in 
the context of non-native species. The knowledge NOAA and other 
agencies have gained from existing stock enhancement programs for 
commercial and recreational fishing--which include deliberate releases 
of finfish, oysters, and crabs for replenishment--will allow managers 
to design appropriate safeguards for conserving wild stocks.
Aquatic Animal Health
    Comprehensive aquatic animal health programs that include health 
experts administering vaccines and monitoring aquatic species are also 
well-established. These programs further reduce the possibility of 
negative impacts on wild resources by cultured aquatic animals. Because 
aquatic animal pathogens occur naturally in open waters, and wild 
marine organisms serve as natural reservoirs for these disease-causing 
agents, disease outbreaks may occur in both wild and cultured aquatic 
animals. There is little scientific evidence to link disease episodes 
in wild populations of fish, caused by endemic pathogens, to cultured 
animals.
    In its work with the U.S. Departments of Agriculture and the 
Interior and with other Federal agencies, NOAA is developing a National 
Aquatic Animal Health Plan that will provide for safe national and 
international commerce of aquatic animals and the protection of 
cultured and wild aquatic animals from foreign pests and diseases. 
Technological and scientific advances also continue to refine aquatic 
animal health practices. For example, as a result of scientific 
advances, the offshore aquaculture industry has largely replaced 
antibiotics with vaccinations administered before fish are stocked into 
cages.
Site Selection
    NOAA continues to advocate careful site selection as one of the 
keys to minimizing environmental risk and maximizing environmental 
benefits of aquaculture--no matter what organism is under culture. 
Local site characteristics will dictate the proper organism or mix for 
that site, as all areas do not have the same environmental conditions 
and concerns. In some cases, it may be important to encourage a mix of 
organism types, including cultured finfish, filter feeding mollusks, 
marine algae, and other species. Applicants and NOAA will seek to 
provide the maximum benefit with the smallest ecological footprint.
Alternatives to Fishmeal and Fish Oil Developing Quickly
    Another area of aquaculture where advancements are being made is in 
developing alternatives to fishmeal and fish oil for feeds. From a 
purely economic perspective, feed is a major component of the cost of 
production in an aquaculture operation. Typically, the cost of feed 
accounts for over 60 percent of operating costs, so there are strong 
economic incentives for the industry to help develop suitable 
alternative ingredients for feed formulas, and to become more efficient 
in converting feed into product.
    Overall, the reliance on fishmeal and fish oil for aquaculture has 
been significantly reduced based on research advances using plant-based 
alternatives to fishmeal and fish oil. NOAA plays a vital role in that 
research. For example, scientists at NOAA's Northwest Fisheries Science 
Center, along with scientists from other agencies and industry, are 
developing alternative feed ingredients for cultured species, including 
finfish. This groundbreaking research--using soybeans, barley, rice, 
peas, and other crops as alternatives--is expanding in the United 
States and across the globe.
    Other meals such as canola, lupine, wheat gluten, corn gluten, and 
various plant protein concentrates--many of them grown in the United 
States--have already been shown to be highly palatable and digestible 
for fish. As the price of alternative ingredients drops below that of 
fishmeal, those ingredients will be substituted for fishmeal and fish 
oil.
    Further development of plant-based feeds also represents a huge 
opportunity for American agriculture, as the United States produces an 
abundance of high-quality proteins and fats that could be used in fish 
production. Increased production of high-protein by-products from bio-
diesel production, and high-protein and high-fat by-products from 
ethanol and bio-plastics production, are likely in the future. Feed 
experts believe these by-product meals will be ideal for fish 
production.
    Although the amount of fishmeal and fish oil in feeds will be 
reduced as alternative ingredients come online and the cost drops, they 
likely will not disappear from feed altogether. Research on plant-based 
oils has found that maintaining some fish oil in fish feed is important 
to maintain the health benefits to humans of eating marine fish, 
including the long-chain Omega-3 fatty acids.
    Scientists are most concerned about two healthy fatty acids--
decosahexinoic acid (DHA) and ecospentanoic acid (EPA). These fatty 
acids are not produced by fish, but fish concentrate them in their fats 
from the prey they eat. DHA and EPA are made by algae and 
microorganisms and are passed up the food chain. These organisms can be 
cultured directly to produce concentrated DHA and EPA. In fact, all the 
DHA currently used in baby formula in the United States comes from 
production of micro-algae, not from fish oil. Although it is costly, 
experiments have shown that a small amount of this concentrated algae 
oil can be added to vegetable oil to restore the healthy fatty acids in 
the final product. In addition, other healthy fats, such as the shorter 
chain Omega-3 fatty acids found in olive and flax oil, can also be 
incorporated into the cultured fish. NOAA and other Federal agencies 
are working with industry on research to develop lipid substitutes, 
such as marine micro-algae production, to reduce reliance on fish and 
fish oil. The agencies, research institutions, and others will continue 
to work with grain and feed companies and with feed researchers to find 
suitable alternatives for fishmeal and fish oil.
Seafood and Human Health
    A vexing issue related to seafood, both wild and cultured, is the 
misinformation related to the health and safety of seafood products. 
NOAA's mission includes a focus on human health and safety, and NOAA 
seeks to maintain a positive connection between human health and 
seafood. Misinformation about the safety of our seafood supply includes 
published research that has been shown to be inadequate, flawed, or 
biased. This research continues to be cited, especially by critics of 
aquaculture. NOAA will take every opportunity to address seafood safety 
based on the latest, fact-based information from leading scientists, 
nutritionists, and medical and healthcare professionals.
    Peer-reviewed studies, including those presented at the 
international Seafood & Health Conference co-sponsored by NOAA in 
December 2005, link seafood consumption to higher intelligence in 
babies and children, lower heart rates in adults, lower cholesterol, 
lower blood pressure, and lower body weight. It is clear, based on the 
facts, that the health benefits of eating seafood far outweigh the 
risks due to trace-level contaminant exposure. Seafood has been 
scientifically shown to fight cardiovascular disease, cancer, 
Alzheimer's disease, and other major illnesses.
Conclusion
    Mr. Chairman and Members of the Subcommittee, the Department is 
looking forward to working with you, the public, the fishing and 
aquaculture industries, and the environmental community to craft a 
regulatory framework for offshore aquaculture. The U.S. Exclusive 
Economic Zone is 3.4 million square miles and NOAA is confident there 
are appropriate sites where aquaculture facilities could operate 
without compromising the protection of wild stocks, environmental 
quality, or people's livelihoods. In the long run, U.S. fishing 
communities will be harmed more by foreign competition than by a robust 
domestic aquaculture industry. The challenge is to find ways for our 
domestic fishing industry to benefit from the use of aquaculture 
technologies to produce additional seafood--as fishermen are doing in 
some parts of the United States and in other countries.
    Offshore aquaculture has great potential to make a significant 
contribution to our seafood supply and the economy, but this potential 
will be realized in the United States only if we can provide the 
regulatory certainty for businesses to make sound investment decisions. 
S. 1195 will give NOAA the authority it needs to provide that 
regulatory certainty. I appreciate the opportunity to present the 
National Offshore Aquaculture Act of 2005 to you today, and I will be 
happy to answer any questions.

    Senator Sununu. Thank you, Mr. Keeney.
    Mr. Eichenberg.

            STATEMENT OF TIM EICHENBERG, DIRECTOR, 
         PACIFIC REGIONAL OFFICE, THE OCEAN CONSERVANCY

    Mr. Eichenberg. Good morning Mr. Chairman, Senator Boxer. 
My name is Tim Eichenberg, and I am the Director of the Pacific 
Regional Office of The Ocean Conservancy. Thank you for 
inviting me to testify before your Committee today.
    I commend you for carefully considering an issue of great 
importance for the future of the oceans. Some may view offshore 
aquaculture as the solution to the U.S. seafood deficit and 
declining ocean fisheries. But two recent national ocean 
commissions and numerous studies have noted that, unless 
carefully and sustainably managed, marine finfish aquaculture 
can exacerbate, not redress declining fisheries and ocean 
health.
    I first examined this issue in the early 1990s for the 
Marine Law Institute at the University of Maine School of Law, 
just as the salmon farming industry was taking off in Maine. In 
Maine I first saw salmon infested with sea lice, and realized 
the promise of aquaculture was accompanied by certain risks and 
impacts.
    More recently, I worked on two studies by the Center for 
Marine Policy at the University of Delaware that examined the 
lack of a coherent policy framework for offshore marine 
aquaculture in the EEZ, and developed a set of very detailed 
recommendations fashioned by stakeholders for a sustainable and 
precautionary program for planning, siting, zoning, leasing, 
permitting, monitoring, mitigating, and enforcing offshore 
aquaculture operations.
    And just last month, I completed work on legislation in 
California that was signed by Governor Schwarzenegger on May 
26, sponsored by the Ocean Conservancy and California Senator 
Joe Simitian, that provides comprehensive standards for leasing 
state waters for marine finfish aquaculture. The bill was 
supported by more than 30 business, academic, conservation, and 
fishing organizations, and I'm submitting a copy of this 
legislation for the record.
    These experiences have led me to conclude that our oceans 
are public trust that require the sustainable and precautionary 
management of commercial fish farming operations to address the 
potentially serious risks to marine ecosystems, consumer 
health, fisheries and fishing communities described to this 
Committee at its April 6th hearing by Dr. Goldberg and in 
numerous scientific studies cited in our written testimony.
    Briefly these risks fall into the following categories: 
Competition with and genetic alteration of wild fish stocks; 
the spread of disease pathogens and parasites; the use of 
antibiotics, pesticides, parasiticides, hormones and other 
chemicals; the degradation of water quality and benthic habitat 
from fish wastes; harmful interactions with marine mammals and 
other wildlife near fish pens; the adverse ecosystem impacts 
and the loss of ocean protein from the consumption of about 12 
percent of the world's catch and 40 percent of the world's fish 
meal supply used for fish feed; and high levels of toxic 
chemicals found in some farmed salmon and in wild fish near 
fish pens.
    After carefully reviewing the bill before your Committee 
(S. 1195), I regretfully conclude that it does not meet the 
high standards needed to protect the public trust, or address 
these potentially serious impacts, nor has NOAA answered key 
questions on how this legislation will prevent offshore fish 
farming from exacerbating the serious problems that already 
face the oceans. We're submitting a copy of these questions for 
the record.
    Congress can be very specific when it wants to be and 
deferring to NOAA regulations to address these concerns is not 
sufficient. Congress is abdicating its public trust 
responsibilities over the EEZ if it does not provide specific 
standards to ensure that any regulations promulgated 
meaningfully address a number of critical issues, many of which 
were addressed by Mr. Keeney in his testimony.
    I'd like to list some of the standards in the California 
bill and suggest they be incorporated into this Federal bill: 
All leases and permits for offshore aquaculture should be 
issued through a transparent process to resolve conflicting 
uses, provide a fair return to the public and generate 
sufficient funds to pay for administering the program; 
environmental analyses under NEPA should be conducted both at a 
programmatic or legislative level, as well as the project level 
to address planning and siting issues and individual and 
cumulative impacts; non-native and genetically modified species 
should not be farmed in ocean waters and strict broodstock 
controls on farmed native species should be required; sites 
should not be leased that conflict with fishing and other 
public trust uses, or are located within special ocean areas 
such as marine sanctuaries, marine protected areas or essential 
fish habitat; pollution should be prevented to the maximum 
extent possible through discharge limits, husbandry, siting, 
density controls and species integration; alternatives to drugs 
and chemicals should be required whenever available and 
permitted only if minimized to the maximum extent possible to 
provide both safe and healthy seafood through these kinds of 
controls; alternatives to feeds produced from wild caught fish 
should be required whenever available and only sustainably 
harvested ingredients should be utilized; baseline assessments 
should be conducted prior to issuing permits and all sites 
should be monitored regularly; lessees must be held responsible 
for damages to the marine environment and for restoring sites 
to pre-leased conditions; fish should be removed, leases 
terminated and the facilities closed if operations pose a 
danger to the marine environment; and all facilities and 
operations must be designed to prevent the escape of farmed 
fish, all escapes should be reported immediately, and all fish 
should be tagged or marked so farms are accountable for 
escapes.
    Legislation that contains standards such as these, recently 
enacted in the bipartisan bill in California, can guide the 
development of a sustainable offshore aquaculture industry and 
the promulgation of comprehensive regulations to protect the 
marine environment, resolve conflicts with ocean uses and 
prevent further decline in fisheries and ocean health. I urge 
the Committee to consider such an approach.
    Thank you again for the opportunity to address the 
Committee and I welcome any questions you might have.
    [The prepared statement of Mr. Eichenberg follows:]

   Prepared Statement of Tim Eichenberg, Director, Pacific Regional 
                     Office, The Ocean Conservancy
Introduction
    Good morning Mr. Chairman and Members of the Subcommittee. My name 
is Tim Eichenberg, and I am the Director of the Pacific Regional Office 
of The Ocean Conservancy. Thank you for inviting me to testify before 
your Subcommittee.
    The Ocean Conservancy strives to be the world's foremost advocate 
for the oceans. Through science-based advocacy, research, and public 
education, we inform, inspire, and empower people to speak and act for 
the oceans. The Ocean Conservancy is the largest and oldest nonprofit 
conservation organization dedicated solely to protecting the marine 
environment. Headquartered in Washington, D.C., The Ocean Conservancy 
has offices throughout the United States, including New England, the 
Southeastern Atlantic, the Gulf of Mexico, the Pacific, and the 
Caribbean.
    I congratulate you for carefully examining an issue of great 
importance for the future of our oceans. Some may view offshore 
aquaculture as the solution to the U.S. seafood deficit and declining 
ocean fisheries. But two recent national ocean commissions and numerous 
scientific studies have noted that, unless carefully and sustainably 
managed, marine finfish aquaculture can exacerbate--not solve--
declining ocean health.\1\
    I first examined this issue in the early 1990s for the Marine Law 
Institute at the University of Maine School of Law, just as the salmon 
farming industry was taking off in Maine.\2\ At that time the industry 
was viewed with great promise for its potential to revive sagging local 
economies hit hard by decades of overfishing, a vision that has been 
only partially realized, due in part to stiff competition from 
inexpensive imports. Maine is where I first encountered farmed salmon 
teeming with sea lice, and realized that the industry's potential is 
tempered by risks that need to be addressed.
    More recently, I worked on two studies by the Center for Marine 
Policy at the University of Delaware that examined the lack of a 
coherent policy framework for offshore marine aquaculture in the U.S. 
Exclusive Economic Zone (EEZ), and developed a set of very detailed 
recommendations fashioned by stakeholders for a sustainable and 
precautionary program for planning, siting, zoning, leasing, 
permitting, monitoring, mitigating, and enforcing offshore aquaculture 
operations.\3\
    And just last month, I completed work on legislation in California 
signed by Governor Arnold Schwarzenegger on May 26th, sponsored by The 
Ocean Conservancy and California Senator Joe Simitian, that provides 
comprehensive standards for leasing state waters for marine finfish 
aquaculture (SB 201, The Sustainable Oceans Act).\4\ The bill was 
supported by more than 30 business, fishing, academic and conservation 
organizations.\5\
    The following testimony discusses the risks associated with marine 
finfish aquaculture; describes the California bill, which the 
Subcommittee should consider in developing an appropriate Federal 
regulatory regime; comments on the Administration's proposal, 
introduced by Senators Ted Stevens and Daniel Inouye as S. 1195, which 
unfortunately in my view is still insufficient to safeguard our ocean 
resources; and suggests ways to better protect our oceans from the 
potential adverse effects of marine finfish aquaculture.
Risks Associated with Marine Finfish Aquaculture
    Open ocean aquaculture is promoted as a solution to the ocean's 
diminishing resources. However, it also poses significant risks, 
including escapement of fish, damage to the surrounding environment, 
harmful effects on native fish populations, and pollution. These risks, 
and their consequences, are largely dependent upon the location of the 
operation, its size or scope, the management practices, the capacity of 
the receiving water body, and the choice of species to be raised in a 
particular area.
    Fish Escapement: Perhaps the single greatest ecological and 
economic threat associated with the growth of offshore aquaculture is 
the potential to introduce invasive species to the surrounding 
ecosystem and nearby coastal communities. Millions of farmed fish 
escape from fish farms because of storms, human error, and predators. 
According to the National Marine Fisheries Service (NMFS) and many 
other authorities, escapes result in harmful interactions with native 
fish, including competition with wild stock for food, habitat and 
mates; transfer of potentially deadly diseases and parasites to wild 
stocks; and genetic modification of wild stocks through inter-
breeding.\6\ Farmed fish are vastly different and can weaken the 
genetic makeup of wild populations.\7\
    Threat of Disease and Pollution: Offshore aquaculture also presents 
numerous additional biological threats to ocean ecosystems. Fish farms, 
like animal feed lots, produce enormous pollution. The excreta from an 
average floating cage farm can produce nutrients and fecal matter equal 
to a city of 20,000-65,000,\8\ and the potential wastes for a $5 
billion U.S. industry--called for by NOAA--would discharge annually the 
nitrogen equivalent of the untreated sewage of 17 million people.\9\ 
Depending upon pollutant composition and the cumulative effects of 
similar cages in a particular area, discharges may cause harmful 
effects on the surrounding environment. Fish farms can change the 
chemical and biological structure of the sediment under net pens, and 
in severe cases cause ``dead zones.'' \10\
    Additionally, outbreaks of diseases and parasites are a constant 
risk because the density of fish in aquaculture operations is so much 
higher than in nature. Disease, pathogens, and parasites multiply 
rapidly in crowded pens and can spread to wild fish stocks. Farmed 
species, depending upon species and diet, can even present increased 
public health risks to the people who consume them. Concentrations of 
Polychlorinated Biphenyls (PCBs), toxaphene, and dieldrine have been 
found to be significantly greater in farmed salmon species than in wild 
species.\11\
    Fish farms also use a wide variety of antibiotics, pesticides, 
parasiticides, hormones, anesthetics and other chemicals that enter the 
marine environment.\12\ Wild fish near fish farms accumulate higher 
amounts of mercury,\13\ and drugs can select for resistant bacteria, 
sometimes even in wild fish consumed by humans.\14\
    Harmful Ecosystem and Marine Wildlife Effects: Seals, sea lions and 
other marine wildlife prey on farmed fish and are targets for predator 
controls and, in some cases, are shot. Acoustic deterrents such as seal 
bombs and intense underwater loud speakers cause disorientation, pain 
or hearing loss, and alter the behavior of marine species.\15\ 
Aquaculture operations also may require dredging, drilling, the use of 
large heavy anchors, and other disturbances to sediment and bottom 
habitats, which can displace ocean wildlife, smother bottom-dwelling 
animals, destroy hiding places for young fish, and cause other 
ecological changes to the sea floor.
    The use of fish meal to feed farmed carnivorous fish produces a net 
loss of fish protein, reduces wild fish populations, and can change the 
distribution and reproductive success of other species throughout the 
marine ecosystem. It can take from 2-5 pounds of wild fish to produce 
one pound of some farmed fish species.\16\ Farmed fish are fed 12 
percent of the world's catch, and consume about 40 percent of the 
world's fishmeal supply (20 billion pounds of fish).\17\
California's ``Sustainable Oceans Act''
    Our oceans are a public trust, and any commercial farming of them 
must be done sustainably and with precaution. Unfortunately, current 
regulations and mitigation strategies at the Federal level are 
inadequate to guide the aquaculture industry or manage its risks. 
Regulatory agencies with overlapping and conflicting authority have 
caused significant confusion regarding environmental requirements, 
siting considerations, leasing procedures and jurisdictional 
responsibility.\18\
    Without careful legislative coordination of NOAA's jurisdiction and 
responsibilities with those of other agencies, we believe problems will 
persist, with potentially serious environmental consequences. Moreover, 
it is imperative that any management regime address specifically and 
comprehensively the potentially serious risks of offshore aquaculture 
to marine ecosystems, consumer health and safety, fisheries, and 
fishing communities.
    It was with this in mind that The Ocean Conservancy sponsored the 
``Sustainable Oceans Act,'' recently passed by the California 
legislature, and signed by Governor Schwarzenegger on May 26. I am 
submitting a copy of this legislation for the record. Sponsors of this 
new law worked with stakeholders and government agency officials for 
more than a year to develop the most comprehensive standards in the 
Nation for marine finfish aquaculture. We believe the standards 
developed for the State of California could serve as a good model for 
any legislation to manage offshore aquaculture within waters under 
Federal jurisdiction.
    The Sustainable Oceans Act establishes a process for leasing state 
marine areas for offshore finfish aquaculture, and does so in a way 
that aims to protect marine life, water quality, and consumers.
    The Act requires finfish farmers to obtain a lease from the 
California Fish and Game Commission (Commission) in order to conduct 
marine finfish aquaculture. It also requires that a programmatic 
environmental impact report (PEIR) for commercial aquaculture 
operations be prepared to provide a framework for managing aquaculture 
in an environmentally sustainable manner throughout the State. In 
addition to identifying coastal locations best suited for finfish 
farming, the PEIR must consider: the effects on human health and the 
marine environment from the chemical and biological products used in 
fish farming; the effects of fish farming on mammals, birds and 
sensitive habitats; the effects of the use of fish meal; and the threat 
of escaped fish on the environment. In addition to the PEIR, the 
California Environmental Quality Act also requires that a separate 
environmental analysis be conducted for each lease to determine if an 
individual environmental impact report (EIR) must also be prepared.\19\
    Under the Act, the Fish and Game Commission may lease marine areas 
for aquaculture only after consultation with affected stakeholders 
through a fair and transparent public process that includes notice and 
comment. In addition, the Commission may only issue leases that meet a 
comprehensive list of standards, all of which are designed and are 
essential to minimize harmful effects on human health and the marine 
environment. These standards include, but are not limited to, the 
following:

        1. Leases may only be adopted by the Fish and Game Commission 
        for commercial finfish aquaculture if the site has been 
        considered appropriate in a programmatic EIR.

        2. Leases cannot interfere with fishing or other public trust 
        uses, disrupt or harm wildlife and habitats, or otherwise harm 
        the marine environment.

        3. Operations must minimize the use of fish oil and fish meal, 
        due to their adverse affects on ocean ecosystems, and 
        alternatives must be used where possible.

        4. Finfish farmers must establish ``best management practices'' 
        that include regular monitoring and reporting, and site 
        inspections. The state Fish and Game Commission can remove fish 
        stocks, close facilities, or terminate a lease if the 
        operations are not in compliance with best management practices 
        or are damaging the marine environment.

        5. Lessees must conduct baseline assessments of the site prior 
        to undertaking operations, and must monitor the habitat during 
        operation.

        6. The numbers of finfish raised and their density within the 
        site must remain limited to what can be safely raised without 
        harming the marine environment.

        7. Lessees must minimize the use of chemicals and drugs, and 
        may only use drugs, therapeutic substances and antibiotics as 
        approved by the U.S. Food and Drug Administration for marine 
        finfish aquaculture.

        8. The Commission must require in a lease that all farmed fish 
        are marked, tagged or otherwise identified as belonging to the 
        operator of the operation.

        9. Facilities must be designed to prevent the escape of farmed 
        fish into the wild, and to withstand severe weather and 
        accidents.

        10. Aquaculture operators must prevent discharges of pollutants 
        to the maximum extent possible, and must meet all the water 
        quality requirements of the State Water Resources Control Board 
        and the applicable regional water quality control board.

        11. Lessees must restore an area to its original condition upon 
        termination of the lease, and are responsible for any damages 
        caused by their operations.

    The standards and requirements established by the Sustainable 
Oceans Act represent an innovative yet common-sense approach toward 
minimizing the risks posed by this emerging industry. California has 
long led the way in protecting the oceans, and once again has set an 
example that Congress can follow to protect our Federal marine areas.
S. 1195: The National Offshore Aquaculture Act of 2005
    In light of the foundation laid by the Sustainable Oceans Act, and 
after carefully reviewing the bill before your Subcommittee, I 
regretfully conclude that it does not meet the high standards needed to 
address the impacts of offshore aquaculture for a number of reasons 
briefly summarized below. Nor has NOAA addressed key questions on how 
the legislation will prevent offshore fish farming from exacerbating 
the serious problems that face the oceans. We are submitting a copy of 
these questions for the record.\20\
    Findings: As currently drafted, the findings of Congressional 
policy in section 2 generally promote the development of aquaculture 
with little acknowledgement of its risks or effects on other ocean 
uses. While the findings acknowledge ``wild stocks'' and ``marine 
ecosystems,'' we recommend the findings be expanded to ensure the 
policy reflects a more balanced perspective on the development of a new 
ocean use and its potential risks to other ocean uses and the marine 
environment.
    Definitions: Section 3 defines ``demonstration'' to include both 
pilot scale-testing of aquaculture science and technologies, or farm-
scale research. This definition is too vague to give sufficient 
guidance. ``Pilot scale,'' ``science,'' ``technologies,'' and ``farm-
scale research'' are subjective terms not defined further in the bill. 
We recommend that you clarify these terms to ensure that demonstration 
projects are conducted in an ecologically protective manner.
    Offshore Aquaculture Permits: Section 4 should be amended to 
provide a stronger framework to ensure offshore aquaculture is well 
coordinated with other ocean uses and protects the public trust. This 
section directs the Secretary of Commerce to establish a site and 
operating permit process to make areas of the U.S. EEZ available to 
persons to develop and operate offshore aquaculture facilities. 
However, it leaves too much agency discretion to the particular 
procedures that will be followed in granting permits, including timing 
of regulatory processes, and the necessary criteria for permitting 
aquaculture operations.
    The bill requires the Secretary to specify the size and location of 
an offshore aquaculture facility in individual site permits, and 
requires consultation with other Federal agencies to ensure that a 
specific offshore aquaculture facility is compatible with other uses of 
the EEZ. The bill lacks, however, a mechanism to determine, in advance 
of individual siting decisions, where offshore aquaculture is, and is 
not, generally appropriate within the EEZ. Similar to the PEIR in the 
California bill, Federal legislation should include a process that 
would clearly articulate criteria and a process for NOAA to follow in 
establishing zones appropriate for development of offshore aquaculture 
operations and areas that are inappropriate such as marine sanctuaries, 
marine protected areas, and essential fish habitat.
    The bill should also include language prohibiting the issuance of 
any aquaculture permits under this section until the agency has 
promulgated comprehensive regulations to guide its decision-making, 
including a process for including the public in the permitting process. 
The timely establishment of clear, consistent, and enforceable 
regulations is critical for both the public and industry.
    Section 4 should also ensure that permitting fees are adequate to 
pay for the costs of administering the program, and that lease or 
royalty payments adequately compensate for the use of public resources 
consistent with the government's public trust responsibilities and 
other Federal laws (such as oil and gas extraction).
    Finally, section 4 should prohibit the use of non-native and 
transgenic species in marine aquaculture operations. States like 
California have already implemented such prohibitions in legislation to 
protect state waters.
    Environmental Requirements: We are concerned that S. 1195 
establishes few parameters to guide agency consideration of the 
ecological impacts of aquaculture facilities. Although subsection 
(4)(c) authorizes the Secretary to issue operating permits under ``such 
terms and conditions as the Secretary shall prescribe'' and subsection 
(4)(d) directs the Secretary to ``consult as appropriate'' with other 
Federal agencies to ensure that offshore aquaculture facilities meet 
the environmental requirements established under section 5(a) of the 
bill, section 5(a) does not establish any new requirements. Instead, it 
simply directs the Secretary to consult with other Federal agencies to 
identify the environmental requirements applicable to offshore 
aquaculture under existing laws and regulations,
    While the bill authorizes the Secretary to establish additional 
environmental requirements, the process for consultation with other 
stakeholders as well as the content of any such additional requirements 
is left to the discretion of the Secretary. Furthermore, paragraph 
(d)(6) requires only that the Secretary ``periodically review'' the 
criteria for issuance of site and operating permits. Given the unique 
risks posed by the burgeoning aquaculture industry, we recommend that 
the bill include standards for siting and operating permits that are 
precautionary, comprehensive, clear, and legally binding, based on 
NOAA's own ``2002 Code of Conduct for Responsible Aquaculture,'' the 
standards for siting, cultured species, pollution control, monitoring 
and leasing in California's Sustainable Oceans Act listed above, and on 
the principles set forth in The Ocean Conservancy's November 1, 2005, 
letter to Senators Stevens and Inouye, submitted for the record.
    Research and Development: S. 1195 allows the Secretary to conduct 
research and development to advance technologies that are compatible 
with the protection of marine ecosystems. This work should be carried 
out in close coordination with other relevant agencies. The bill should 
direct NMFS to develop and publish such research in time to help guide 
development and promulgation of regulations under section 4 of the 
bill.
    Administration: S. 1195 should establish reasonable timelines and 
deadlines for the promulgation of regulations necessary to administer 
this program. As outlined earlier, we believe that the bill should make 
clear that permitting for commercial aquaculture facilities may not 
proceed until the National Marine Fisheries Service has promulgated 
those regulations.
    Additionally, we recommend amendments to subsection 4(c) to detail 
processes for resolving disputes that may that arise in decisionmaking. 
Other than requirements that the Secretary consult with other relevant 
agencies ``as appropriate'' (paragraph 4(d)(1)) and the requirement to 
obtain ``concurrence'' (paragraph 4(a)(2)) from the Department of 
Interior on some decisions, the bill currently does not articulate a 
process for resolving interagency disputes.
    Despite the language of subsection 5(f), subsection 5(g) takes the 
highly unusual step of authorizing the Secretary to apply the 
provisions of any other Federal statute to offshore aquaculture 
facilities if the Secretary determines that it is in the public 
interest. In our view, Congress, and not the Secretary, should 
determine in the first instance whether those laws apply to offshore 
aquaculture facilities.
    Authorization of Appropriations: Section 8 authorizes to be 
appropriated to the Secretary such sums as are necessary to carry out 
the Act. Although this section gives the appropriators wide latitude, 
an authorization for a specific dollar amount in each of the Fiscal 
Years authorized by the bill would give the members of the 
appropriations committee and the public some indication of the 
resources needed to fully and effectively implement this program. We 
suggest that this section also include specific authorizations for 
research and the promulgation of regulations.
    Enforcement: Section 10 of the bill should further clarify the 
circumstances and use of available enforcement authority and 
incorporate a citizen suit provision, similar to those utilized in 
other Federal statutes regulating biological pollution. In addition, we 
believe section 11 should be amended to include a liability in rem 
provision, and that section 13 should include language ensuring that 
forfeited resources made available for sale do not endanger public 
health.
Conclusion
    Thank you again for the opportunity to address the Subcommittee. 
The Ocean Conservancy looks forward to working with you to develop an 
effective and efficient management regime that safeguards the 
environment and protects the public trust.
ENDNOTES
    \1\ Pew Oceans Commission, America's Living Oceans (2003); U.S. 
Commission on Ocean Policy, An Ocean Blueprint for the 21st Century 
(2004).
    \2\ Tim Eichenberg, Legal Methods for Promoting Local Salmon 
Farming in Down East Maine, and An Assessment of the Regulatory 
Framework for Finfish Aquaculture in Marine Waters, Marine Law 
Institute (1992); Improving the Legal Framework for Marine Aquaculture: 
The Role of Water Quality Laws and the Public Trust Doctrine, 2 
Territorial Sea Journal 339 (1992); Growing Pains in Maine's Salmon 
Aquaculture Industry, 6:1 National Coastal Resources Institute News 
(1991).
    \3\ An Operational Framework for Offshore Marine Aquaculture in 
U.S. Federal Waters, The Mangone Center for Marine Policy, University 
of Delaware (October 2005); Development of a Policy Framework for 
Offshore Aquaculture in the 3-200 Mile U.S. Ocean Zone, Center for the 
Study of Marine Policy, University of Delaware (2001).
    \4\ S. 201, Chapter 36, Statutes of 2006. An act to amend Sections 
15400, 5405, 15406, 15406.5, and 15409 of, and to add Sections 54.5 and 
15008 to, the Fish and Game Code, and to amend Section 30411 of the 
Public Resources Code, relating to aquaculture.
    \5\ S. 201 was supported by The Ocean Conservancy (sponsor), 
Bluewater Network, California Coastkeeper Alliance, California Coastal 
Protection Network, California League of Conservation Voters, CalTrout, 
Coastside Fishing Club, Center for Food Safety, Defenders of Wildlife, 
Environment California, Environmental Center of San Luis Obispo, 
Environmental Defense, Environmental Defense Center, Environmental 
Entrepreneurs, Institute of Marine Sciences--US Santa Cruz, Monterey 
Bay Aquarium--Center for the Future of the Oceans, Natural Resources 
Defense Council, Oceana, O'Neil Sea Odyssey, Orange County Coastkeeper, 
Pacific Coast Federation of Fishermen's Associations, Planning and 
Conservation League, Santa Barbara Channelkeeper, San Diego Baykeeper, 
San Luis Obispo Coastkeeper, Santa Monica Baykeeper, Save Our Shores, 
Seaflow, Sierra Club California, The Nature Conservancy, University of 
California Marine Council.
    \6\ NOAA Technical Memorandum NMFS-NWFSC-71, Guidelines for 
Ecological Risk Assessment of Marine Aquaculture (December 2005); 
Goldburg, R., Elliott and Naylor, Marine Aquaculture in the United 
States: Environmental Impacts and Policy Options, Pew Oceans Commission 
(2001).
    \7\ Hindar, K., Interactions of cultured and wild species (draft). 
Marine aquaculture and the environment: a meeting for stakeholders in 
the Northeast, University of Massachusetts, Boston. 11-13. January 
2001; McGinnity et al., Genetic impact of escape farmed Atlantic salmon 
on native populations: use of DNA profiling to assess freshwater 
performance of wild farmed and hybrid progeny in a natural river 
environment, ICES Journal of Marine Science, 54:998-1008 (1997); 
Naylor, R and Burke, Aquaculture and ocean resources: Raising tigers of 
the sea, Annual Review of Environment and Resources, 30: 185-213 
(2005).
    \8\ Hardy, R.W., Fish, feeds and nutrition in the new millennium, 
Aquaculture Magazine, 26(1):85-89; See also, What's Behind That Farmed 
Salmon Steak? Salmon Nation (2002) at http://www.salmonnation.com/
farmed.html, citing David Suzuki Foundation, (2002) Ocean Pollution 
from Salmon Farming, http://www.davidsuzuki.org/Oceans/Fish--Farming/
Salmon/Pollution.asp.
    \9\ Goldburg, R and Naylor, Transformed seascapes, fishing, and 
fish farming, Frontiers in Ecology and the Environment, 3:21-28 (2005).
    \10\ Beveridge, M.C.M, Cage Aquaculture, 2d ed. Fishing News Books, 
Edinburgh, Scotland, 346 (1996); EAO, British Columbia Environmental 
Assessment Office, The Salmon Aquaculture Review Final Report, April 8, 
2001, http://www.eao.gov.bc.ca/project/aquacult/salmon/report/toc.htm; 
Folke C., Kautsky and Troell, The costs of eutrophication from salmon 
farming: Implications for management, Journal of Environmental 
Management, 40: 173-182 (1994).
    \11\ See Hites, et. al, Global Assessment of Organic Contaminants 
in Farmed Salmon, 203 Science at 226.
    \12\ Naylor, R. et al, Effect of Aquaculture on World Fish 
Supplies, Nature, 405:1017-1024 (2002).
    \13\ deBruyn, A. et al., Ecosystemic Effects of Salmon Farming 
Increase Mercury Contamination in Wild Fish, Environment Science and 
Technology, 40(11): 3489-3493 (2006).
    \14\ Evrik, A. et al, Impact of administering antibacterial agents 
on wild fish and blue mussels in the vicinity of fish farms, Diseases 
of Aquatic Organisms, 18:45-51 (1994); Krosek, M, Lewis and Volpe, 
Transmission dynamics of parasitic sea lice from farm to wild salmon, 
Proc. Royal Society B., 272:689-696 (2005).
    \15\ Hastings M.C., et al, Effects of low-frequency underwater 
sound on hair cells of the inner ear and lateral line of the teleost 
fish, Journal of the Acoustical Society of America, 99(3):1759-1766 
(1996); Natural Resources Defense Council, Sounding the Depths: 
Supertankers, Sonar and the Rise of Undersea Noise (1999); Naylor, R. 
et al., supra note 11.
    \16\ Goldburg and Naylor, supra note 9; Naylor, R, et al., Id.; 
Naylor and Burke, supra note 7.
    \17\ Tacon, A.G.J. and Forster, Global trends and challenges to 
aquaculture and aquafeed development in the new millennium, 
International Aquafeed-Director and Buyers Guide, 2001:4-25 (2000)
    \18\ See, An Operational Framework, supra note 3.
    \19\ California Public Resources Code Sec. Sec. 2100-21177.
    \20\ Letter to Susan Bunsick, NOAA Fisheries, from Anne Mosness, Go 
Wild Campaign, August 25, 2005.
                                 ______
                                 
                          Bill Number: S. 201
                           february 10, 2005
    An act to amend Sections 15400, 15405, 15406, 15406.5, and 15409 
of, and to add Sections 54.5 and 15008 to, the Fish and Game Code, and 
to amend Section 30411 of the Public Resources Code, relating to 
aquaculture.
Legislative Counsel's Digest
     S. 201, Simitian Marine finfish aquaculture: leases.
    (1) Existing law authorizes the Fish and Game Commission to lease 
state water bottoms to any person for aquaculture, and authorizes the 
commission to adopt regulations governing the terms of the leases. 
Existing law prohibits state water bottoms from being leased, unless 
the commission determines that the lease is in the public interest.
    This bill would prohibit a person from engaging in marine finfish 
aquaculture, as defined, in state waters without a lease from the 
commission. The bill would require leases and regulations adopted by 
the commission for marine finfish aquaculture to meet certain 
standards. The bill would establish maximum initial and renewal terms 
for those leases.
    (2) Existing law requires the restoration of an aquaculture lease 
site upon the termination of the lease.
    The bill would require the commission to require financial 
assurances of each lessee to ensure that restoration is performed, and 
would make marine finfish aquaculture lessees responsible for damage 
caused by their operations, as determined by the commission.
    (3) The California Coastal Act requires the Department of Fish and 
Game, in consultation with the Aquaculture Development Committee, to 
prepare programmatic environmental impact reports for existing and 
potential commercial aquaculture operations in both coastal and inland 
areas of the state if certain conditions are met.
    This bill would delete that requirement from the act, and, instead, 
modify provisions relating to aquaculture to include that requirement. 
The bill would further require that if a final programmatic 
environmental impact report is prepared pursuant to that requirement 
for coastal marine finfish aquaculture projects approved by the 
commission, the report provide a framework for managing marine finfish 
aquaculture in a sustainable manner that adequately considers specified 
environmental factors.
    (4) The provisions of the bill would be known as the Sustainable 
Oceans Act.
    (5) Because this bill creates a new crime, it would impose a state-
mandated local program.
    (6) The California Constitution requires the state to reimburse 
local agencies and school districts for certain costs mandated by the 
state. Statutory provisions establish procedures for making that 
reimbursement.
    This bill would provide that no reimbursement is required by this 
act for a specified reason.
The People of the State of California Do Enact as Follows
    SECTION 1. This bill shall be known, and may be cited, as the 
Sustainable Oceans Act.

    SEC. 2. Section 54.5 is added to the Fish and Game Code, to read:

    54.5. ``Marine finfish aquaculture'' means the propagation, 
cultivation, or maintenance of finfish species in the waters of the 
Pacific Ocean that are regulated by this state.

    SEC. 3. Section 15008 is added to the Fish and Game Code, to read:

    15008. (a) The department shall, in consultation with the 
Aquaculture Development Committee, prepare programmatic environmental 
impact reports for existing and potential commercial aquaculture 
operations in both coastal and inland areas of the state if both of the 
following conditions are met:
    (1) Funds are appropriated to the department for this purpose.
    (2) Matching funds are provided by the aquaculture industry. For 
the purpose of this section, ``matching funds'' include, but are not 
limited to, any funds expended by the aquaculture industry before 
January 1, 2006, for the preparation of a programmatic environmental 
impact report.
    (b) If the final programmatic environmental impact report is 
prepared pursuant to subdivision (a) for coastal marine finfish 
aquaculture projects and approved by the commission under the 
California Environmental Quality Act set forth in Division 13 
(commencing with Section 21000) of the Public Resources Code, the 
report shall provide a framework for managing marine finfish 
aquaculture in an environmentally sustainable manner that, at a 
minimum, adequately considers all of the following factors:
    (1) Appropriate areas for siting marine finfish aquaculture 
operations to avoid adverse impacts, and minimize any unavoidable 
impacts, on user groups, public trust values, and the marine 
environment.
    (2) The effects on sensitive ocean and coastal habitats.
    (3) The effects on marine ecosystems, commercial and recreational 
fishing, and other important ocean uses.
    (4) The effects on other plant and animal species, especially 
species protected or recovering under state and Federal law.
    (5) The effects of the use of chemical and biological products and 
pollutants and nutrient wastes on human health and the marine 
environment.
    (6) The effects of interactions with marine mammals and birds.
    (7) The cumulative effects of a number of similar finfish 
aquaculture projects on the ability of the marine environment to 
support ecologically significant flora and fauna.
    (8) The effects of feed, fish meal, and fish oil on marine 
ecosystems.
    (9) The effects of escaped fish on wild fish stocks and the marine 
environment.
    (10) The design of facilities and farming practices so as to avoid 
adverse environmental impacts, and to minimize any unavoidable impacts.

    SEC. 4. Section 15400 of the Fish and Game Code is amended to read:

    15400. (a) Except as prohibited by Section 15007, the commission 
may lease state water bottoms or the water column to any person for 
aquaculture, including, but not limited to, marine finfish aquaculture. 
Upon appropriation of funds for that purpose, or if funds are otherwise 
available, the commission shall adopt regulations governing the terms 
of the leases, after consulting with affected stakeholders in a public 
process. No state leases shall be issued, unless the commission 
determines that the lease is in the public interest in a public hearing 
conducted in a fair and transparent manner, with notice and comment, in 
accordance with commission procedures. Leases issued, and regulations 
adopted, pursuant to this section shall not be construed to be fishery 
management plans.
    (b) A person shall not engage in marine finfish aquaculture in 
ocean waters within the jurisdiction of the state without a lease from 
the commission. Leases and regulations adopted by the commission for 
marine finfish aquaculture shall meet, but are not limited to, all of 
the following standards:
    (1) The lease site is considered appropriate for marine finfish 
aquaculture in the programmatic environmental impact report if prepared 
and approved by the commission pursuant to Section 15008.
    (2) A lease shall not unreasonably interfere with fishing or other 
uses or public trust values, unreasonably disrupt wildlife and marine 
habitats, or unreasonably harm the ability of the marine environment to 
support ecologically significant flora and fauna. A lease shall not 
have significant adverse cumulative impacts.
    (3) To reduce adverse effects on global ocean ecosystems, the use 
of fish meal and fish oil shall be minimized. Where feasible, 
alternatives to fish meal and fish oil, or fish meal and fish oil made 
from seafood harvesting byproducts, shall be utilized, taking into 
account factors that include, but need not be limited to, the 
nutritional needs of the fish being raised and the availability of 
alternative ingredients.
    (4) Lessees shall establish best management practices, approved by 
the commission, for each lease site. Approved best management practices 
shall include a regular monitoring, reporting, and site inspection 
program that requires at least annual monitoring of lease sites to 
ensure that the operations are in compliance with best management 
practices related to fish disease, escapement, and environmental 
stewardship, and that operations are meeting the requirements of this 
section. The commission may remove fish stocks, close facilities, or 
terminate the lease if it finds that the lessee is not in compliance 
with best management practices, that the lessee's activities have 
damaged or are damaging the marine environment, or that the lessee is 
not in compliance with this section. The commission shall take 
immediate remedial action to avoid or eliminate significant damage, or 
the threat of significant damage, to the marine environment.
    (5) Before issuance of the lease, the lessee shall provide baseline 
benthic habitat and community assessments of the proposed lease site to 
the applicable regional water quality control board or the State Water 
Resources Control Board, and shall monitor the benthic habitat and 
community during the operation of the lease in a manner determined by 
the regional board or the State Water Resources Control Board. The 
regional board and the State Water Resources Control Board may 
establish and impose reasonable permit fees to pay for the costs of 
administering and conducting the assessment and monitoring program.
    (6) Finfish numbers and density shall be limited to what can be 
safely raised while protecting the marine environment, as specified by 
the terms of the lease, subject to review and amendment by the 
commission.
    (7) The use of all drugs, chemicals, and antibiotics, and amounts 
used and applied, shall be minimized. All drugs, therapeutic 
substances, and antibiotics shall be used and applied only as approved 
by the United States Food and Drug Administration for marine finfish 
aquaculture. The lessee shall report that use and application to the 
commission on a regular schedule, as determined by the commission, but 
no less than annually, that shall be included in the terms of the 
lease. The commission shall review those reports on a regular basis and 
at least annually.
    (8) The commission shall require all farmed fish to be marked, 
tagged, or otherwise identified as belonging to the lessee in a manner 
determined appropriate by the commission, unless the commission 
determines that identifying farmed fish is unnecessary for protecting 
wild fish stocks, the marine environment, or other ocean uses.
    (9) All facilities and operations shall be designed to prevent the 
escape of farmed fish into the marine environment and to withstand 
severe weather conditions and marine accidents. The lessee shall 
maintain records on all escapes in a manner determined by the 
commission. In the event of more than de minimis escapement, the number 
of escaped fish and the circumstances surrounding the incident shall be 
reported immediately to the commission, and the lessee shall be 
responsible for damages to the marine environment caused by those 
escaped fish, as determined by the commission.
    (10) The lessee shall, at a minimum, meet all applicable 
requirements imposed by the State Water Resources Control Board and the 
regional water quality control boards, and shall prevent discharges to 
the maximum extent possible. Monitoring and testing of water quality 
shall be required on a regular basis as deemed appropriate by the State 
Water Resources Control Board or the regional water quality control 
boards. All inspection and monitoring reports and other records, and 
all data on the discharge of chemical and biological pollutants shall 
be kept on file and available for public review.
    (c) If a restoration or enhancement plan is submitted to, and 
approved by, the commission, and that plan, among other things, 
provides for monitoring and protecting the benthic habitat, the 
prevention of pollution, and the prevention of adverse impacts on wild 
fish stocks from disease, parasites, and genetic alterations, 
subdivision (b) shall not apply to any of the following:
    (1) Artificial propagation, rearing, and stocking projects for the 
purpose of recovery, restoration, or enhancement of native fish stocks 
carried out under either of the following:
    (A) A scientific collecting or research permit issued by the 
department.
    (B) The California Ocean Resources Enhancement and Hatchery 
Program, as set forth in Article 8 (commencing with Section 6590) of 
Chapter 5 of Part 1 of Division 6, for the enhancement of white sea 
bass.
    (2) Nonprofit hatcheries and nonprofit artificial propagation 
projects operated by, or on behalf of, licensed commercial or sport 
fishermen and fisherwomen for the purpose of recovery, restoration, or 
enhancement of California's native marine fish populations, pursuant to 
Chapter 8 (commencing with Section 6900) of Part 1 of Division 6.
    (d) Nothing in this section shall be construed to limit or expand 
the application of any other state law or regulation pertaining to 
marine finfish aquaculture conducted within the ocean waters under the 
jurisdiction of this state.

    SEC. 5. Section 15405 of the Fish and Game Code is amended to read:

    15405. (a) Except as specified in subdivision (b), no initial term 
of a state water bottom lease shall exceed 25 years.
    (b) The initial term of a state water bottom lease for marine 
finfish aquaculture shall not exceed 10 years.

    SEC. 6. Section 15406 of the Fish and Game Code is amended to read:

    15406. (a) Each state water bottom lease shall specify a period 
prior to expiration when renewal of the lease may be requested by the 
lessee. If during this period the lessee is still actively engaged in 
aquaculture, as determined by the commission, the lessee shall have a 
prior right to renew the lease on terms agreed upon between the 
commission and the lessee. If terms are not agreed upon, the commission 
shall advertise for bids on the lease. If a request for renewal is not 
made by the lessee, the commission shall advertise for bids on the 
lease. The commission shall consider bids only from aquaculturists 
registered pursuant to Section 15101.
    (b) Notwithstanding subdivision (a), with respect to any lease of 
state water bottoms in effect on January 1, 1983, the lessee shall have 
a prior right to renew the lease. If the lessee does not renew the 
lease, the commission shall advertise for bids on the lease. The 
commission shall consider bids only from aquaculturists registered 
pursuant to Section 15101.
    (c) Except as specified in subdivision (d), a lease may be renewed 
for additional periods not to exceed 25 years each.
    (d) A lease for marine finfish aquaculture may be renewed for 
additional periods not to exceed 5 years each.

    SEC. 7. Section 15406.5 of the Fish and Game Code is amended to 
read:

    15406.5. (a) Except as specified in subdivision (b), the commission 
shall award water bottom leases to the highest responsible bidder, if 
the bid meets or exceeds the minimum annual rent established by the 
commission, which shall not be less than two dollars ($2) per acre, for 
all species cultivated, unless the acreage applied for is 10 acres or 
less, in which case the minimum acceptable rent shall be ten dollars 
($10) per acre. The annual rent for any lease in effect on January 1, 
1983, for the cultivation of oysters shall be one dollar ($1) per acre 
until the expiration thereof. The commission may reject any or all bids 
for the lease of state water bottoms if it deems the rejection to be in 
the public interest.
    (b) Fees for marine finfish aquaculture leases shall, at a minimum, 
be sufficient to pay for the costs of administering the marine finfish 
leasing program, and for monitoring and enforcing the terms of the 
leases.

    SEC. 8. Section 15409 of the Fish and Game Code is amended to read:

    15409. (a) Upon termination of a lease, for any reason, all 
structures shall be removed at the lessee's expense from the leasehold, 
and the area shall be restored to its original condition. If the lessee 
fails to remove the structures, the state may remove them and the 
lessee shall pay the removal costs incurred.
    (b) The commission shall require financial assurances of each 
marine finfish aquaculture lessee to ensure that restoration is 
performed to the satisfaction of the commission. Financial assurances 
may take the form of surety bonds executed by an admitted surety 
insurer, irrevocable letters of credit, trust funds, or other forms of 
financial assurances specified by the commission, as it determines are 
available and adequate to ensure the lease site is restored pursuant to 
this section.
    (c) Marine finfish aquaculture lessees shall be responsible for any 
damages caused by their operations, as determined by the commission, 
including, but not limited to, reimbursement for any costs for natural 
resource damage assessment.
    (d) Nothing in this section limits the state in pursuing additional 
remedies authorized by law.

    SEC. 9. Section 30411 of the Public Resources Code is amended to 
read:

    30411. (a) The Department of Fish and Game and the Fish and Game 
Commission are the principal state agencies responsible for the 
establishment and control of wildlife and fishery management programs 
and the commission shall not establish or impose any controls with 
respect thereto that duplicate or exceed regulatory controls 
established by these agencies pursuant to specific statutory 
requirements or authorization.
    (b) The Department of Fish and Game, in consultation with the 
commission and the Department of Boating and Waterways, may study 
degraded wetlands and identify those which can most feasibly be 
restored in conjunction with development of a boating facility as 
provided in subdivision (a) of Section 30233. Any study conducted under 
this subdivision shall include consideration of all of the following:
    (1) Whether the wetland is so severely degraded and its natural 
processes so substantially impaired that it is not capable of 
recovering and maintaining a high level of biological productivity 
without major restoration activities.
    (2) Whether a substantial portion of the degraded wetland, but in 
no event less than 75 percent, can be restored and maintained as a 
highly productive wetland in conjunction with a boating facilities 
project.
    (3) Whether restoration of the wetland's natural values, including 
its biological productivity and wildlife habitat features, can most 
feasibly be achieved and maintained in conjunction with a boating 
facility or whether there are other feasible ways to achieve these 
values.
    (c) The Legislature finds and declares that salt water or brackish 
water aquaculture is a coastal-dependent use which should be encouraged 
to augment food supplies and to further the policies set forth in 
Chapter 4 (commencing with Section 825) of Division 1. The Department 
of Fish and Game may identify coastal sites it determines to be 
appropriate for aquaculture facilities. If the department identifies 
these sites, it shall transmit information identifying the sites to the 
commission and the relevant local government agency. The commission, 
and where appropriate, local governments, shall, consistent with the 
coastal planning requirements of this division, provide for as many 
coastal sites identified by the Department of Fish and Game for any 
uses that are consistent with the policies of Chapter 3 (commencing 
with Section 30200) of this division.
    (d) Any agency of the state owning or managing land in the coastal 
zone for public purposes shall be an active participant in the 
selection of suitable sites for aquaculture facilities and shall make 
the land available for use in aquaculture when feasible and consistent 
with other policies of this division and other provisions of law.

    SEC. 10. No reimbursement is required by this act pursuant to 
Section 6 of Article XIII B of the California Constitution because the 
only costs that may be incurred by a local agency or school district 
will be incurred because this act creates a new crime or infraction, 
eliminates a crime or infraction, or changes the penalty for a crime or 
infraction, within the meaning of Section 17556 of the Government Code, 
or changes the definition of a crime within the meaning of Section 6 of 
Article XIII B of the California Constitution.
                                 ______
                                 
                                           Go Wild Campaign
                                    Bellingham, WA, August 25, 2005
Ms. Susan Bunsick,
Policy Analyst,
NOAA Aquaculture Program/National Marine Fisheries Service.

Dear Ms. Bunsick,

    This letter constitutes a formal request for NOAA to:

        1. Immediately prepare the required LEIS on S. 1195, National 
        Aquaculture Act of 2005.

        2. Enlist the Science Advisory Board and other knowledgeable 
        scientists, and finance appropriate research to fully analyze 
        the issues surrounding open ocean fish farming; and,

        3. Provide written response to the questions outlined in this 
        letter.

    At NOAA's Science Advisory Board meeting in Seattle, August 8 and 
9, 2005, many questions were raised following your presentation about 
``NOAA's Role in Open Ocean Aquaculture: Legislation and Research''.
    The ``National Aquaculture Act of 2005'' (S. 1195), developed in 
secrecy and introduced on June 7, vastly changes management and 
utilization of the U.S. Exclusive Economic Zone, 3-200 miles offshore. 
Many citizens, elected officials and members of the scientific 
community are losing confidence in NOAA's stewardship of our ocean 
commons, while the agency is aggressively promoting private, even 
foreign owned fish farms in our waters.
    You stated several times that NOAA recognizes the importance of 
science, yet it is apparent that substantial scientific assessment of 
impacts and risks of open ocean aquaculture (OOA) have not been 
conducted.
    NOAA has thus far declined to prepare a legislative environmental 
impact statement (LEIS) which is required by the National Environmental 
Policy Act (NEPA) prior to Congress voting on legislation that 
significantly affects the quality of the human environment. Several 
Members of Congress, including two from Washington State where the 
recent SAB meeting was held, have requested that NOAA prepare the LEIS.
    On NOAA's Science Advisory Board website, their stated mission is 
to ensure NOAA's science programs ``are of the highest quality and 
provide optimal support to resource management, and environmental 
assessment and prediction'' and they can assist ``NOAA in maintaining a 
complete and accurate understanding of scientific issues critical to 
the agency's missions.''
    To that end, the following are some of the analysis that must be 
conducted:

        1. A detailed economic impact study of effects of aquaculture 
        of all economically valuable marine species on existing fishing 
        dependent businesses and employment (i.e. commercial, 
        recreational, tribal), under several assumed levels of offshore 
        commercial aquaculture and given existing and predicted net pen 
        and alternative containment technologies.

        2. A detailed analysis of the full range of economic and 
        environmental impacts that could result from the escape of 
        various levels of farmed native or exotic species and 
        genetically modified fish into the open ocean and nearshore 
        environments. This analysis should consider several different 
        scenarios based on various production models, quantities, and 
        methodologies utilizing current and predicted net pen and 
        alternative containment technologies.

        3. An analysis of the potential impact to the environment and 
        human health from potential fish diseases, bacteria, viruses, 
        and parasites resulting from offshore aquaculture, under 
        several assumed levels of offshore commercial aquaculture and 
        given existing and predicted net pen and alternative 
        containment technologies.

        4. An analysis of the impacts on human health from consuming 
        offshore farmed fish, including an analysis of the impacts of: 
        (a) antibiotics, (b) other cleaning and algal growth 
        prohibiting chemicals, and, (c) mercury and hydrocarbons in 
        facilities located on or adjacent to offshore oil and gas 
        facilities, under several assumed levels of offshore commercial 
        aquaculture and given existing and predicted use of these 
        chemicals in marine aquaculture.

        5. A detailed analysis of the impacts on water quality and the 
        environment resulting from the use of various cage materials 
        under several assumed levels of offshore commercial aquaculture 
        and various proximities for aquaculture facilities, given 
        existing and predicted net pen and alternative containment 
        technologies. Such analysis should describe in detail how the 
        farms will meet the terms of relevant state and Federal 
        fisheries and environmental law (e.g. Clean Water Act, ESA, 
        MMPA).

        6. An analysis detailing the potential impact of dredging, 
        drilling, and other sediment and bottom habitat disturbances 
        from aquaculture, including potential harms to seagrass, coral 
        die-off, survival rates and displacement of ocean wildlife, as 
        well as impacts from resuspension of any persistent, 
        bioaccumulative toxicants already in the sediments, given 
        existing and predicted net pen and alternative containment 
        technologies.

        7. An identification of the areas of the ocean where 
        aquaculture could compete with other uses that are of 
        significant social or economic value to the public or nation 
        including: (a) fishing grounds and routes to those fishing 
        grounds, (b) vessel traffic lanes, (c) military sites and areas 
        of concern regarding national security, (d) national marine 
        sanctuaries, marine reserves and other marine protected areas, 
        (e) areas used for public recreational purposes, like boating, 
        diving, and recreational fishing, and (f) other multiple use 
        areas.

        8. An analysis of the likely impacts from the use of fish feed 
        in offshore aquaculture--including an analysis of any changes 
        in pelagic fish populations and resulting impact on various 
        predator fish species and endangered seabirds and mammals, and 
        the economic impact to fishing communities--under several 
        assumed levels of offshore commercial aquaculture and given 
        existing and predicted feed technologies and rates.

        9. An analysis of the expected increase/decrease in the net 
        amount of marine protein available for human consumption under 
        various types of offshore aquaculture utilizing various species 
        of fish and shellfish.

        10. A detailed analysis of the amount of fossil fuel and other 
        energy resources used for ocean production of fish and the 
        resulting impact on the economy under several assumed levels of 
        offshore commercial aquaculture.

        11. The ``Code of Conduct for Responsible Aquaculture 
        Development in the U.S. Exclusive Economic Zone'', prepared by 
        the National Marine Fisheries Service in 2002 states, ``The 
        Code adheres to the spirit and intent of the FAO Code of 
        Conduct for Responsible Fisheries (CCRF) to which the United 
        States is a signatory and strong supporter, and does not in any 
        way contradict its principles''.

    Several articles of the FAO Code of Conduct for Responsible 
Fisheries are significant:
    ``States should apply the precautionary approach widely to 
conservation, management and exploitation of living aquatic resources 
in order to protect them and preserve the aquatic environment. The 
absence of adequate scientific information should not be used as a 
reason for postponing or failing to take conservation and management 
measures.'' (Article 7.5.1) ``States should ensure that the livelihoods 
of local communities, and their access to fishing grounds, are not 
negatively affected by aquaculture developments.'' (Article 9.1.4) 
``States should protect transboundary aquatic ecosystems'' (Article 
9.2.1). ``States should conserve genetic diversity and maintain 
integrity of aquatic communities and ecosystems by appropriate 
management. In particular, efforts should be undertaken to minimize the 
harmful effects of introducing nonnative species or genetically altered 
stocks . . . States should, whenever possible, promote steps to 
minimize adverse genetic, disease and other effects of escaped farmed 
fish on wild stocks'' (Article 9.3.1). ``States should regulate the use 
of chemical inputs in aquaculture which are hazardous to human health 
and the environment'' (Article 9.4.5). ``States should require that the 
disposal of wastes such as offal, sludge, dead or diseased fish, excess 
veterinary drugs and other hazardous chemical inputs does not 
constitute a hazard to human health and the environment'' (Article 
9.4.6).
    Please respond with detailed descriptions of how NOAA, in the face 
of expansive aquaculture development, intends to comply with the 
precautionary approach and uphold the principals of the FAO Code of 
Conduct for Responsible Fisheries.
    Thank you for responding to these questions and concerns. This 
letter will be available to Members of Congress, NOAA's Science 
Advisory Board, as well as other interested parties. NOAA's timely 
response is appreciated.
        Sincerely,
                                              Anne Mosness.

        cc: Dr. Leonard J. Pietrafesa; Dr. Michael Uhart; The NOAA 
        Science Advisory Board; Members of Congress; Coastal Governors 
        and State Legislators; and Fishing, consumer advocacy and 
        conservation organizations.
                                 ______
                                 
                                      The Ocean Conservancy
                                    Washington DC, November 1, 2005
Hon. Ted Stevens,
Chairman,

Hon. Daniel K. Inouye,
Co-Chairman,

Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Senators Stevens and Inouye:

    We are writing to register The Ocean Conservancy's (TOC) concerns 
regarding the National Offshore Aquaculture Act of 2005 (S. 1195) as 
introduced, and to offer recommendations for improving the bill. While 
the development of offshore aquaculture may have significant potential, 
it also has significant risks. To protect human health, native fish and 
wildlife populations, and ocean ecosystems, TOC believes that 
aquaculture in ocean waters must be accompanied by a stringent 
statutory and regulatory framework.
    We appreciate your efforts, as well as those of many of your 
colleagues, to ensure environmental standards are developed to 
accompany any legislative authorization of this new ocean use. As it 
stands, S. 1195 is strongly weighted toward the promotion of commerce. 
It fails to provide adequate criteria and standards to guide NOAA in 
accounting for other interests, such as the protection of wild stocks, 
protection of the environment, and coordination of other uses. In fact, 
without your amendment upon introduction, even the duty to develop 
standards would have been left solely to the discretion of the agency.
    In this context, we would appreciate your consideration of our 
comments on the bill as introduced. We look forward to working with you 
to develop a more effective and efficient management regime that will 
safeguard the environment and the public trust.
        Sincerely,
                                       Catherine Hazlewood,
                                       Legislative Program Manager.
                                            Tim Eichenberg,
                                         Pacific Regional Director.

        cc: Members of the Senate Commerce Committee; Members of the 
        House Resources Committee; and Members of the House Oceans 
        Caucus.
                                 ______
                                 
  Comments of The Ocean Conservancy on S. 1195: The National Offshore 
                        Aquaculture Act of 2005
Background
    The potential of open ocean aquaculture is promoted as a solution 
to the ocean's diminishing resources. However, it also poses 
significant risks, including escapement of fish, damage to the 
surrounding environment, harmful effects on native fish populations, 
and pollution. These risks, and their consequences, are largely 
dependent upon the location of the operation, its size or scope, the 
stringency and comprehensiveness of the management practices, the 
capacity of the receiving water body, and the choice of species to be 
raised in a particular area.
    Both the Pew Oceans Commission and the U.S. Commission on Ocean 
Policy recommended that Congress improve the governance framework to 
address the many challenges and risks associated with the development 
of offshore aquaculture.
Risk of Escapement of Potentially Invasive Species
    In our view, the single greatest ecological and economic threat 
associated with a rise in offshore aquaculture is the potential to 
introduce potentially invasive species to the surrounding ecosystem and 
nearby coastal communities. According to the National Marine Fisheries 
Service (NMFS) and the Fish and U.S. Wildlife Service (FWS), escapes 
are resulting in harmful interactions with native fish. These 
interactions include competition with wild stock for food, habitat and 
mates, genetic modification of wild stocks through inter-breeding, and 
transfer of potentially deadly diseases and parasites to wild stocks.
    The potential for escapement of farmed fish is greater in 
facilities sited further offshore, where containment structures face 
increased exposure to wind and wave power as well as to predators. 
Offshore structures pose unique challenges for monitoring as well as 
rapid response in the event of escapement. Additionally, many of the 
species favored for offshore aquaculture use are highly pelagic, and 
consequently, once they escape, are capable of traveling thousands of 
miles.
    Moreover, we currently have no way of determining in advance which 
species that escape into the wild are likely to cause harm. No common 
statutory definition of invasive species exists; nor has the Federal 
Government implemented comprehensive screening protocols to discern 
which non-native or genetically modified species have the potential to 
become invasive upon introduction into a given environment. Therefore, 
the utilization of non-native species in offshore aquaculture 
facilities is dangerously premature.
Additional Biological Threats
    Offshore aquaculture presents numerous additional biological 
threats to ocean ecosystems. The excreta from an average floating cage 
farm can produce nutrients equal to a city of 7,500. \1\ Depending upon 
pollutant composition and the cumulative effects of similar cages in a 
particular area, discharges may present harmful effects on the 
surrounding environment. Additionally, outbreaks of diseases and 
parasites are a constant risk because the density of fish in 
aquaculture operations is so much higher than in nature. Diseases in 
farmed salmon have been found to significantly threaten the health and 
vitality of nearby migrating wild stocks. Farmed species, depending 
upon species and diet, can even present increased public health risks 
to the people who consume them. \2\
---------------------------------------------------------------------------
    \1\ See What's Behind That Farmed Salmon Steak? Salmon Nation 
(2002) at http://www.salmonnation.com/farmed.html, citing David Suzuki 
Foundation, (2002) Ocean Pollution from Salmon Farming, http://
www.davidsuzuki.org/Oceans/Fish_Farming/Salmon/Pollution.asp.
    \2\ See Hites, et. al, Global Assessment of Organic Contaminants in 
Farmed Salmon, 203 Science at 226 (concentrations of PCBs, toxaphene, 
and dieldrine have been found to be significantly greater in farmed 
salmon species than in wild species, and applications of risk indicates 
risks may detract from beneficial effects of consumption).
---------------------------------------------------------------------------
    Aquaculture operations also may require dredging, drilling, the use 
of large heavy anchors, and other disturbances to sediment and bottom 
habitats, which can displace ocean wildlife, smother bottom-dwelling 
animals, destroy hiding places for young fish, and cause other 
ecological changes to the sea floor. Finally, aquaculture may create an 
incentive to overexploit targeted wild fish populations to provide 
inexpensive feed for farmed fish. \3\ Farming carnivorous marine fish 
such as salmon currently represents a net loss of fish protein. \4\
---------------------------------------------------------------------------
    \3\ ``An annual production of 1 million mt of farm fish may require 
1-5 million mt of compounded feed, depending upon its formula and 
conversion rates [ . . . ] For carnivorous fish, like most marine 
species, feeds contain proteins mostly of animal origin, particularly 
high quality fish meal and fish oil.'' Achieving policy objectives to 
increase the value of the seafood industry in the United States: the 
technical feasibility and associated constraints, C.E. Nash, 29 FOOD 
POLICY 621-641 (2004).
    \4\ ``[A]bout two to five times more wild-caught fish are used in 
feeds than are harvested from aquaculture,'' Future seascapes, fishing, 
and fish farming, R. Goldburg and R. Naylor, 3(1) Front. Ecol Environ, 
21-28, p. 23 (2005).
---------------------------------------------------------------------------
Lack of Capacity of Regulatory Regime to Address Risks
    Unfortunately, current regulations and mitigation strategies are 
simply inadequate to guide the aquaculture industry or manage its 
risks. Regulatory agencies with overlapping and conflicting authority 
have thus far demonstrated significant confusion regarding 
environmental requirements, siting considerations, leasing procedures 
and jurisdictional responsibility. Without careful legislative 
coordination of NOAA's jurisdiction and responsibilities with those of 
other agencies, we believe problems will persist, with potentially 
serious environmental consequences.
    For these reasons, clear, coordinated and comprehensive standards 
must accompany the development of this new ocean use. This is 
especially critical given the projected growth of the industry: the 
U.S. Department of Commerce has called for aquaculture production in 
the United States to increase fivefold by 2025. \5\ In this context, 
the remainder of our comments will address our specific concerns with 
the bill as introduced, organized section-by-section.
---------------------------------------------------------------------------
    \5\ See, Biliana Cicin-Sain and Robert W. Knecht, Development of a 
Policy Framework for Offshore Marine Aquaculture in the 3-200 Mile U.S. 
Ocean Zone (2001).
---------------------------------------------------------------------------
Section 2. Findings
    As currently drafted, the findings of Congressional policy in this 
section generally promote the development of aquaculture while 
incorporating too little acknowledgement of either its risks or its 
effects on other ocean uses. We encourage the Committee to ensure this 
policy reflects a more balanced perspective on the development of a new 
ocean use and its relationship to other ocean uses and the marine 
environment.
Section 3. Definitions
    Section 3(1) defines ``demonstration'' to include both pilot scale-
testing of aquaculture science and technologies, or farm-scale 
research. We believe generally this definition is too vague to give 
sufficient guidance. ``[P]ilot scale,'' ``science,'' ``technologies,'' 
and ``farm-scale research'' are potentially subjective terms not 
defined further in the bill. We would encourage you to clarify these 
terms to ensure even demonstration projects are conducted in an 
ecologically protective manner.
Section 4. Offshore Aquaculture Permits
    Generally speaking, we would like to see section 4 amended to 
provide a framework to ensure offshore aquaculture is well coordinated 
with other ocean uses and protects the public trust. This section 
directs the Secretary of Commerce to establish a site and operating 
permit process to make areas of the U.S. Exclusive Economic Zone (EEZ) 
available to persons to develop and operate offshore aquaculture 
facilities. However, it leaves to agency discretion particular 
procedures to be followed, including timing of regulatory processes, 
and scope and criteria for decisions.
Legislation Should Include a Method for Initially Determining Suitable 
        Areas for 
        Aquaculture
    We recommend that the Committee include a more comprehensive siting 
process than the proposed lease-by-lease, operation-by-operation 
approach. Although subsection (b) requires the Secretary to specify in 
a site permit the size and location of an offshore aquaculture facility 
and, under subsection (d), to consult with other Federal agencies to 
ensure that an offshore aquaculture facility is compatible with other 
uses of the EEZ, the bill lacks a mechanism to determine, in advance of 
individual operation-by-operation siting decisions, where offshore 
aquaculture is, and is not, appropriate. The process we envision would 
clearly articulate criteria and a process for NOAA to follow in 
establishing zones appropriate for development of aquaculture leases 
and operations that also would not interfere with other ocean uses, 
such as shipping channels and commercial fisheries.
Legislation Should Prohibit the Permitting of Commercial Operations 
        Until NOAA has Promulgated Necessary Regulations
    We also urge you to include language prohibiting the issuance of 
any aquaculture permits under this section until the agency has 
promulgated comprehensive regulations to guide its decision-making. The 
timely establishment of clear, consistent, and enforceable regulations 
is critical for both the public and industry.
Legislation Should Ban the Use of Non-native or Genetically Modified 
        Species in 
        Offshore Aquaculture
    For the reasons articulated in the background section to these 
comments, we oppose the use of non-native or transgenic species in 
offshore aquaculture. Some states, including Maine, California, 
Washington and Oregon have already implemented such prohibitions in 
legislation to protect state waters, while other states such as Alaska 
more broadly prohibit the development of offshore aquaculture in state 
waters. We urge you to amend section 4 to prohibit the use of non-
native species and transgenic species in section 4 of S. 1195.
Section 5. Environmental Requirements
Legislation Must Include Strong, Clear Operational and Site Permitting 
        Requirements
    We are concerned that S. 1195 establishes few parameters to guide 
agency consideration of the ecological impacts of aquaculture 
facilities. Although subsection (4)(c) authorizes the Secretary to 
issue operating permits under ``such terms and conditions as the 
Secretary shall prescribe'' and subsection (4)(d) directs the Secretary 
to ``consult as appropriate'' with other Federal agencies to ensure 
that offshore aquaculture facilities meet the environmental 
requirements established under section 5(a) of the bill, section 5(a) 
does not establish any new requirements. Instead, it simply directs the 
Secretary to consult with other Federal agencies to identify the 
environmental requirements applicable to offshore aquaculture under 
existing laws and regulations. Although the bill authorizes the 
Secretary to establish additional environmental requirements, the 
process for consultation with other stakeholders as well as the content 
of any such additional requirements is left to the discretion of the 
Secretary. Furthermore, subparagraph (d)(6) requires only that the 
Secretary ``periodically review'' the criteria for issuance of site and 
operating permits.
    We recommend that the Committee include standards in the bill for 
siting and operating permits that are precautionary, comprehensive, 
clear, and legally binding. Specifically, we recommend that such 
standards address the following general issues:
Siting

  <bullet> Description of site characteristics, and proximity to other 
        ocean uses;

  <bullet> Consideration of cumulative effects of similar facilities in 
        an ecosystem;

  <bullet> Prioritization of ocean uses such that aquaculture does not 
        unreasonably interfere with other ocean uses, such as the 
        protection of a sensitive marine environment, popular 
        recreational fishery, or vessel lane used in commercial 
        fishing;

  <bullet> Requirements that facilities be designed and operated to 
        prevent escapes and interactions with wild species.

Cultured Species

  <bullet> Proposed sources for organisms to be grown at the site;

  <bullet> Procedures for the introduction of fish stocks to stock 
        facilities, including brood stock quarantine, limited 
        introduction of first-generation progeny to assess interactions 
        with native species in open waters, and continued study of the 
        introduced organisms in their new environment;

  <bullet> Maximum allowed density, numbers and biomass of fish allowed 
        in a particular type of structure;

  <bullet> Minimization of the use of fishmeal and fish oils in feeds.

Pollution Standards

  <bullet> An analysis of the quality of the receiving waters (with 
        bioassays, as appropriate). Analysis of the potential for 
        pollutant transport by biological, physical or chemical 
        processes, and availability of alternatives to pollutant 
        discharge from the facility;

  <bullet> Development and application of water quality criteria and 
        pollutant effluent limits established by the Environmental 
        Protection Agency under the Clean Water Act;

  <bullet> Requirements that the use of drugs and chemicals be 
        minimized and that detailed records be kept on all drugs and 
        chemicals used in an aquaculture facility, including the 
        amounts used and frequency applied. Drugs, pesticides, and 
        other chemicals not authorized and registered by the Food and 
        Drug Administration and the Environmental Protection Agency for 
        the particular use should be specifically prohibited. In 
        addition, drug and chemical records should be available to the 
        public at all times;

  <bullet> A detailed plan in the event of escapement to rapidly 
        respond, including tagging and notification procedures.

Monitoring and Permitting

  <bullet> Minimum standards for record keeping, including records of 
        the total number of each species grown and harvested, and 
        specific maintenance and inspection procedures carried out;

  <bullet> Ongoing monitoring of benthic habitat and water quality both 
        in and immediately surrounding the containment structure;

  <bullet> Limitations on the duration of permits and a specific 
        timeframe for review of criteria for the issuance of site and 
        operating permits. Specifically, the legislation should provide 
        for an initial period for an operating period that is 
        economically and environmentally reasonable, not to exceed 8 
        years. Once that initial period has elapsed, operating permits 
        should be reviewed and renewed at least every 5 years. 
        Similarly, criteria for the issuance of site and operating 
        permits should be reviewed not less than once every 4 years;

  <bullet> Bonding procedures to ensure restoration of the site and 
        financial liability of the owner/operator of the facility.

    In sum, given the risks associated with offshore aquaculture, we 
believe it should be carefully regulated from its inception to ensure 
its economic and environmental success.
Section 6. Research and Development
    S. 1195 allows the Secretary to conduct research and development to 
advance technologies that are compatible with the protection of marine 
ecosystems. We believe this work should be carried out in close 
coordination with other relevant agencies. We also note that while many 
international, national and state governments have implemented 
recommended management measures drawing upon existing science, NMFS has 
not yet promulgated best management practices under existing law. We 
urge the Committee to direct NMFS to develop and publish such research 
in time to help guide development and promulgation of regulations under 
section 4 of the bill.
Section 7. Administration
    We believe S. 1195 should establish reasonable timelines and 
deadlines for the promulgation of regulations necessary to administer 
this program. As outlined earlier, we believe that the bill should make 
clear that permitting for commercial aquaculture facilities may not 
proceed until NMFS has promulgated those regulations.
    Additionally, we request that the Committee amend subsection (c) to 
detail processes for resolving disputes that may that arise in 
decisionmaking. Other than requirements that the Secretary consult with 
other relevant agencies ``as appropriate'' (section 4(d)(1)) and the 
requirement to obtain ``concurrence'' (section 4(a)(2)) from the 
Department of Interior on some decisions, the bill currently does not 
articulate a process for resolving interagency disputes.
    Despite the language of subsection (f), subsection (g) takes the 
highly unusual step of authorizing the Secretary to apply the 
provisions of any other Federal statute to offshore aquaculture 
facilities if the Secretary determines that it is in the public 
interest. In our view, Congress, and not the Secretary, should 
determine in the first instance whether those laws apply to offshore 
aquaculture facilities.
    Similarly, subsection (h) would Federalize the law of the nearest 
adjacent coastal states even for state laws that have not yet been 
adopted. Although we appreciate that state resources may be adversely 
affected by aquaculture operations in Federal waters, and support 
states' ability to adopt more stringent laws governing such facilities, 
subsection (h) is not an adequate substitute for a sufficiently 
comprehensive and stringent Federal program.
Section 8. Authorization of Appropriations
    Section 8 authorizes to be appropriated to the Secretary such sums 
as are necessary to carry out the Act. Although this section gives the 
appropriators wide latitude, an authorization for a specific dollar 
amount in each of the Fiscal Years authorized by the Act would give the 
members of the appropriations committee and the public some indication 
of the resources needed to fully and effectively implement this 
program. We suggest that this section also include specific 
authorizations for research and the promulgation of regulations.
Section 10. Enforcement Provisions
    We urge the Committee to clarify the circumstances and use of 
available enforcement authority. We urge the Committee to incorporate a 
citizen suit provision, similar to those utilized in other Federal 
statutes regulating biological pollution.
Section 11. Civil Enforcement and Permit Sanctions
    We urge the Committee to consider including a liability in rem 
provision.
Section 13. Forfeitures
    We urge the Committee to include language ensuring that forfeited 
resources made available for sale do not endanger public health.
Conclusion
    Thank you for your efforts to ensure that offshore aquaculture is 
guided by strong environmental standards. We look forward to working 
with you to advance legislation that would ensure prudent, consistent, 
and responsible controls on the siting and operations of open ocean 
aquaculture facilities.

    Senator Sununu. Thank you.
    Dr. MacMillan.

  STATEMENT OF JOHN R. ``RANDY'' MacMillan, Ph.D., PRESIDENT, 
                NATIONAL AQUACULTURE ASSOCIATION

    Dr. MacMillan. Thank you Mr. Chairman. My name is Randy 
MacMillan. I'm the President of the National Aquaculture 
Association. My testimony will focus on the importance of 
ensuring the Senate Bill 1195 strikes a reasonable 
environmental protection balance if the goal of Congress is to 
create an open ocean aquaculture program.
    I want to emphasize three principal issues. Number one, for 
any aquaculture program to succeed it must be profitable for 
business.
    Number two, current U.S. environmental protection fishery 
management and public health and safety programs already ensure 
domestic ocean aquaculture practices will be ecologically 
sustainable, and number three, Senate bill 1195 should resolve 
the fundamental legal issues of authority of the states and 
Federal waters and resolve limits on the lease periods. 
Development of specific operating standards should be left to 
the transparency of rulemaking which should be based on 
objective scientific research findings.
    Today foreign imports have created a seafood deficit of 
$8.3 billion and 40 to 50 percent of those imports are farm-
raised seafood. Well documented human health benefits of farm-
raised seafood consumption taste and price drive seafood 
consumption in the United States. The significant driver for 
increased consumption of imported farm-raised seafood is their 
comparatively low priced, low production costs. These lower 
costs occur because of low labor costs and far less stringent 
and environmental expectations. This threatens the economic 
viability of our existing domestic aquaculture sectors.
    Senate Bill 1195 contemplates development of aquaculture in 
Federal open ocean waters. If that is indeed the objective of 
congress, then you must guard against a bill that is overly 
prescriptive and anti-competitive or burdensome. The legal 
system created must provide a reasonable expectation of 
commercial viability. Legislation that leads to uncertainty, 
excessive operating costs, litigation over broadly defined 
legislative standards, short permit periods or potential 
revocation of permits by states will not justify investment. 
Investment risks will have to fall within acceptable ranges if 
we're to produce marine aquaculture products in U.S. waters.
    In 2004, the U.S. EPA completed 4 years of investigations 
into the primary methods of aquaculture production, including 
coastal marine net pen operations and developed new effluent 
guidelines for incorporation in Federal discharge permits. The 
Clean Water Act and its regulations also include ocean 
discharge standards that supplement the recently adopted 
aquaculture effluent regulations and provide an adaptive 
process to ensure protection of ocean water quality. The ocean 
discharge criteria require assessment of location, design, 
proposed stock species and receiving water characteristics to 
establish appropriate safeguards. Because current protective 
Federal scientifically based requirements exist, we should 
guard against efforts to create redundant new requirements, or 
use political motivations to mandate revision of current 
standards. Congress should simply confirm that aquaculture in 
Federal waters must comply with the requirements of the Federal 
Clean Water Act.
    There is much discussion of the use of fish meal and fish 
oil in feeds for cattle, swine, poultry and fish. The debate 
centers on whether the harvest of pelagic fishes used to make 
fish meal and fish oil is ecologically sustainable.
    The domestic aquaculture use of fish meal and fish oil even 
with potential open ocean aquaculture scenarios is and will 
only have a minor share of the global market. Other countries, 
notably China, are far greater users and even now are 
contracting for future production volume from the major global 
producers of fish meal and fish oil.
    Legislation dictating minimized use of these products will 
only penalize American farmers. I urge you not to submit to 
calls for silver bullet solutions regarding management of fish 
feed, stocks. Comprehensive domestic and international 
fisheries management programs should address this issue. 
Management of this resource cannot be effectively conducted by 
simply restricting the potential use of fish feed at offshore 
U.S. production sites.
    The pending legislation should not attempt to set new 
policy for drug use in marine aquaculture. A rigorous program 
of Federal regulations is already well-established under 
authority of the U.S. FDA. Policy statements that mandate 
minimized use of such materials are not science-based and 
provide no additional measure of protection to human health or 
the environment and for the record, there are no approved 
hormones for use in domestic food fish aquaculture.
    Efforts to develop a domestic offshore aquaculture program 
are not occurring in a vacuum. Several well-established Federal 
regulatory program standards can be used to protect water 
quality, animal health and natural resources in this context. 
The offshore legislation should rely on such established 
standards and the integration of the new offshore program 
details such existing standards through the rulemaking process. 
This approach could provide a better coordinated and efficient 
program that is more likely lead to actual investment and 
production in U.S. marine aquaculture.
    Thank you again for the opportunity for me to present my 
testimony.
    [The prepared statement of Dr. MacMillan follows:]

 Prepared Statement of John R. ``Randy'' MacMillan, Ph.D., President, 
                    National Aquaculture Association
Introduction
    I am honored to testify today about the opportunities Senate Bill 
1195 could create to improve availability of wholesome, competitively 
priced seafood for U.S. consumers while creating jobs for people living 
in coastal fishing communities. My name is John R. MacMillan. I am the 
President of the National Aquaculture Association, the NAA. The NAA is 
a U.S. trade association primarily representing producers of domestic 
fish and shellfish aquaculture. Our members produce a variety of food 
fish, recreational fishing stock and baitfish, aquarium ornamental fish 
and shellfish. The NAA mission is to foster development of 
environmentally sustainable aquaculture in the United States. To do 
this, we strive to partner with various Federal agencies to develop 
policies and regulations that are protective of the environment and 
public health, practical and cost-effective, and based on credible 
scientific information. The focus of my testimony is environmental 
issues. Several issues regarding offshore aquaculture were also 
presented in written comments previously submitted to the Subcommittee 
by the NAA. The NAA supports S. 1195 because it creates opportunity for 
further, environmentally sustainable U.S. aquaculture development.
    In addition to serving as President of the NAA, I am the Vice 
President of Research and Environmental Affairs for Clear Springs Foods 
in south-central Idaho. In this capacity, I serve as an officer of the 
company addressing various research, natural resource and quality 
assurance issues. I also serve as the chairman of the Idaho Board of 
Environmental Quality. Prior to my current position, I was an Associate 
Professor of Veterinary and Aquatic Animal Medicine at the Mississippi 
State University College of Veterinary Medicine. I have authored or co-
authored over 75 scientific publications dealing with cellular 
senescence, aquatic animal diseases and their treatments, environmental 
stewardship and aquatic animal production practices. I have a Ph.D. in 
fishery biology and was a Senior Research Fellow in the School of 
Medicine at the University of Washington in Seattle. In 2005, I 
received the U.S. Food and Drug Administration (FDA) Commissioner's 
Special Citation and recently (2006) was selected by the United Nations 
FAO/WHO/OIE as a world expert on antibiotics and antimicrobial 
resistance issues to participate in an expert consultation.
    My testimony will focus on the importance of ensuring that Federal 
legislation strikes a reasonable environmental protection balance if 
the goal of Congress is to successfully create an open ocean 
aquaculture program. My conclusion will be to encourage Congress to 
support offshore aquaculture development in the Exclusive Economic Zone 
(EEZ) by ensuring S. 1195 is not overly burdensome or prescriptive.
    I will make three primary points as follows:

        1. For any aquaculture program to succeed, whether in the EEZ 
        or anyplace else, it must be profitable for businesses.

        2. Current U.S. environmental protection, fishery management 
        and public safety programs provide the means to ensure domestic 
        aquaculture practices are ecologically sustainable.

        3. S. 1195 should resolve the fundamental legal issues of 
        authority of the states in Federal waters, and limits on the 
        lease periods. Development of specific operating standards 
        should be left to the transparency of rulemaking which should 
        be based on objective scientific research findings.

Globalization, Domestic Aquaculture and Economics
    Consumer demand for seafood in the United States continues to rise 
at an increasing rate. In 2005, U.S. per capita consumption of seafood 
had increased to 16.6 lbs, an increase of 11 percent from 5 years ago. 
This increased consumption is due to widespread consumer recognition of 
the health benefits of seafood consumption and because seafood 
represents good value to U.S. consumers. At this time, foreign imports 
overwhelmingly dominate the U.S. seafood market. In 2005, our seafood 
deficit reached $8.3 billion.
    Increasingly, this seafood is coming from aquaculture. The United 
Nations Food and Agriculture Organization (FAO) estimates that in 2002, 
35.2 percent of the world's 145.9 million metric tons of fisheries 
landings came from aquaculture. Imports of various farm raised fishes 
such as salmon, shrimp and tilapia have increased 20 to 200 percent 
over the past 5 years. Worldwide, the aquaculture sector has grown an 
average of 9 percent per year since 1970 compared with only a 1.2 
percent growth of capture fisheries and 2.8 percent for terrestrial 
farmed meat production over the same period. Besides the well-
documented health benefits of seafood consumption, including 
consumption of farm raised species, consumers purchase seafood because 
of taste and because of price competitiveness. The significant increase 
in consumption of imported seafood over time is attributed to their 
competitive consumer prices. Imported products are often of lower cost 
because of significant production advantages due to reduced labor costs 
and reduced environmental stringency, and other reduced regulatory 
obligations compared to those in the U.S.
    In the U.S., seafood aquaculture production of freshwater finfish 
is currently dominated by channel catfish, rainbow trout, salmon, 
hybrid striped bass and tilapia. However, cost competitive domestic 
production of these products is being severely challenged by 
international competition. In fact, there is already a significant 
reduction of production in some domestic freshwater species sectors 
because of the tremendous volume of imported seafood. Marine products 
captured in U.S. waters, even when combined with domestic farm raised 
freshwater species, cannot be expected to satisfy the U.S. seafood 
market demand. Marine aquaculture production could be an important 
component of domestic efforts to meet consumer demand, but only if the 
offshore legislation creates a commercially viable legal framework.
    If the objective of Congress is to indeed create opportunity to 
produce food fish and other products in U.S. Federal waters, then your 
success should not be defined by passage of Senate Bill 1195. Success 
can only be measured by your success in attracting private investment 
in the creation of U.S. marine aquaculture facilities and the 
production of products for domestic and potentially for export markets.
    The legal system created must provide a reasonable expectation of 
commercial viability. In part, such viability will be dependent on the 
legal standards and operating requirements ultimately established. 
Legislation that leads to uncertainty, excessive operating costs, 
litigation over broadly-defined legislative standards, short permit 
periods or potential revocation by states will not justify investment. 
Investment risks will have to fall within acceptable ranges if we are 
to produce marine aquaculture products in U.S. waters. \1\
---------------------------------------------------------------------------
    \1\ The NAA submitted written comments to the Subcommittee dated 
April 19, 2006. In part, we opined that a viable commercial program 
would require long term renewable leases (25+ years), must avoid 
unpredictable state veto authorities and extraterritorial application 
of the CZMA, and should modify the role of the regional fishery 
management councils.
---------------------------------------------------------------------------
Environmental Sustainability
Protection of Water Quality
    In one respect, the development of offshore aquaculture in the 
United States enjoys what could be a demonstrable benefit over several 
other potential international development locations. In the US, we have 
legally enforceable environmental standards that have been developed 
through transparent, rulemaking procedures under the Federal Clean 
Water Act. Existing standards offer a measure of predictability in 
designing offshore operations. To attract investors, we should 
emphasize this predictability as an advantage. Frankly, this may be the 
best we can make of this issue because other countries are reportedly 
attracting investors and facility operators with public financing, less 
stringent regulatory standards and expedited permit application review 
procedures. We also should guard against efforts to create redundant 
new requirements, or mandate revision of current standards; as such 
steps will undermine any existing advantages. Congress should simply 
confirm that aquaculture in Federal waters must comply with the 
requirements of the Federal Clean Water Act.
    Maintaining good water quality is a first priority for all 
successful aquaculturists. Without good water quality, animal husbandry 
challenges are dramatically increased and these increase fish 
production costs. There is no reason to believe this will not be the 
case in offshore production facilities as well. Current information 
indicates that marine locations offer favorable characteristics because 
of their assimilative capacity (waters beneath prospective sites are up 
to 500 feet deep) and the retention of good water quality. But offshore 
aquaculture facilities are unlikely to be built simply to take 
advantage of these characteristics.
    In aquaculture facilities, the effluent constituents represent lost 
investment dollars and product. This is in contrast to constituents of 
wastewater effluent discharges in other types of industries where the 
discharge represents non-usable production waste. The principle wastes 
of concern from aquaculture operations are excess feed and fish 
excretions. Excess feed is money wasted by producers; so great care is 
exercised to ensure over-feeding does not occur. Recent technological 
advancements provide encouragement that feed wastage can be readily 
prevented. Fish excretions are necessary elements of biomass production 
by fish. In the husbandry of many farmed fish species, feed to flesh 
conversions of nearly 1:1 have been achieved. It is reasonable to 
anticipate similar feed to fish flesh efficiencies in marine waters. 
Practices that limit waste discharge from freshwater and marine 
aquaculture facilities have been the subject of considerable scientific 
research. This research ultimately resulted in development of cost-
effective and environmentally protective fish farming practices. The 
U.S. Environmental Protection Agency (US EPA) has a great deal of 
information regarding this topic. As you have heard in other testimony, 
feed management is a focus of marine aquaculture research, and includes 
development of technologies for video monitoring, and evaluation of 
environmental impacts of excess feed use.
    We should avoid creating new, potentially conflicting legislative 
standards for issues already addressed through detailed rulemaking 
under well-developed programs, such as existing standards created under 
the Clean Water Act. In 2004, the U.S. EPA completed 4 years of 
investigations into the primary methods of aquaculture production 
(including coastal marine net pen operations), and developed discharge 
permit regulations. The U.S. EPA regulations created enforceable permit 
standards for aquaculture operations. Aquaculture facilities are 
required to meet these standards as elements of permits issued under 
the Clean Water Act. The U.S. EPA relied heavily upon scientifically 
credible information collected from throughout the World to craft these 
standards.
    In addition, the Clean Water Act and its regulations include ocean 
discharge standards that supplement the recently-adopted aquaculture 
effluent regulations, and provide an adaptive process to ensure 
protection of ocean water quality. The ocean discharge criteria require 
an assessment of discharge impacts to biological community resources 
including human health risks. The U.S. EPA's review of a proposed ocean 
discharge project considers the effects on the receiving water 
ecosystems, and specifically ensures that there is no ``unreasonable 
degradation'' of the marine environment. The operating conditions 
necessary to meet this requirement are developed in the permit 
application process, where the project factors such as location, 
design, proposed stock species and receiving water characteristics are 
taken into account in order to establish appropriate safeguards. 
Existing Federal regulations require an evaluation of ten criteria to 
determine whether an unreasonable degradation of the marine environment 
will occur. Permits cannot be issued when there is insufficient 
information to determine that no unreasonable degradation will occur, 
unless the applicant can demonstrate that: (a) the discharge will not 
result in irreparable harm; (b) no reasonable alternatives to the 
discharge exist; and, (c) the applicant complies with other permit 
conditions.
    Legislation that creates new performance standards using non-
scientific superlative language such as ``maximum extent possible'' 
will only lead to debate, not greater protection. Such mandates also 
create a greater risk that investors and producers will not undertake 
projects given this level of new uncertainty, and the costs of 
protracted debates through the rulemaking or judicial review processes 
that would have to interpret such legislation.
    A valid regulatory permit program is already available to regulate 
offshore ocean discharges from aquaculture facilities. The proposed 
legislation need not duplicate this program, and efforts to do so will 
only create potential conflicts and unnecessary additional regulation.
Restrictions on Fish Feed
    The potential for development of U.S. offshore aquaculture would be 
greatly hampered if American fish farmers must also shoulder the burden 
of international policy disputes. There is much discussion of the use 
of fish meal and fish oil in aquaculture circles. The debate centers on 
whether the harvest of pelagic fishes used to make fish meal and fish 
oil is ecologically sustainable. Fish meal and fish oil is the most 
expensive component of feed. Typically, feed is the single greatest 
operating cost for aquaculture facilities. Farmers go to great lengths 
to ensure that feed is not wasted.
    Legislative mandates regarding the use of such feeds will not 
address the issue of whether fish meal resources are properly managed 
on a national or international basis. Domestically, regulations 
concerning the management of fish stocks used to produce fish meal and 
oil is where such protective efforts should be directed. Mandates to 
minimize U.S. farm use of these products are unlikely to have any 
measurable effects.
    Fish meal and fish oil are used in feeds for fish, cattle, swine 
and poultry. But the domestic aquaculture use of fish meal and fish oil 
is only a minor share of the global market. Other countries, notably 
China, are far greater users, and even now are contracting for future 
production volumes from the major global producers of fish meal and 
fish oil. Legislation dictating minimized use of these products will 
only penalize American farmers. Ironically, American farmers are more 
likely to efficiently use these products by application of technology. 
In addition, by burdening the fledgling U.S. offshore industry with 
feed restrictions, we inhibit the potential for developing alternative 
feed formulas that may be available with greater operating experience 
in U.S. waters.
    Recent scientific reports present a compelling argument that 
pelagic fishes harvested for fish meal and fish oil production are 
ecologically and socioeconomically sustainable. Various national and 
international government agencies manage pelagic fish stock through 
total allowable catch limits. These international agencies include the 
Instituto del Mar del Peru (IMARPE), Institute of Fisheries Research 
(IFOP) in Chile, and the International Council for the Exploration of 
the Sea (ICES) in Europe. The fish meal industry itself supports 
government-led stock management and supports the FAO's Code of Conduct 
for Responsible Fisheries. Data from the FAO over the past 20 years 
indicate landings of industrial or feed fish have remained fairly 
stable at around 20 to 25 million tons per year since 1984. While total 
catch has remained stable, the portion of total fish meal used in 
aquaculture feeds has increased. Competition for fish meal and fish oil 
amongst various consumers has increased fish meal and fish oil costs, 
thereby making production of carnivorous fishes more expensive. 
Consequently, research priorities have shifted to discovering 
alternatives to fish meal and fish oil use while maintaining proper 
animal nutrition and ensuring the positive nutritional benefits of 
seafood consumption by people is maintained (e.g. omega 3 fatty acid 
composition).
    I urge you not to submit to calls for ``silver bullet'' solutions 
regarding proper management of fish feed stocks. Comprehensive domestic 
and international fisheries management programs should address this 
issue. Management of this resource cannot be effectively conducted by 
simply restricting the potential use of fish feed at offshore U.S. 
production sites.
The Regulation of Antibiotics and Other Drugs
    The pending legislation should not attempt to set new policy for 
drug and antibiotic use in marine aquaculture. A program of Federal 
regulation is already well established under authority of the U.S. Food 
and Drug Administration (FDA). Policy statements that mandate minimized 
use of such materials are not science-based, and provide no additional 
measure of protection to human health or the environment.
    Opponents of aquaculture often allege rampant misuse of antibiotics 
by producers. Such opponents speculate that antibiotic misuse will be a 
standard practice if we create a domestic marine aquaculture system. 
Aquaculture opponents never discuss the various Federal programs 
designed to ensure that public health and environmental safety are 
maintained when the few available antibiotics are used. Critics also 
fail to recognize the scientifically rigorous FDA drug approval process 
for drugs and antibiotics used in agriculture, including aquaculture.
    There are very few drugs approved for use in aquatic animal farming 
in the United States and the three approved antibiotics are only 
available for a few specific fish species. Ongoing efforts to develop 
vaccines will dramatically reduce the need for antibiotics. The use of 
hormones as growth promoters is of questionable merit and none are 
approved for such use in aquaculture in the U.S. New drugs are strictly 
regulated, and must pass rigorous evaluation for their potential 
environmental impacts under the FDA-Center for Veterinary Medicine 
Investigational New Animal Drug (INAD) approval process. Existing laws 
set public health and environmental standards for management of drug 
use and quality assurance requirements that would apply in marine 
aquaculture.
Conclusion
    Efforts to develop an offshore aquaculture program are not 
occurring in a vacuum. Several well-established Federal regulatory 
program standards can be used to protect water quality, animal health 
and natural resources in this context. The offshore legislation should 
rely on such established standards, and the integration of the new 
offshore program details with such existing standards through the 
rulemaking process. This approach could provide a better coordinated 
and efficient program that is more likely to lead to actual investment 
and production in U.S. marine aquaculture.
    Thank you again for the opportunity to present my testimony. I 
would be pleased to answer any questions regarding these issues.

    Senator Sununu. Thank you, Dr. MacMillan.
    Ms. Cufone.

              STATEMENT OF MARIANNE CUFONE, ESQ., 
             MANAGING PARTNER, ENVIRONMENT MATTERS

    Ms. Cufone. My name is Marianne Cufone. I am an 
environmental attorney and advocate in Tampa, Florida. I work 
with a wide variety of groups and individuals on fishery 
issues, including open ocean aquaculture. It is very unusual to 
find an issue where various user groups can come together and 
speak with almost one voice and offshore aquaculture is one.
    I am honored to be here today on behalf of not just one 
particular organization, but rather many in the Gulf of 
Mexico--groups like Center for Food Safety, the Gulf 
Restoration Network, the Institute for Fisheries Resources, the 
Southeastern Fisheries Association and the Southern Shrimp 
Alliance. These are fishing conservation consumer organizations 
all concerned about potential negative impacts associated with 
open ocean aquaculture.
    There are currently many concerns about commercial 
development of offshore aquaculture in the United States. Two 
of the primary ones are pollution, both of wild fish 
populations and the environment and user conflicts. Pollution 
of wild fish populations is the intermixing of aquacultured 
fish with wild fish. Offshore aquaculture of finfish utilizes 
cages or net pens to contain fish, and some fish will escape 
from these structures into the open ocean due to severe 
weather, predators tearing at netting, failed equipment, human 
error and more. Because these fish are captive and bred for 
profit, they are often different from wild fish. They can be 
exotic species mutated in captivity for unknown reasons, 
inbred, genetically modified to create faster growing and 
larger fish or continually selectively bred to achieve similar 
results. Some fish behaviors are learned from communal 
interactions, so even unaltered captive fish can have different 
behaviors than wild fish.
    Escape of these fish that are different from wild fish can 
change the ecosystem and natural fish populations permanently. 
There are ways to help assure minimal intermixing. Requiring 
best available technology for cages and pens and preventing use 
of non-native and genetically modified organisms are important.
    We also should evaluate the scientific merit of requiring 
only first generation fish or hyper-domesticated fish in open 
water facilities.
    Pollution of the environment occurs when substances come 
out of aquaculture facilities into the waters like excess food, 
fish waste, parasites and other diseases, excessive algal 
growth, dislodged cage or other facility materials and 
antibiotics or other chemicals. These all can destroy important 
habitat like corals and sea grass, even far from facilities, 
carried by currents. Debris and other wastes can contaminate 
water and can cause safety hazards for boaters, fishermen and 
divers, and of course harm wildlife.
    A stringent program to guard against releases and quickly 
alleviate any damage is critical. We also need to establish 
strict environmental requirements with detailed pollution 
prevention and mitigation plans as conditions of operation 
before any permits issue and then condition annual permit 
renewal on environmental performance.
    Also regular removal of bio-fouling and mortalities, 
preventing use of antibiotics or other chemicals, requiring 
efficient feed usage, and minimal habitat disturbances are 
important.
    Various user conflicts are expected between offshore 
aquaculture and other ocean uses. Likely conflicts involve 
known fishing grounds and routes to those fishing grounds, 
other vessel traffic lanes, military sites, sites of national 
security, marine reserves, sanctuaries and otherwise protected 
or vulnerable sites. Essentially, S. 1195 as is will re-
allocate public resources for private gain without protecting 
existing uses. This is troubling.
    Rather than creating buffer zones just around the 
aquaculture facilities, we should create buffer zones around 
areas of current significant competing economic use or public 
value, and also ban the use of such areas for open ocean 
aquaculture.
    The composition of aquacultured fish feed creates a 
conflict issue. Cultured species are also often directly fed 
wild caught species or products that contain wild species. This 
is an inefficient use of available protein. Lower level species 
are critical to the ecosystem, serving as prey for marine 
mammals, birds and fish. Use of wild fish in creating feed for 
captive fish creates a very real food shortage problem for wild 
fisheries and other marine wildlife.
    Additionally, use of wild fish to feed captive ones may 
increase fishing pressure on wild fish populations as demand 
and prices rise for aquacultured fish. Some limitations on use 
of wild caught species as food for captive species should be 
established. Also, requiring best available technology will 
ensure that adequate food supply for natural wildlife remains.
    There are serious issues nationwide, but particularly in 
the Gulf of Mexico, because there is dependence on ocean and 
coastal areas for food, recreation, financial stability through 
tourism, recreational, commercial fishing and so many other 
things. Additionally, the severe hurricanes for the past 2 
years make the Gulf of Mexico very vulnerable to any further 
alterations.
    Use of oil rigs as sites for aquaculture facilities is a 
very real concern for us. During recent hurricanes, oil rigs 
were destroyed, some carried miles to shore. Had aquaculture 
existed on these rigs, there would have been massive fish 
escapes and likely other severe problems.
    In sum, it seems that we're rushing into development of 
offshore aquaculture in the United States without really 
considering the consequences. If we want commercial development 
of offshore aquaculture to benefit the United States, these 
matters that I have mentioned and many others first must be 
fully addressed. Expanded commercial development of offshore 
aquaculture may be a benefit in the future, but it should not 
proceed until after the implementation of stringent guidelines. 
This isn't only about economics and increased food, it's also 
about a net benefit to the United States and so we do need to 
look at these very serious issues first to ensure we don't hurt 
other existing assets.
    I very much appreciate the opportunity to be here today, 
and I look forward to working with you and others on these very 
important matters.
    [The prepared statement of Ms. Cufone follows:]

    Prepared Statement of Marianne Cufone, Esq., Managing Partner, 
                          Environment Matters
Introduction
    Good morning. I greatly appreciate the opportunity to testify today 
about the very important issues associated with offshore aquaculture. 
My name is Marianne Cufone. I am an environmental attorney and advocate 
in Tampa, Florida. I work with a wide variety of groups and individuals 
on fisheries issues, including open ocean aquaculture. I am the Vice 
Chair of the Gulf of Mexico Fishery Management Council Advisory Panel 
on Offshore Aquaculture, a member of the Florida Department of 
Agriculture and Consumer Services Task Force on open water aquaculture 
and I have been helping to coordinate a broad-based regional coalition 
to collaboratively engage on marine aquaculture matters.
    Through years of environmental advocacy, I have seen very few 
issues that most users groups can come together and speak on with 
almost one voice. Open water aquaculture is one such anomaly. \1\ I am 
honored to be here today on behalf of not just one particular 
organization, but rather many in the Gulf of Mexico region, including 
the Center for Food Safety, \2\ the Gulf Restoration Network, \3\ the 
Institute for Fisheries Resources, \4\ the Southeastern Fisheries 
Association, \5\ and the Southern Shrimp Alliance, \6\ to highlight a 
few of the coalition members. These are conservation, fishing and 
consumer organizations . . . all concerned by potential negative 
impacts associated with open ocean aquaculture.
---------------------------------------------------------------------------
    \1\ Attached, please see the letter dated May 24, 2005, regarding 
offshore aquaculture. This letter had a wide range of signatories, many 
of which are from or work in the Gulf of Mexico region.
    \2\ The Center for Food Safety (CFS) is a non-profit public 
interest and environmental advocacy membership organization established 
in 1997 by its sister organization, International Center for Technology 
Assessment, for the purpose of challenging harmful food production 
technologies and promoting sustainable alternatives. CFS has offices in 
Washington, DC and San Francisco, CA and engages in work throughout the 
United States.
    \3\ The Gulf Restoration Network (GRN) is a 501(c)(3) non-profit 
alliance of over fifty groups and individuals committed to uniting and 
empowering people to protect and restore the resources of the Gulf of 
Mexico region. GRN has members in all five Gulf of Mexico States.
    \4\ The Institute for Fisheries Resources (IFR) is a 501(c)(3) non-
profit organization dedicated to the protection and restoration of fish 
resources and the human economies that depend on them. By establishing 
alliances among fishing men and women, government agencies, and 
concerned citizens, IFR unites resource stakeholders, protects fish 
populations, and restores aquatic habitats.
    \5\ Southeastern Fisheries Association (SFA) is a 501(c)(6) not-
for-profit fisheries trade association founded in Florida in 1952. SFA 
represents seafood dealers that handle eighty-five percent of the pink 
shrimp landed in the state and the majority of spiny lobster, stone 
crab, grouper and oysters in the state of Florida. SFA has members in 
all segments and sectors of the fishing industry, including importers, 
exporters and aquaculturists.
    \6\ Southern Shrimp Alliance (SSA) is a non-profit network of 
members of the shrimp industry in eight states. SSA serves as the 
national voice for the shrimp fishermen and processors in Alabama, 
Florida, Georgia, Louisiana, Mississippi, North Carolina, South 
Carolina, and Texas.
---------------------------------------------------------------------------
    There are currently many concerns about commercial development of 
offshore aquaculture in United States waters, far more than I can cover 
in a few minutes or pages. I will therefore concentrate on the issues I 
and those I work with find most pressing regarding S. 1195. The first 
is pollution: both of wild fish populations and the environment. The 
second is user conflicts.
Pollution
    Pollution of wild fish populations occurs when there is intermixing 
of aquacultured fish with wild fish. Offshore aquaculture of finfish 
currently utilizes a cage or pen to contain the fish. Even well 
engineered and strategically placed cages and pens will have some 
escape of fish from these containers into the open ocean from various 
complications like severe weather, predators tearing at netting, failed 
equipment, human error and a number of other possibilities. Because 
these fish are captive and bred for profit, they are often different 
from wild fish. The captive fish may be exotic species, from a 
different area entirely to introduce a new product to a local market. 
Aquacultured fish can mutate in captivity for unknown reasons, or 
because of continued inbreeding. Some fish behaviors are learned from 
natural communal interactions, so even unaltered captive fish can have 
different behaviors than wild fish and if released, the aquacultured 
fish can change natural behaviors in the wild. Perhaps most disturbing, 
fish used for aquaculture might be intentionally genetically modified 
to create faster growing and larger fish or might be continually 
selectively bred to achieve similar results. Escape of fish that are 
different from wild fish could change the ecosystem and natural fish 
populations permanently.
    There are ways to help assure minimal escapement and intermixing of 
wild fish with different captive fish: requiring use of best available 
technology for cages and pens and preventing use of non-native species 
and genetically modified organisms are important standards. 
Additionally, other methods of minimizing intermixing in the event of 
an escape should be reviewed and evaluated, for example the scientific 
merit of requiring only use of first generation fish or alternatively 
hyper-domestication of animals in open water facilities.
    Pollution of the environment occurs when there are substances 
coming out of the aquaculture facility into our waters, like excess 
food, fish waste, parasites and other diseases, excessive algal growth, 
dislodged cage or other facility materials and antibiotics or other 
chemicals. These all can destroy important habitat, like corals and 
seagrass, even far from the facilities, carried by currents. Debris and 
other wastes can contaminate our water and cause safety hazards for 
boaters, fishermen and divers and of course, harm wildlife.
    Because there are numerous pollution concerns associated with open 
water aquaculture, a stringent program to first guard against releases 
and then quickly alleviate any damage is most critical. Establishing 
strict environmental requirements with detailed pollution prevention 
and mitigation plans as conditions of operation before any permits 
issue and then conditioning annual permit renewal on environmental 
performance could promote more careful processes and rapid recovery 
time. Some specific measures include: regular removal of biofouling and 
mortalities, preventing use of antibiotics or other chemicals, 
requiring efficient feed usage, careful placement of anchors, cable and 
other structure, current mapping, and disease control.
User Conflicts
    Because offshore aquaculture facilities will take up real space in 
the marine environment, various user conflicts are expected between 
offshore aquaculture and other ocean uses. Contributing to this is the 
express provision in S. 1195 that allows creation of buffer zones 
around aquaculture areas in which no activities will be permitted other 
than those relative to the aquaculture facility. Some of the most 
likely and troubling conflicts are those regarding known fishing 
grounds and routes to those fishing grounds, other vessel traffic 
lanes, military sites and areas of concern regarding national security, 
marine reserves, sanctuaries and otherwise protected or vulnerable 
areas and areas of significant multiple use, for example where there 
are boating, diving, water sports and swimming. Essentially S. 1195 
will re-allocate public resources for private gains without protecting 
existing uses.
    Rather than establishing buffer zones only around aquaculture 
facilities, buffer zones should be created around areas of current 
significant competing economic use or public value, especially 
including known fishing grounds and routes to those fishing grounds, 
vessel traffic lanes, military sites and areas of concern regarding 
national security, marine reserves, sanctuaries and otherwise protected 
or fragile areas. Additionally, the use of areas of significant 
multiple use and/or public value for open water aquaculture should be 
completely prevented.
    Another area of significant conflict involves composition of 
aquacultured fish feed. Cultured species are often directly fed wild 
caught species or products that contain wild species, in the form of 
fish meal or fish oil. This is an inefficient use of the available 
natural protein resources. The resulting net loss of fish protein means 
that offshore fish farming is not a good alternative to wild capture 
fishing, though often touted as being such, and may actually increase 
fishing pressure on wild fish populations as demand and prices rise for 
fish meal and fish oil to feed captive fish.
    Lower trophic level species like krill, squid, and other small fish 
are a crucial part of the marine ecosystem, serving as prey for marine 
mammals, birds and fish yet are still used to make captive fish feed. 
Many commercially and recreationally important fish species depend 
directly on the availability and abundance of such prey species for 
their survival and recovery. Prey species also support several species 
of endangered marine mammals and seabirds. In order to effectively 
protect and restore our natural ocean resources, it is critical to 
protect the health and availability of prey species. Wild fish 
populations and other threatened and endangered species can only 
recover and thrive if the ecosystem upon which they depend is intact. 
Use of wild fish in creating feed for captive fish creates a very real 
problem for wild fisheries and other marine life.
    Some limitations on use of wild caught species in as food for 
captive species should be established. There is ongoing research into 
alternative food sources for captive fish and best available technology 
should be required to ensure adequate food supply for natural wildlife.
Regional Matters
    These are all serious issues nationwide, but particularly in the 
Gulf of Mexico, many people are very concerned about expanded 
development of offshore aquaculture. Historically, we are coastal 
people known for our commercial and recreational fisheries including 
shrimp, crab, lobster snapper, grouper and many more. Tourism, based on 
our environment, is a key economic factor and so many of us live around 
the Gulf of Mexico to enjoy the benefits of a coastal lifestyle: 
relaxing on white sand beaches, swimming in clear blue waters, boating 
and countless water sports. Also, the severe hurricanes of the past 2 
years make us very vulnerable to any further alterations in our marine 
world.
    One matter in particular that became very troubling to many Gulf 
residents after assessing damage from the catastrophic storms is the 
use of oil rigs as sites for aquaculture facilities. During the 
hurricanes, oil rigs were destroyed, some even being carried miles to 
shore. Had offshore aquaculture existed on these rigs at the time of 
the storms, there would have been massive releases of captive fish, 
feed and other pollutants directly into Gulf of Mexico waters.
    Oil rigs are erected for a purposes and when that purpose is 
completed, they should be removed as originally contemplated, not 
transitioned into other uses that might cause serious long term 
negative consequences. There are open water net pens and cages better 
designed to withstand storm activity and other disturbances far better 
suited for use in open ocean aquaculture than oil rig structures 
initially created for something entirely different. In general, 
recycling and re-use of materials is something I strongly support, but 
the consequences potentially far outweigh the benefit in this 
particular instance. Oil rigs, active or decommissioned, should not be 
substituted for best available technology in open water aquaculture.
    Our region has been taking steps to protect unique local resources 
because S. 1195 in its current form does not sufficiently do so. The 
Gulf of Mexico Fishery Management Council is developing an amendment to 
the fishery management plans for the Gulf of Mexico to manage offshore 
aquaculture while they still have a meaningful regulatory role. Under 
S. 1195, regional Councils would be ambiguously demoted to a consulting 
or perhaps consenting entity, though they are in the best position to 
understand local needs. Currently, these draft Council regulations 
contain provisions to deal with many of the concerns I previously 
mentioned associated with offshore aquaculture.
    Similarly, the Florida Department of Agriculture and Consumer 
Services developed open water aquaculture best management practices 
through a cooperative task force of various interest representatives. 
These guidelines also address many of the potential threats to our 
environment and the people that rely on it associated with open water 
aquaculture.
    These documents could be used as guidance for specific matters to 
include in S. 1195, which currently does not provide adequate 
protections.
Conclusion
    It seems we are rushing into development of offshore aquaculture in 
United States waters without really considering the consequences.
    S. 1195 in current form does not adequately protect our valuable 
marine resources and the many individuals and communities that rely on 
them, though we have better means to do so.
    Expanded commercial development of offshore aquaculture in United 
States waters may be a benefit in the future, but it should not proceed 
until after the development of stringent guidelines. S. 1195 does not 
yet provide these.
    Thank you for your time and attention. I look forward to working 
with you and others on these important matters.
                               Attachment
  Alaska Longline Fishermen's Association; Center for Food 
 Safety; Cook Inlet Keeper; Environment Maine; Environment 
     Matters; Environmental Defense; Environmental Defense 
  Center; Florida Fishermen's Federation; Friends of Casco 
Bay; Go Wild Campaign; GRACE Public Fund; Greenpeace; Gulf 
Restoration Network; Hawaii Audubon Society; Institute for 
      Agriculture and Trade Policy; KAHEA; Mangrove Action 
          Project; Maryland Conservation Council; National 
Environmental Trust; Natural Resources Defense Council; The 
    Ocean Conservancy; Oceana; Pacific Coast Federation of 
       Fishermen's Associations; PCC Natural Markets/Sound 
       Consumer; Public Citizen; Sierra Club; Reef Relief; 
     Southeastern Fisheries Association; Southern Offshore 
   Fishing Association; United Anglers of California; U.S. 
      Salmon Network; United Southeast Alaska Gillnetters; 
   Versaggi Shrimp Corporation; Whale Center of New England
                                                       May 24, 2005
Hon. Ted Stevens,
Hon. Daniel Inouye,
Hon. Olympia Snowe,
Hon. Maria Cantwell,

U.S. Senate,
Washington, DC.

Hon. Richard Pombo,
Hon. Nick Rahall,
Hon. Wayne Gilchrest,
Hon. Frank Pallone, Jr.,

House of Representatives,
Washington, DC.
Re: Protect Ocean Health and Ensure Responsible Governance, 
            Do Not Support NOAA's Offshore Aquaculture Bill

Dear Chairs and Ranking Members,

    To protect our oceans, native fish populations, and human health 
and livelihoods, the above groups urge your leadership to ensure 
legislation to promote aquaculture in offshore ocean waters is governed 
by a strict regime of scientifically sound regulations. The National 
Oceanic and Atmospheric Administration (NOAA) has drafted legislation 
that it intends to soon transmit to Capitol Hill to promote offshore 
aquaculture in the U.S. Exclusive Economic Zone. We are concerned that 
this legislation is not adequately protective of our oceans, including 
fisheries and other ocean uses. We hope you will work with us to ensure 
that any offshore aquaculture legislation introduced protects all ocean 
interests.
    Fish farming and other forms of aquaculture have received 
widespread attention, including as posited as a solution to dwindling 
wild stocks and the growing U.S. seafood trade deficit. The Department 
of Commerce has called for a five-fold increase in domestic aquaculture 
production by 2025. We recognize that some types of aquaculture offer 
potential benefits. However, without comprehensive Federal permitting 
requirements, offshore aquaculture poses numerous serious risks to 
marine ecosystems, native fish stocks, and public health. Offshore 
finfish farms are vulnerable to the escape of farmed fish, which may 
interbreed with and alter the genetic makeup of local fish populations. 
Fish farms concentrate parasites and diseases, which can spread to 
other fish. Antibiotics and other chemicals used to treat or prevent 
these diseases can bring unintended consequences. Large quantities of 
uneaten fish feed and wastes are discharged from farms directly into 
ocean waters and may pollute the surrounding ecosystems.
    Moreover, we question claims that offshore aquaculture supplements 
dwindling fish stocks and will reduce the Nation's ``seafood deficit.'' 
Most marine finfish are carnivores and currently require large 
quantities of fisheries products, made largely from wild-caught fish, 
in their diets. Farming these marine finfish actually reduces the net 
supply of fish. In this way, aquaculture diminishes rather than adds to 
fish supplies, and although it might reduce the U.S. seafood deficit in 
monetary terms, it does not reduce it in ecological terms. Moreover, 
NOAA has not justified its economic claims for reducing the U.S. 
seafood trade deficit.
    Significantly, NOAA's proposal does not provide adequate safeguards 
to ensure our oceans, fisheries, ecosystems and public health are 
protected. NOAA has rejected Congressional and stakeholder comments to 
include specific precautions and provide further necessary study in 
conjunction with its legislation, including requests that the Agency 
comply with the National Environmental Policy Act (NEPA) by completing 
a Legislative Environmental Impact Statement before submitting its 
legislation to Congress. Rather than comply with NEPA, NOAA has ignored 
these requests dating from late 2003.
    Based on our understanding of NOAA's proposed legislation, specific 
concerns shared by our groups include:

  <bullet> Almost total discretion given to NOAA regarding permits and 
        conditions;

  <bullet> No coordination with other offshore uses such as navigation, 
        recreation, defense, or fishing except ``to the extent 
        practicable;''

  <bullet> Lack of baseline environmental protections for incorporation 
        within permits;

  <bullet> Allowance of genetically modified and non-native fish 
        species that may compete with and cause harm to native 
        populations;

  <bullet> No clear process for public or state government 
        participation in the consideration of permits;

  <bullet> Lack of detailed provisions as required of other offshore 
        industries making the permittee responsible for the life of the 
        offshore structures, and providing for general financial and 
        environmental risks, including bankruptcy;

  <bullet> Lack of critical implementation language regarding 
        enforcement and no provisions for citizen suits;

  <bullet> Absence of rapid response provisions for known risks, such 
        as disease outbreaks.

    Two recent national commissions, the U.S. Commission on Ocean 
Policy and the Pew Oceans Commission, recommended that ocean uses be 
better managed and coordinated. NOAA's bill does not accomplish such 
coordination, nor does it adequately protect our oceans. For these 
reasons, we urge you to forgo sponsorship of NOAA's proposal at this 
time, and to only support legislation which provides sufficient 
parameters to ensure our oceans and fisheries are protected, and to 
ensure that any aquaculture facilities in public waters enhance, not 
diminish, our food supply.
        Sincerely,
           Catherine Hazlewood, The Ocean Conservancy, Washington, DC.
           Tracie Letterman, Center for Food Safety, Washington, DC.
           Becky Goldburg, Ph.D., Environmental Defense, Boston, MA.
           Zeke Grader, Pacific Coast Federation of Fishermen's 
        Associations, San Francisco, CA.
           Marianne Cufone, Environment Matters, Tampa, FL.
           Andrianna Natsoulas, Public Citizen, Washington, DC.
           Bob Jones, Southeastern Fisheries Association, Tallahassee, 
        FL.
           Robert Spaeth, Southern Offshore Fishing Association, 
        Madeira Beach, FL.
           Cyn Sarthou, Gulf Restoration Network, New Orleans, LA.
           Mark Ritchie, Institute for Agriculture & Trade Policy, U.S. 
        Salmon Network, Minneapolis, MN.
           Sal Versaggi, Versaggi Shrimp Corporation, Tampa, FL.
           Kate Wing, Natural Resources Defense Council, San Francisco, 
        CA.
           Mike Hirshfield Ph.D., Oceana, Washington, DC.
           Anne Mosness, Go Wild Campaign, Bellingham, WA.
           Linda Behnken, Alaska Longline Fishermen's Association, 
        Sitka, AK.
           Linda Paul, Hawaii Audubon Society, Honolulu, HI.
           Eric Wickham, Canadian Sablefish Association, Vancouver, BC 
        Canada.
           Caroline Karp, Sierra Club, Exeter, RI.
           Kenneth Duckett, United Southeast Alaska Gillnetters, 
        Ketchikan, AK.
           Matthew Davis, Environment Maine, Portland, ME.
           Bob Shavelson, Cook Inlet Keeper, Homer, AK.
           Tracy Wolpert, Randy Lee, Trudy Bialic, PCC Natural Markets/
        Sound Consumer, Seattle, WA.
           Andrea Kavanagh, National Environmental Trust, Washington, 
        DC.
           Ray Pringle, Florida Fishermen's Federation, Panacea, FL.
           Cha Smith, KAHEA, The Hawaiian Environmental Alliance, 
        Honolulu, HI.
           Joseph E. Payne, Casco Baykeeper, Friends of Casco Bay, 
        South Portland, ME.
           Alfredo Quarto, Mangrove Action Project, Port Angeles, WA.
           Alice Slater, GRACE Public Fund, New York, NY.
           Paul G. Johnson, Reef Relief, Crawfordville, FL.
           Mason Weinrich, Whale Center of New England, Gloucester, MA.
           Bob Strickland, United Anglers of California, San Jose, CA.
           Mary P. Marsh, Maryland Conservation Council, Annapolis, MD.
           Brian Trautwein, Environmental Defense Center, Santa 
        Barbara, CA.
           John Hocevar, Greenpeace, Washington, DC.

    Senator Sununu. Thank you Ms. Cufone. I hope you don't mind 
if I use the net benefit pun in the future. I have additional 
hearings on this.
    [Laughter.]
    Senator Sununu. Mr. Bedford.

    STATEMENT OF DAVID BEDFORD, DEPUTY COMMISSIONER, ALASKA 
                  DEPARTMENT OF FISH AND GAME

    Mr. Bedford. Good morning Chairman Sununu and Members of 
the Committee. For the record, my name is David Bedford. I 
serve as Deputy Commissioner as the Alaska Department of Fish 
and Game and I focus my portfolio on fisheries issues. I also 
serve as the Commissioner for the State of Alaska on the 
Pacific Salmon Commission, the body responsible for developing 
conservation and harvest sharing agreements for Pacific salmon 
under a treaty between the United States and Canada.
    I have been asked to speak today about the importance of 
coordinating Federal regulation of offshore aquaculture with 
state regulatory programs, and I thank you for the opportunity 
to present these remarks.
    I would start by noting a few of Alaska's general 
recommendations for management of offshore aquaculture that are 
derived from our experience with management of marine 
fisheries. We believe that the legislation authorizing offshore 
aquaculture should first allow states to determine what kind of 
aquaculture activity would take place in the Federal waters off 
their coastlines. Local control is from our perspective and in 
our experience key to long-term conservation of resources and 
public acceptance of any development that takes place.
    Second, we should include an initial 5-year moratorium on 
new aquaculture operations to ensure that we develop an 
adequate scientific foundation and socio-economic analyses to 
have a good grasp of what the implications of our actions would 
be.
    Third, we believe that the Regional Fishery Management 
Councils should be given jurisdiction over aquaculture 
operations. The Regional Counsils are an effective means to 
provide for public participation and for scientific review.
    Fourth, we believe that legislation should prohibit farming 
of specific species, particularly salmon, halibut, and black 
cod. The economic and biological implications of farming these 
species are profound.
    As you consider legislation that would authorize the 
development of aquaculture off the coast of the United States, 
I would note a couple of important facts: First, there is no 
natural division between state waters and Federal waters that 
the proposed legislation would regulate. While we can draw 
jurisdictional boundaries, in the natural world there are no 
such distinctions, and many species of fish spend important 
stages of development in near shore waters then move to 
offshore waters for later stages of development. Some species 
pass between state and Federal waters innumerable times in the 
course of their lives.
    Second, the states have been in the business of regulating 
marine fishery resources for some time. Consequently, 
management of new aquaculture development off our coast should 
be consistent with existing state policies and practices.
    Alaskan fishery management is grounded on obligations set 
in the State Constitution that require management of fish and 
wildlife to provide for sustained yield. Alaska has developed a 
number of strategies in resource management which enable the 
state to provide for sustained yield. First in our management, 
the resource comes first and second and third and always. To 
ensure long-term use, sustained yield management must begin by 
setting conservation objectives and controlling any kind of 
human use to ensure these objectives are met.
    Second, management must be based on science. Fishery 
resources in our management program are studied to determine 
long-term conservation requirements. State management includes 
strict policies to preserve genetic integrity, control the 
spread of disease, control transport of fish products and live 
fish, and prevent introduction of non-native species.
    Third, where possible, management is adaptive and uses 
current information. In instances where we do not have a good 
source of current information, we're very conservative in the 
way that we manage.
    Fourth, harvest allocation and science-based resource 
management are distinct processes. We have separate agencies 
for handling those two.
    And finally, the public has a meaningful role in allocation 
and management decisions. Meaningful public involvement in 
resource management engenders support for conservation and 
helps in planning that increases efficient use. There have been 
a number of lessons learned from Alaska's experience that would 
be helpful to a nascent aquaculture industry. First to assure 
long-term conservation of marine resources, management should 
be local. It should not be an exercise of a distant national 
regulatory agency.
    Second, development should be based on sound science which 
can specify the impacts of proposed development on the local 
environment, on the resources and on human communities.
    Third, decisionmaking that provides for the economic well-
being of the industry should be separated from the scientific 
evaluation of impacts of those developments.
    And finally, the public should be involved in the 
regulatory process. Where people have a meaningful role 
agencies will be motivated to manage effectively, cautiously 
and in a conservative fashion.
    Thank you again for the opportunity to testify. I welcome 
any questions you may have.
    [The prepared statement of Mr. Bedford follows:]

       Prepared Statement of David Bedford, Deputy Commissioner, 
                   Alaska Department of Fish and Game
    Good morning Mr. Chairman and Members of the Committee. For the 
record, my name is David Bedford. I serve as Deputy Commissioner of the 
Alaska Department of Fish and Game focusing on fishery issues. I also 
serve as the Commissioner for the State of Alaska on the Pacific Salmon 
Commission, the body responsible for developing conservation and 
harvest sharing agreements for Pacific salmon under a treaty between 
the United States and Canada. I am appearing on behalf of Fish and Game 
Commissioner McKie Campbell. He appreciates your invitation but is 
participating in a meeting of the North Pacific Fisheries Management 
Council, on which he serves as a voting member.
    The Committee has asked that I focus my testimony on Alaska's 
effective fishery management and conservation of its marine fishery 
resources. Alaska developed sustained yield management of its fishery 
resources as a matter of necessity. Alaska's people depend on our 
fisheries for their livelihood, recreation and as a source of 
nutrition. Alaskans take advantage of our fishery resources in 
subsistence, commercial, sport and personal use fisheries. Over half of 
the total harvest of fish in the United States is taken from the waters 
off Alaska. Our fisheries support half of the jobs in Alaska fully or 
in part. With a total economic output of more than 4.6 billion dollars 
per year, Alaska's seafood industry is one its largest private sector 
employers, and is the largest employer in a number of fishery-dependent 
coastal communities.
    Given the interests of Alaska and other states in marine resources 
and fisheries it is vital that any effort to develop off shore 
aquaculture coordinate with and utilize the expertise of state 
management programs.
Alaska Fisheries Management
    Alaskan fishery management is grounded on obligations set in the 
state constitution requiring management of fish and wildlife to provide 
for sustained yield and reserving fish and wildlife for the common use 
of the people. Thus, the constitution sets the standard for 
conservation of the resource with the objective of allowing for human 
use of that resource in perpetuity. We provide a healthy resource for 
fishing families while ensuring environmental protections. Alaska has 
developed a number of strategies employed in resource management which 
enable the state to achieve these ends:

  <bullet> The resource comes first. To assure long-term use and 
        sustained yield, management must begin by setting conservation 
        objectives and controlling harvest to ensure that these 
        objectives are met. Unique amongst state constitutions, 
        Alaska's actually requires sustainable management of its 
        renewable natural resources.

  <bullet> Management is based on science. Fishery resources are 
        studied to determine life history; long-term conservation 
        requirements are determined and harvests are permitted only on 
        the resource that is surplus. Long-term conservation management 
        includes strict policies to preserve genetic integrity, control 
        spread of disease, control transport of fish, and prevent 
        introduction of non-native species.

  <bullet> Where possible, management is adaptive and uses current 
        information. Alaskan managers monitor the fishery and respond 
        with fishery openings and closures or other modifications as 
        new information becomes available. If there is no source of 
        current information, the harvest is set at conservative levels.

  <bullet> Harvest allocation and resource management are distinct. The 
        managers responsible for monitoring the fishery resource and 
        making decisions on when and where the public can harvest must 
        make objective decisions based on science and dictated by 
        resource status. Decisions on allocating the available harvest 
        among various uses should be, and are, made by another body, 
        the Alaska Board of Fisheries.

  <bullet> The public has a meaningful role in allocation and 
        management decisions. Alaskans have a stake in, and 
        responsibility for, the conservation of their resources. The 
        resource allocation process conducted by the Alaska Board of 
        Fisheries is open to the public with the issues debated and 
        decisions made in public session. In addition, the Department 
        of Fish and Game has established 82 local advisory committees 
        comprised of resource users to help develop strategies to 
        implement fishery management plans. Meaningful public 
        involvement in resource management engenders support for 
        resource conservation and helps in the development of harvest 
        plans that increase efficient use.

    Offshore aquaculture would be a new industry. To assure effective 
development of the industry it should be coordinated with existing 
resource uses and management programs. There are a number of the 
lessons learned by Alaska that would be helpful to a nascent 
aquaculture industry.

  <bullet> To assure long-term conservation of marine resources, 
        management should be local, not an exercise by a distant 
        national regulatory agency.

  <bullet> Development should be based on sound science which can 
        specify the impact of proposed development on the local 
        environment, resources, and human communities.

  <bullet> Decision making that provides for the economic well-being of 
        the industry should be separated from the scientific evaluation 
        of the impact of any development.

  <bullet> The public should be involved in the regulatory process. 
        Where people have a meaningful role agencies will be motivated 
        to manage effectively.

The Effects of Fish Farming
    Alaska has some experience with marine finfish aquaculture both 
from the introduction of an invasive species into Alaskan waters with 
the escape of Atlantic salmon from marine aquaculture facilities in 
British Columbia and from the effect on world salmon markets caused by 
the growth of the salmon farming industry. These experiences lead us to 
sound a cautionary note regarding the development of offshore 
aquaculture in the United States.
    Finfish farming is illegal in Alaska, and has been since statehood. 
Fish farms, whether in Alaskan waters, in the Exclusive Economic Zone 
or in Canada, pose a potential threat to the health of Alaska's 
fisheries, our economy and our way of life.
    Fish farms in British Columbia and the Pacific Northwest cultivate 
Atlantic salmon, a species not native to the North Pacific. For a 
variety of reasons, some of these fish escape the farms and mingle with 
wild salmon populations. Despite the efforts of fish farmers, there is 
no technology that can prevent these escapes. Since 1994, Atlantic 
salmon have been found in Alaska's waters, including freshwater systems 
such as the Copper and Situk rivers.
    Farmed Atlantic salmon, when released into Alaska's fresh and 
marine waters, are an invasive species. These invasions raise serious 
ecological and economic concerns. The Atlantic salmon can compete with 
our abundant salmon stocks and threaten them with disease.
    We are also concerned about ensuring the genetic diversity and 
viability of our wild salmon stocks. In hatchery operations and in all 
management decisions, we have strict guidelines:

  <bullet> Live salmonids, including gametes, will not be imported from 
        sources outside the state;

  <bullet> Stocks will not be transported between major geographic 
        areas;

  <bullet> Stocks cannot be introduced to sites where significant 
        negative interaction or impact on wild stocks will occur; and

  <bullet> Genetic diversity is stressed with a single wild donor stock 
        contributing to more than three hatchery stocks.

    Invasive species can introduce new disease organisms, including 
pathogens that are new to Alaska, and might be resistant to 
antibiotics. They can promote the spread of existing pathogens, such as 
sea lice. We also have concerns that new species could be cultured, 
with the potential for introducing new pathogens.
    The growth and development of the global salmon industry caused a 
severe decline in the value of Alaska salmon over the last fifteen 
years. The value of the Alaskan salmon harvest averaged $500 million at 
first point of sale from 1990--1995, but fell below $200 million in 
2001 and 2002. Increased production of farmed salmon was the primary 
reason for the collapse.
    Although farmed salmon are treated with heavy doses of antibiotics 
and artificial coloring agents, farmed salmon raised in Chile compete 
directly in market places around the world with wild Alaska salmon. 
Farmed salmon have provided a cheaper alternative to wild Alaska 
salmon, and as a result, has depressed salmon prices around the globe. 
This is not surprising given the low cost of labor and minimal 
environmental standards for the Chilean salmon farming industry.
    In the face of off shore competition, Alaskan fishermen and the 
State of Alaska have been working diligently to promote the benefits of 
eating wild Alaskan salmon, focusing on industry restructuring to 
improve product quality, and new product development. Our promotional 
efforts are yielding impressive results.
    We pride ourselves on the high quality of our wild seafood, and 
Governor Frank Murkowski has been leading a concerted effort in recent 
years to establish ``Wild Alaska Salmon'' as a successful brand. This 
is a key component of the state's efforts to counter the painful effect 
that fish farming elsewhere in the world has had on the domestic salmon 
production in the last fifteen years.
    Should offshore aquaculture develop there are concerns that it 
could be less stringently regulated than the Alaska standards would 
call for. It has the potential to detrimentally impact Alaska wild 
stocks and their markets, and may undermine the state regulatory 
program if state input is not included.
Recommendations
    Therefore, Alaska urges that any offshore aquaculture legislation 
include several components:

  <bullet> Governors and state management agencies should determine 
        what types of aquaculture activities, if any, occur in the 
        waters off their states' coastlines.

  <bullet> A five-year moratorium on new aquaculture operations to 
        ensure that adequate scientific and socio-economic analyses of 
        the impacts of aquaculture can be done: Some structured studies 
        have been conducted on the scientific and socio-economic 
        impacts of aquaculture, in addition to the multitudes of 
        anecdotal evidence that have been compiled in recent years. The 
        State believes that a comprehensive study should be undertaken 
        to understand how aquaculture would affect the ecology of 
        American waters as well as the socio-economic impacts it would 
        have on coastal communities. A moratorium on new operations 
        should be enforced for at least five years while this study is 
        being conducted and results evaluated.

  <bullet> Regional Fishery Management Councils must have jurisdiction 
        over aquaculture operations: Success in managing the Federal 
        fisheries off of Alaska's coasts can, in large measure, be 
        attributed to the strong role of the North Pacific Fisheries 
        Management Council (NPFMC). The NPFMC, like its counterparts 
        around the country, has developed expertise and the necessary 
        judgment for dealing with issues of biological, economic, and 
        social importance to the region's fisheries. The current draft 
        of aquaculture legislation leaves it to the Secretary to 
        determine whether aquaculture will interfere with other 
        fisheries and only recommends consultation between the 
        Secretary and relevant Federal agencies before permitting an 
        aquaculture facility. The amendment proposed by Senator Inouye 
        requiring consultation between the Secretary and the regional 
        fishery management councils on environmental regulations is a 
        good beginning; however, the State would prefer more council 
        oversight and decision-making over all parts of offshore 
        aquaculture management.

  <bullet> Statutory prohibitions of aquaculture for certain species: 
        Prohibitions on farming of certain species, particularly 
        salmon, halibut, and black cod, would prevent the tainting of 
        the wild Alaska branding image and impacts to the consequent 
        recent increases in commodity value. Moreover, the introduction 
        of mass-produced, farmed fish has already severely impacted 
        economies of rural Alaska communities. Species-specific 
        prohibitions on aquaculture would allow these communities to 
        survive and maintain traditional lifestyles.

  <bullet> As the Federal Government works to develop aquaculture as a 
        competing interest to wild fisheries, it should develop 
        programs to maintain the economic vitality of wild capture 
        fisheries. Fish farming around the world has caused a 
        significant downfall in the value of Alaska's salmon. To 
        mitigate impacts on the other Alaska fisheries, worth an 
        estimated $700 to $800 million harvest value, programs should 
        be set in place that focus on market and product 
        diversification for wild capture fisheries, with an emphasis on 
        highlighting the important characteristics of wild seafood. 
        These types of programs may provide improvement to harvesting 
        and processing infrastructure, quality improvement investments, 
        value-added equipment, and marketing funds. Programs could also 
        be put in place that limit the growth of farm fish production 
        to a scale that does not flood the market with product in a 
        manner that leads to excessive downward prices in both the 
        aquaculture and wild capture fishery industries.

    Senator Sununu. Thank you very much. We are going to begin 
the discussion with Senator Boxer.

               STATEMENT OF HON. BARBARA BOXER, 
                  U.S. SENATOR FROM CALIFORNIA

    Senator Boxer. Mr. Chairman, thank you so much for this 
hearing and for your focus on this very important issue which 
is so key in my state. I want to say that all of the witnesses 
have been very clear and personally I think we're getting a 
good road map here toward some resolution.
    At the last hearing on offshore aquaculture, we learned 
from the witnesses about some of the challenges and potential 
problems of expanding aquaculture. We heard from Dr. Goldberg 
who testified how demand for fish feed and oil for offshore 
aquaculture can contribute to over fishing which is a big 
issue. He also talked about how offshore aquaculture could 
cause significant harm to marine ecosystems and fisheries 
whether it is from water pollution or escape farm fish, disease 
or the use of antibiotics.
    We learned how high levels of PCBs in farm fish could 
threaten human health, and I think those people who try to 
brush all of this to the side are absolutely not being real 
because these things aren't made up. They are provable, and we 
know that, so the question is how do we solve these problems? 
What do we do so that we can achieve everything we all want to 
achieve?
    And I am very proud to say and Mr. Eichenberg discussed 
this and alluded to this that my home state of California, on 
this and so many environmental issues, is leading the way and 2 
weeks ago our governor signed the sustainable oceans act, a law 
that creates strong standards and protection for aquaculture 
off of our coast and it took a long time. It brought everybody 
together. It is kind of like what Ms. Cufone said in her 
statement which this is an issue that you can really get some 
consensus on. You don't have to take a strong side of us 
against them. It can bring everybody to the table, and I am 
very pleased that happened and I am glad that Mr. Eichenberg 
put the law into the record and I am going to give my copy to 
my chairman to take a look at.
    Specifically, the law sets out standards to ensure that 
aquaculture lease conditions minimize marine aquaculture's 
potential environmental and socio-economic problems. For 
example, it requires that the use of all drugs, chemicals and 
antibiotics be minimized. It limits the use of fish meal and 
fish oil. The law also requires public hearings on potential 
leases before the State Fish and Game Commission can grant the 
lease. This ensures the community and public input is taken 
into account before any new projects are approved, so it's 
not--it doesn't go as far as Alaska's recommendation here for a 
moratorium, it actually says we can look at applications, but 
we need to make sure they are solid. Again, we brought together 
in California the environmental groups, the fishing groups, and 
I believe we laid out a very strong, sound and sensible 
approach. It's a bipartisan bill. I believe it should serve as 
a model for this Committee, and quite obviously, if we come up 
with something less than this and we don't have an exemption 
for those states that want to do more, I think we're going to 
run into trouble quite frankly, Mr. Chairman. You know, I don't 
mind setting a floor, but not a ceiling. I don't think that is 
our job. I don't think that we should tell the states you can't 
be any more concerned, or you don't know how to do this any 
better.
    So I know states like California and Alaska are very strong 
about the way we feel and I think other states may come forward 
as well. However, we may yet come up with something that is so 
solid and strong based on something like the California bill 
that we can get tremendous accolades rather than start a whole 
big argument. Now unfortunately, I don't think the 
Administration bill does it and so I would ask Mr. Eichenberg 
in my time here, do you feel it is important that we write at 
least a strong Federal law as California has and what would the 
practical effect be if we had a Federal law that was weaker on 
farm--fish farm pollution in Federal waters four miles offshore 
than in California state waters three miles out? What would 
happen if we had that kind and perhaps others could answer 
that?
    Mr. Eichenberg. Thank you, Senator Boxer. Yes, I think 
adopting a law such as the one adopted in California is 
feasible. As you said, it was done through a stakeholder 
process. We had everybody at the table talking about these 
specific standards. The standards are not prescriptive. But 
they do provide general guidance for the development of 
regulations, and give some instruction to the Department of 
Fish and Game and the Fish and Game Commission which will be 
adopting the regulations, to do the things that you mentioned--
minimize pollution, prevent escapes and so forth.
    Right now, the Federal bill has nothing. It just basically 
turns all this over to the agency that developed the 
regulations. And if the Federal Government adopts a regime 
without strict environmental controls to ensure that these 
impacts don't occur, then the efforts of the states like the 
states of California and Alaska will be undermined. You will 
have weak Federal legislation that allows projects just beyond 
the three-mile limit. Fish swim in the ocean for long distances 
as you know, and there is nothing to prevent either the 
pollution or the fish from entering state waters and 
undermining the best efforts of states to protect their own 
waters from these kinds of impacts.
    Senator Boxer. Does anybody else want to answer that 
question? It is my only question.
    Mr. Keeney. Senator Boxer, as far as the Administration is 
concerned and NOAA that we are frankly very pleased that 
California has recognized there is a need for a program and is 
helping to meet the growing demand for safe seafood and healthy 
seafood.
    We think the California legislation is a good start and 
many of the requirements in that bill are being considered by 
NOAA in its deliberations. NOAA has a program where we 
anticipate over the next 2 to 3 years, we will work closely 
with other fellow partners, including the Environmental 
Protection Agency, U.S. Department of Agriculture and the Corps 
of Engineers, as well as industry, states, fishing management 
counsels, the public, NGOs in developing and drafting permanent 
requirements through the Federal Register process, and we 
disagree with very little of what I have heard today. It is 
right on point. We are very supportive. This is not new to 
NOAA. We have been involved in aquaculture for over 30 years 
and we are very interested in meeting the concerns expressed 
today.
    Senator Boxer. Well, that is very encouraging.
    Senator Sununu. Dr. MacMillan.
    Dr. MacMillan. Thank you Mr. Chairman, Senator Boxer. With 
all due respect, we do take issue with a number of things that 
you said, Senator Boxer.
    Senator Boxer. It is all right. It won't be the first time 
anyone has had issues.
    Dr. MacMillan. We don't agree with your statement about the 
questionable health of farm-raised products. We think there is 
ample scientific evidence that farm-raised fishes are just as 
nutritious and wholesome as wild caught fish and in many cases 
better. The wonderful thing about aquaculture is there is 
opportunity to control the environment and what farm-raised 
species eat. With regard to statements about the fishmeal 
industry or the industrial feed, you referenced Dr. Goldberg's 
statements from a previous hearing. Much of what she has 
promoted is not supported by the scientific evidence, by the 
data collected by the UN's FAO, the Food and Agriculture 
Organization. That data indicates that pelagic fish harvests, 
used to make fish meal, is sustainable and has been so for the 
past 20 years or so.
    During times of El Nino the harvest of the pelagic fishes 
that constitute the bulk of the fishmeal industry does drop 
off, but there are management agencies, Federal management 
agency programs, not only in the United States, but elsewhere 
that monitor the population of pelagic fishes and work to 
ensure that that fishery is sustainable.
    The economic situation is such that the California bill is 
a dead end for aquaculture. There will be no offshore 
aquaculture off the coast of California. Business is not going 
to invest in offshore aquaculture if a state can remove the 
aquaculture operation at will, without due process. The 
language in the California bill is very, what I would call, 
mushy. There is no definition to many of the items identified. 
An industry or business would have to be crazy to attempt to 
develop an offshore aquaculture program off the coast of 
California.
    We do support the state's rights to opt out of offshore 
aquaculture but before a business has invested in an offshore 
operation.
    Senator Boxer. I just need to respond, Mr. Chairman, since 
we are engaging here. I just want to say to you I quoted a 
scientist who you didn't agree with. I didn't quote a----
    Dr. MacMillan. OK, I am sorry.
    Senator Boxer. OK, number one, so since you took issue with 
her, let me just read you one sentence each from two 
publications--one of the publications is Science. The people 
who wrote this article I'll give you their last names--Hites, 
Foran, Carpenter, Hamilton, Knuth, Schwager, and I'll just read 
you. ``We show that concentrations of these contaminants are 
significantly higher in farmed salmon than in wild.'' And they 
are talking about a whole group of contaminants.
    In another publication, Environmental Health Perspectives, 
May 2005, this one written by Foran, Carpenter, Hamilton, 
Knuth, Schwager, so it's the same. It is one name different. 
They say, ``health risks (based on quantitative cancer risk 
assessment) associated with consumption of farmed salmon 
contaminated with PCBs, toxaphene and dieldrin were higher than 
risks associated with exposure to the same contaminants in wild 
salmon.'' So, I would ask that these publications be placed in 
the record, not in their entirety, but just those paragraphs if 
I might, Mr. Chairman?
    [The previously referred to information follows:]

       Science, January 9, 2004, Vol. 303. no. 5655, pp. 226-229

       Global Assessment of Organic Contaminants in Farmed Salmon

 by Ronald A. Hites, \1\ Jeffery A. Foran, \2\ David O. Carpenter, \3\ 
 M. Coreen Hamilton, \4\ Barbara A. Knuth, \5\ and Steven J. Schwager 
                                  \6\
---------------------------------------------------------------------------

    \1\ School of Public and Environmental Affairs, Indiana University, 
Bloomington, IN 47405, USA.
    \2\ Citizens for a Better Environment, Milwaukee, WI 53202, USA.
    \3\ Institute for Health and the Environment, University at Albany, 
Rensselaer, NY 12144, USA.
    \4\ AXYS Analytical Services, Post Office Box 2219, 2045 Mills 
Road, Sidney, British Columbia, Canada V8L 3S8.
    \5\ Department of Natural Resources, Cornell University, Ithaca, NY 
14853, USA.
    \6\ Department of Biological Statistics and Computational Biology, 
Cornell University, Ithaca, NY 14853, USA.
---------------------------------------------------------------------------
Abstract
    The annual global production of farmed salmon has increased by a 
factor of 40 during the past two decades. Salmon from farms in northern 
Europe, North America, and Chile are now available widely year-round at 
relatively low prices. Salmon farms have been criticized for their 
ecological effects, but the potential human health risks of farmed 
salmon consumption have not been examined rigorously. Having analyzed 
over 2 metric tons of farmed and wild salmon from around the world for 
organochlorine contaminants, we show that concentrations of these 
contaminants are significantly higher in farmed salmon than in wild. 
European-raised salmon have significantly greater contaminant loads 
than those raised in North and South America, indicating the need for 
further investigation into the sources of contamination. Risk analysis 
indicates that consumption of farmed Atlantic salmon may pose health 
risks that detract from the beneficial effects of fish consumption. 

     Environmental Health Perspectives, May 2005; 113(5): 552-556.

  Risk-Based Consumption Advice for Farmed Atlantic and Wild Pacific 
       Salmon Contaminated with Dioxins and Dioxin-like Compounds

by Jeffery A. Foran, David O. Carpenter, M. Coreen Hamilton, Barbara A. 
                     Knuth, and Steven J. Schwager

Abstract
    We reported recently that several organic contaminants occurred at 
elevated concentrations in farmed Atlantic salmon compared with 
concentrations of the same contaminants in wild Pacific salmon [Hites 
et al. Science 303:226-229 (2004)]. We also found that polychlorinated 
biphenyls (PCBs), toxaphene, dieldrin, dioxins, and polybrominated 
diphenyl ethers occurred at higher concentrations in European farm-
raised salmon than in farmed salmon from North and South America. 
Health risks (based on a quantitative cancer risk assessment) 
associated with consumption of farmed salmon contaminated with PCBs, 
toxaphene, and dieldrin were higher than risks associated with exposure 
to the same contaminants in wild salmon. Here we present information on 
cancer and noncancer health risks of exposure to dioxins in farmed and 
wild salmon. The analysis is based on a tolerable intake level for 
dioxin-like compounds established by the World Health Organization and 
on risk estimates for human exposure to dioxins developed by the U.S. 
Environmental Protection Agency. Consumption of farmed salmon at 
relatively low frequencies results in elevated exposure to dioxins and 
dioxin-like compounds with commensurate elevation in estimates of 
health risk.

    Senator Boxer. And to say that I know you represent the 
industry sir, but it doesn't help us when you take such a 
position that you say there are zero problems or something. 
There is a problem with everything in life. It can't be that 
there are no problems, so why not just come here and address 
the ones that we know exist. Let's fix them. So I am just glad 
that NOAA, here contradicted you sir in looking at the 
California law and I am excited about that. I want to see your 
industry move forward, but I want to see it move forward in a 
way that is responsible.
    Dr. MacMillan. Mr. Chairman, Senator Boxer, if I could 
respond to that. I didn't say there were no problems. There 
certainly are some issues out there that need to be dealt with, 
but what we are promoting is the use of good scientifically 
credible data in our statements. The reports that you are 
identifying, one in Science and I don't know recall where the 
other one was from, those are disputed studies and the 
significance is highly disputed.
    A Harvard study just recently published indicates that--as 
Mr. Keeney stated, farm-raised seafood and wild catch seafood 
is extremely healthy for you and that the benefits outweigh the 
risks by a lot.
    I know in California the issue of mercury is an issue. The 
FDA and EPA are dealing with the issue and whether mercury is a 
hazard or not, remains to be seen at the concentrations that 
occur in some marine fishes. We are here to promote good sound 
science and the references Senator Boxer provides, while there 
is some science, whether it is sufficient for the agency or for 
FDA to change their position on the health benefits of seafood 
is questionable. Thank you.
    Senator Sununu. Thank you. Mr. Keeney, let me go back to 
you and reference your testimony where you described the S. 
1195 as a starting point and I think that is something that is 
generally recognized. This is the first introduction of 
legislation intended to establish a Federal regulatory 
structure for offshore aquaculture. It is the first significant 
step since the passage of the general act back in 1980. You 
described it as a starting point. I am curious to know if there 
are any specific points raised today, or specific issues that 
you've looked at over the last few months that you would 
consider important to add to the legislation as it moves 
forward. Is there anything you want to bring to the visibility 
of the Subcommittee that you think is essential to consider 
adding to the bill in its current form?
    Mr. Keeney. Mr. Chairman, I would like to say that NOAA 
will make itself available to work with the Committee and 
Committee staff to address any concerns with regard to specific 
language and leave it at that. I think that--as I said already 
today, many of the issues already raised today are also 
concerns of ours. We think they can all be addressed. We think 
there are tremendous opportunities in the--economic 
opportunities, food value opportunities to the American public 
and opportunities for competing with foreign interests who are 
clearly moving ahead with their production. In fact, Secretary 
Gutierrez--I was reminded this morning has publicly stated; his 
concern is that we are missing out on a big economic 
opportunity here. We are leaving on the table the future demand 
for offshore--for aquaculture products to other countries by 
not pursuing our own domestic operations.
    Thank you.
    Senator Sununu. Thank you and I think that is a point that 
is worth repeating. You know the question isn't whether 
aquaculture is going to take place around the world, or whether 
farm-raised fish products are going to be consumed in the 
United States. They are. They are now. They will be in the 
future and the percentages will only grow, so I think it is 
really a question of whether we are going to establish some 
kind of regulatory regime that allows it to be done in a 
sustainable way in the United States' EEZ.
    Mr. Eichenberg, you talked about--you used the phrase and I 
think it is used very commonly, ``best management practices.'' 
I don't know if that you reference that was used as a specific 
part of the California legislation, but that strikes me as a 
very general statement. I am curious to know what that means to 
you in a legal sense, and how is it determined and how is such 
a standard enforced?
    Mr. Eichenberg. Thank you, Senator. In the California 
legislation, we refer to best management practices in a 
specific context. It can mean different things to different 
people just like sustainable development.
    Senator Sununu. That is what makes it a potentially 
dangerous phrase.
    Mr. Eichenberg. Exactly, and we had a long discussion about 
this with the aquaculture industry and the Fish and Game 
Department in California.
    Incidentally, the California Aquaculture Association which 
is a member of Mr. MacMillan's association, removed their 
objections to our bill after working with us extensively on 
this, so they did not believe it would be as Mr. MacMillan 
says, legislation that would kill aquaculture development in 
California. But best management practices in the context that 
we were using it in California is a subjective term meant to be 
developed through regulations by the Department of Fish and 
Game. It is not something that we wanted to prescribe in the 
legislation itself.
    Senator Sununu. So to be clear, the final regulations 
associated with the inshore state water aquaculture in 
California haven't been determined yet?
    Mr. Eichenberg. That is correct, but we did provide 
guidance to tell the agency that is developing those 
regulations what the California legislature wanted to see in 
those regulations, and specifically, prescribes some things 
like minimizing pollution and utilizing alternatives to fish 
meal for example.
    Senator Sununu. But what does that mean? Does minimize mean 
zero?
    Mr. Eichenberg. No, it doesn't mean zero because we 
discussed this and we realize that it is impossible to have 
zero pollution in these kinds of situations. So at least the 
legislature gave some direction that it was their intent to 
minimize it as much as possible and that is really all you can 
do.
    Senator Sununu. So hypothetically, the Department of Fish 
and Game in now promulgating final regulations has at least the 
power to determine what a standard could be that meets the 
minimized pollution reference.
    Mr. Eichenberg. Exactly.
    Senator Sununu. Is that correct?
    Mr. Eichenberg. Yes. There is one other point that I would 
like to make about best management practices if I could and 
that is that we recognize that there may be different 
management practices for different kinds of offshore 
aquaculture operations, but the Fish and Game wanted to have 
the aquaculturist come back and explain to them how they are 
going to do things like minimize pollution, prevent escapes and 
those kinds of things and then the Fish and Game Department 
would approve those based on the standards that were provided 
in the legislation. So they had some guidance on approving 
that, but the practices would be developed with the assistance 
of the industry itself as it deals with that particular 
development. Then it would be looked at through the lens of the 
guidelines and standards in the legislation.
    Senator Sununu. I appreciate that clarification and it 
certainly sounds like there has been an effort to drive a 
consensus process in California, but the devil is always in the 
details and I think there is an important discussion that needs 
to take place here as to what standards Congress establishes 
and specifies and what standards we leave to regulators like 
NOAA to establish. But I am very concerned about that kind of 
language and intent has a lot to do with it and I certainly 
think that the intent of those in California is the right one, 
but to call for best management practices, best available 
technology, that would seem to take us down the road of 
mandating certain technologies and I think that is less 
effective and can be counterproductive when compared to simply 
mandating and legislating performance standards. A performance 
standard for water quality. A performance standard for 
contaminants in the food we eat. A performance standard for a 
number of releases that is acceptable. You set that standard. 
You set it in a clear, definable way and then monitor 
performance, of course, and continue to monitor those 
participating in the industry or meeting the standard. And as a 
result, technology and management practices will continue to 
evolve and improve and as they evolve and improve, we might see 
opportunities to further strengthen those standards. Whereas if 
you just regulate the practices, if you tell someone here is 
the kind of nets you have to use, here is the kind of filters 
you have to use, then you almost condemn yourself to today's 
performance standards--no better, no worse--and that might be 
undesirable.
    I just make that general statement because I would much 
rather have Congress step forward and say here is what we deem 
to be an acceptable water-quality standard and if we find out 
later we got that wrong, then we can clearly and efficiently 
and effectively take steps to make it right. Whereas if we get 
into the game of regulating exactly how someone should operate, 
what technology they should use, what management practices they 
should use, we run the risk of stifling innovation and new 
product development in an area where those issues and those 
questions are very important because there is still a lot of 
development going on here.
    I would like to turn it over now to Chairman Stevens who 
has joined us and was indicated earlier, has come from a state 
with a great fishing history. Mr. Chairman.

                STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. [presiding] A great fishing future, Mr. 
Chairman. I am sorry to say I was in another meeting. Dave, I 
am pleased you would take the time to come all the way down 
here to appear before our Committee. I have summaries of all of 
your statements given to me by our staff last evening, but I am 
still worried about one thing. I believe that a state should 
have the right to determine what happens in terms of the areas 
off its shores, and I am really worried about the problem of 
not having the right to veto a Federal plan to develop beyond 
the state's three mile jurisdiction if an operation of a 
hatchery or some sort of fish farm or whatever it might be 
would pose a threat to the survival of the wild species that 
that state has.
    You know, we have half the coastline in the United States 
and I think my colleagues get tired of me telling them that, 
but it makes a great difference to us what happens in the 
Federal waters offshore of Alaska. Have you taken a position 
with regard to the state veto?
    Mr. MacMillan. Mr. Chairman, we have. We believe a state 
should have the opportunity to opt out of an offshore 
aquaculture program. Where we have difficulty is if an investor 
starts the process and maybe even builds a facility, installs 
it, and starts operating it and the state decides for whatever 
reason that it is a no go, why then would a business want to 
make that initial investment? There is no probable certainty of 
success.
    The Chairman. That is why we have the Magnuson-Stevens Act. 
We have control out there yet we have a management plan which 
involves both the state and the Federal Government operated by 
a regional council. Now I don't believe anything should take 
place in the area of that council without the council's 
approval. If a state goes to that council and says, ``we do not 
want this kind of species off our shores,'' the council ought 
to have the right to say you can't do it. Where do you end up 
on that?
    Dr. MacMillan. Well, we think that species selection is an 
important issue and one that NOAA should have authority to deal 
with when they determine what species should be allowed to be 
farmed at offshore aquaculture locations.
    The Chairman. I am involved in this battle right now. It is 
on the Coast Guard bill, and you may know about it. It involves 
a wind farm proposed in Nantucket Sound Bay and there is a 
process underway that says that Department of Interior will 
decide whether or not that wind farm can be located in Federal 
waters off that state. Now if you take the same circumstance 
and apply it to the Cook Inlet, you will have an enormous 
portion of Cook Inlet and land on both sides that is primarily 
owned by the Federal Government. Matter of fact, managed by the 
Department of Interior and along comes someone from Britain or 
Holland who wants to build a wind farm in the Cook Inlet. 
Today, under the law, what would happen is he goes to the 
Department of Interior and the Department of Interior says, 
``fine, you've got a good plan.'' He goes to the Energy 
Department and says, ``we would like to have that additional 
energy'' and what happens? The State has no say about what goes 
on in Federal waters under the current legislation.
    Now, I am saying in terms of Nantucket Sound, the Coast 
Guard ought to make a determination as to safety of navigation 
at both air and sea and determine impacts on communications, 
and the state ought to have some say about where the facility 
is sited. I am not saying you can't put it off there, but it 
ought to be sited where it will not do any harm to the economy 
of the area or to the creatures of the sea.
    Now you put that into this concept of and say someone goes 
out there and builds it, in my opinion, they have no right to 
build in the 200-mile limit without regional council's 
agreement, and if that is not clear, we will make it clear. 
What do you say to that?
    Dr. MacMillan. Mr. Chairman, I think it is a good idea to 
make things very, very clear to potential investors. They need 
to no up-front what the state or Federal rules are so they can 
make informed decisions. That is the key for the National 
Aquaculture Association. We want certainty to whatever the 
legislation is, and in the rules or regulations that are 
developed by NOAA. If a business doesn't have confidence 
environmental rules will be relatively constant and 
consistently applied, which would be a problem as Senator 
Sununu mentioned, if definitions are rather nebulous, then the 
investment risk gets escalated. Considering that, offshore 
aquaculture is going to be very expensive compared to fresh 
water aquaculture. You are talking about major dollars perhaps 
millions of dollars of investment, of risk, then mushy 
definitions and regulations only increase the risk. That is why 
we have concerns about a state deciding once the investment has 
been made, to pull the plug.
    Senator Sununu. I think that clarification here is that Dr. 
MacMillan, what you are talking about is the situation where a 
state chooses to participate and a facility is licensed whether 
or not that license duly issued because the state did not opt 
out, can then be revoked after the fact.
    Dr. MacMillan. That is correct.
    Senator Sununu. And we talked about this licensing issue 
and there is an important question--is a 10-year license 
enough? Should it be a 20-year or 30-year because you do want 
to create some certainty and in the same way, if a state 
chooses to participate and a facility is licensed, then the 
Federal standards should apply to that case? If a state chooses 
not to participate, the license can't be issued and clearly 
those concerns do not come into effect, but I think the concern 
would be the retroactive elimination of a license that was 
issued when a state chose to participate.
    The Chairman. Mr. Chairman, I don't disagree with that, but 
I hope the panel--we have about 3 minutes until we have to vote 
and we won't be coming back, but the concept I see is that 
there is not going to be any money invested in any offshore 
aquaculture until there is an application and it's reviewed by 
the state and by the Federal Government or regional council 
for--whatever the area decides. I think the regional council 
ought to make some decisions about what the process is. Very 
clearly, the dollars aren't going to be spent until it is 
determined that the state does approve and if the state doesn't 
approve then I don't think the Federal Government or the 
regional council ought to allow that process to go forward.
    Mr. Keeney.
    Mr. Keeney. Mr. Chairman, Mr. Stevens, the Administration 
agrees that offshore aquaculture should only develop in areas 
where it is welcomed and we would like to work with the 
Committee staff to develop the language to provide for 
appropriate mechanisms where this can take place, as well as 
mechanisms that can revert an opt-out decision.
    Now when we are talking about space, there are 3.4 million 
square miles in the exclusive economic zone. When we are 
looking at the demands for aquaculture over the next 20 years, 
we think that there may be demands for as much as lets say a 
million metric tons which would take up no more space than the 
Pentagon and its parking lot.
    So there is plenty of space out there. Siting is a critical 
issue.
    The Chairman. Poison in the parking lot is still poison so 
let's keep that straight. Dave, we have aquaculture now in 
Prince William Sound right? That was approved by the state 
before it was put in there right?
    Mr. Bedford. That is correct, Senator.
    The Chairman. And that is our state law. What is wrong with 
that? No investment without prior approval as to the siting and 
process.
    Mr. Keeney. I have no problem with that.
    Dr. MacMillan. I agree.
    The Chairman. Anyone else? Ms. Cufone?
    Ms. Cufone. I think that is exactly right.
    The Chairman. Mr. Eichenberg?
    Mr. Eichenberg. I agree as well, Mr. Chairman.
    The Chairman. That is essential. Dave, do you have 
something to say? We really have to go and vote.
    Mr. Bedford. Senator, just one moment if I could. One of 
the things that we recognize in managing dynamic natural 
systems in the State of Alaska when dealing with these kinds of 
resources, is that we can do the best planning that we can and 
get the best information that we can but in our own aquaculture 
permitting process, we recognize that things may change and we 
may find things out tomorrow that we don't know today. So 
whereas we would all like certainty, Mother Nature doesn't 
provide us with much of it. Thank you.
    The Chairman. I will never forget the salmon pens in Puget 
Sound. I am sure you remember them. A big storm came up and 
they were all spread around and I am not sure we ever really 
knew the final result of that, but very clearly they were not a 
species that was indigenous to that area as I understood it. So 
that is the fear we have, I have and I think our wild fish--I 
think that most people back there don't know how far we've gone 
in utilizing even annual hatcheries, the system to enhance a 
particular population. I do believe that we should have this 
Committee come up some time and go look at some of those things 
we've done and understand them, because I think there are some 
places in the country that could enhance their population and 
when I was in the State legislature we put up $40,000. We took 
fingerlings from Alaska silver salmon to the Great Lakes as the 
population now as salmon in the Great Lakes came from little 
initiative from a new state.
    Senator Sununu. I thank you, Mr. Chairman, for your 
insights, for your participation. We do have a vote on the 
floor, so I want to thank the panelists and New Hampshire may 
only have 13 miles of coastline, but we are very proud of it 
and we certainly value the rights of our people, our 
legislature in the state to participate actively in the 
questions of ocean management. I think we've put together a 
good record so far on this issue. I think there is also a lot 
of consensus on this issue about the importance of having some 
regulatory framework, the importance of clarity and consistency 
in that regulatory framework, the economic value and the 
recognition that this already an industry that is global in its 
scope, that it affects our consumers and that has great 
economic value, so I think it would be an opportunity lost if 
we delayed unnecessarily in the creating process, moving 
forward in the process to address the issue.
    Thank you to our panelists and to Members of the 
Subcommittee.
    Senator Stevens. Let me just add this. There are 2.5 
million acres of Federal waters in just the Cook Inlet. Beyond 
state jurisdiction there is 2.5 million acres there and I think 
that is the area where people are looking at to think about 
aquaculture in our state. It is going to be a long time before 
that happens.
    Senator Sununu. Thank you, the hearing is adjourned.
    [Whereupon, at 11:12 a.m., the hearing was adjourned.]
                            A P P E N D I X

        Prepared Statement of Jim Ayers, Vice President, Oceana
    Chairman Stevens, we appreciate all that you do to protect 
America's oceans, and we agree with you that we can have healthy 
biodiverse ocean ecosystems with vibrant and productive fisheries. To 
that end we hope to work with you on the National Offshore Aquaculture 
Act (S. 1195). It is our understanding that your intent is to protect 
States from being negatively impacted by the expansion of aquaculture 
into Federal waters by providing a State Opt-Out Amendment (S. Amdt. 
769) provision. In order for that provision to be effective, states 
will need protection authorities that prevent other states and Federal 
authorities from ``polluting'' their waters with aquaculture spills, in 
particular escapements. We request you allow us to work with you by 
developing language in the State Opt-Out Amendment with the goal of 
protecting the environmental interests of states such as Alaska.
    Offshore fin-fish aquaculture will likely affect areas far away 
from where fish are being raised because the ocean lacks natural 
barriers and fish regularly traverse great distances. For example, 
farmed Atlantic salmon have been found in the Bering Sea, thousands of 
miles away from the closest salmon aquaculture facilities. \1\ 
Potential impacts to Alaska's environment from offshore aquaculture 
along the U.S. west coast include:
---------------------------------------------------------------------------
    \1\ Brodeur, R. D., and M. S Busby. 1998. Occurrence of an Atlantic 
Salmon Salmo salar in the Bering Sea. Alaska Fishery Research Bulletin 
5:64-66.

        1. Disease Transmission--A few escaped farmed fish carrying a 
        novel or exotic pathogen could cause severe mortality in wild 
        fish populations. \2\ The high densities of fish in aquaculture 
        operations lead to disease outbreaks and a higher prevalence of 
        disease overall. \3\
---------------------------------------------------------------------------
    \2\ Naylor, R., K. Hindar, I. A. Fleming, R. Goldburg, S. Williams, 
J. Volpe, F. Whoriskey, J. Eagle, D. Kelso, and M. Mangel. 2005. 
Fugitive salmon: assessing the risks of escaped fish from net-pen 
aquaculture. Bioscience 55:427437.
    \3\ Jones, S. R., A. H. MacKinnon, D. B. Gorman. 1999. Virulence 
and pathogenicity of infectious salmon anemia virus isolated from 
farmed salmon in Atlantic Canada. Journal of Aquatic Animal Health 
11:400-405.

        2. Invasive Species--Approximately 40 percent of documented 
        marine species introductions are the result of aquaculture 
        operations. \4\ In the Pacific Ocean, Atlantic salmon have 
        already been found breeding in both British Columbia, \5\ and 
        South America. \6\ Increased salmon aquaculture will result in 
        an increased risk of Atlantic salmon becoming established in 
        Alaska streams. Recent development of other Atlantic 
        aquaculture species, such as Atlantic cod and Atlantic halibut, 
        could be devastating to Alaska's fisheries if aquaculture of 
        these species is allowed in Pacific waters.
---------------------------------------------------------------------------
    \4\ [FAO] Food and Agriculture Organization of the United Nations. 
1998. FAO Yearbook: Fishery Statistics, vol. 86, no. 2. Rome: FAO.
    \5\ Volpe, J., B. Glickman, B. Anholt. 2001. Reproduction of 
Atlantic salmon in a controlled stream channel on Vancouver Island, 
British Columbia. Transactions of the American Fisheries Society 
130:489-494.
    \6\ Soto, D., F. Jara, C. Moreno. 2001. Escaped salmon in the inner 
sea, southern Chile: facing ecological and social conflicts. Ecological 
Applications 11:1750-1762.

        3. Genetic Pollution--Aquaculture of native species can 
        decrease the fitness of wild populations when interbreeding 
        occurs, \7\ a risk that is magnified when transgenics are 
        considered. \2\ An expansion of farming Pacific salmon species 
        increases the likelihood of an adverse impact to Alaska salmon 
        stocks. Development of other native aquaculture species in the 
        Pacific, such as sablefish (black cod), may pose an even 
        greater risk of genetic pollution to Alaska's fisheries. Unlike 
        salmon, most other species of fish are likely capable of 
        reproducing inside net pens and have eggs and larvae much 
        smaller than the mesh of a net pen.
---------------------------------------------------------------------------
    \7\ McGinnity, P., P. Prodohl, A. Ferguson, R. Hynes, N.O. 
Maoileidigh, N. Baker, D. Cotter, B. O'Hea, D. Cooke, G. Rogan, J. 
Taggart, and T. Cross. Fitness reduction and potential extinction of 
wild populations of Atlantic salmon, Salmo salar, as a result of 
interactions with escaped farm salmon. Proc. R. Soc. B. 270:2443-2450.

        4. Competition for Resources--Escaped fish can compete with 
---------------------------------------------------------------------------
        wild stocks for resources such as food, habitat and mates. \2\

    Given these problems, we strongly encourage you to strengthen the 
State Opt-Out Amendment to better protect the fisheries and other 
biological resources important to coastal states. We suggest making the 
following changes to S. Amdt. 769 that will allow Alaska and other 
coastal states to object to offshore aquaculture that may harm their 
biological resources:

  <bullet> Change subsection (b) to (c) and insert new subsection (b) 
        as follows--

         (b) PROTECTION OF STATE RESOURCES. Notwithstanding any other 
        provision of this Act, if the Secretary receives notice in 
        writing from the chief executive officer of a coastal State 
        that implementation of this Act may harm or may put at risk of 
        harm a biological resource of that state when this Act is 
        applied to areas that are outside the State's seaward portion 
        of the Exclusive Economic Zone, then--

           (1) the provisions of sections 4 shall not apply to such 
        areas that are outside the State's seaward portion of the 
        Exclusive Economic Zone more than 30 days after the date on 
        which the Secretary receives the notice;

           (2) no permit issued under this Act shall be valid in that 
        portion of the Exclusive Economic Zone more than 30 days after 
        the date on which the Secretary receives the notice; and
Insert new definition (d)(3)
           (3) BIOLOGICAL RESOURCE.--the term ``biological resource'' 
        means a living component of the ecosystem.

    This language was drafted with the intent to mirror the scope of 
the language in S. Amdt.769. If changes are made to the amendment, for 
example making the opt-out species or type of aquaculture specific, we 
would be happy to work with you to make similar changes in the scope of 
the language we are proposing.
    While we focus on the State Opt-Out Amendment here, we are also 
concerned with S. 1195 in general. Both the U.S. Commission on Ocean 
Policy and the Pew Oceans Commission highlighted the real and 
significant problems that marine finfish aquaculture poses to our 
marine resources and ecosystems. S. 1195 would expand aquaculture 
offshore before we know what the consequences of this expansion will be 
and without ensuring protection and likely bringing harm to our ocean 
resources. Before addressing S. 1195 further, we strongly encourage you 
to make sure the economic impacts, threats to wild fish stocks, effects 
on water quality and ocean habitats, access and transportation 
concerns, and human health risks of offshore aquaculture are 
scientifically examined, as called for in the Natural Stock 
Conservation Act of 2005 (S. 796). These studies would allow us to look 
before we leap offshore with aquaculture, and make sure that proper 
standards are put in place that will ensure our marine resources are 
not harmed.
    We appreciate your efforts to protect Alaska's and other coastal 
states' biological resources and urge you to strengthen the State Opt-
Out Amendment to ensure states can choose a healthy biodiverse ocean 
ecosystem with vibrant and productive fisheries. Please contact me if 
you have any questions or would like to discuss further.
                                 ______
                                 
       Prepared Statement of Wenonah Hauter, Executive Director, 
                           Food & Water Watch
    Food & Water Watch, a nonprofit consumer rights organization that 
challenges corporate control and abuse of our food supply and 
freshwater and ocean resources, wishes to thank you for the June 8th 
National Ocean Policy Study subcommittee hearing on offshore 
aquaculture. We are pleased to submit these comments for the record in 
order to highlight some of the very productive discussions at the 
hearing about necessary safeguards to protect the environment and local 
fishing communities. We also hope to highlight some of the issues that 
have yet to be examined by this Subcommittee. We urge the Subcommittee 
not to move forward on legislation to permit offshore aquaculture in 
the Exclusive Economic Zone (EEZ) until NOAA provides a detailed 
assessment of all the potential negative impacts of offshore 
aquaculture and how these problems can best be addressed.
    As we discussed in our previous comments, offshore aquaculture 
involves the raising of carnivorous finfish, such as cod, halibut, and 
red snapper, in often large, crowded cages where fish waste and 
chemicals flush straight into the open ocean. We are very concerned 
that offshore fish farming in the U.S. EEZ may pose many of the same 
problems for marine ecosystems, consumer health, and the economic 
livelihoods of fishing businesses and communities, as largescale 
industrial farming of carnivorous finfish has in other countries.
    We were pleased that two witnesses at the June 8th hearing, Mr. Tim 
Eichenberg from The Ocean Conservancy, and Mr. David Bedford of the 
Alaska Department of Fish and Game, discussed the safeguards that their 
states have implemented in order to protect the environment and local 
fishing communities from the possible negative impacts of offshore 
aquaculture. As Mr. Eichenberg pointed out, if Federal law were to 
entail fewer safeguards than provided by state law, these state 
protections would be severely undermined. Neither fish farm's pollution 
nor its economic effects will likely adhere to state and national 
political boundaries.
    One of the very important safeguards of both Alaska and 
California's policies on marine aquaculture is a required comprehensive 
analysis of the environmental and socioeconomic impacts of marine 
aquaculture. Alaska's position states that a five-year moratorium 
should be in place for all new aquaculture operations so that a 
comprehensive study can be undertaken to understand how aquaculture 
would affect the ecology of American waters as well as the 
socioeconomic impacts on coastal communities.
    Likewise, California's new Sustainable Oceans Act requires the 
Department of Fish and Game to issue a programmatic environmental 
impact statement that analyzes:

  <bullet> appropriate areas for siting of marine finfish aquaculture 
        operations to avoid adverse impacts and minimize any 
        unavoidable impacts;

  <bullet> the effects on sensitive ocean and coastal habitats;

  <bullet> the effects on marine ecosystems, commercial and 
        recreational fishing, and other important ocean uses;

  <bullet> the effects on other plant and animal species, especially 
        protected species;

  <bullet> the effects of the use of chemical and biological products 
        and pollutants and nutrient wastes on human health and the 
        marine environment;

  <bullet> the effects of interactions with marine mammals and birds;

  <bullet> the cumulative effects of a number of similar finfish 
        aquaculture projects on the ability of the marine environment 
        to support ecologically significant flora and fauna;

  <bullet> the effects of feed, fish meal, and fish oil on marine 
        ecosystems;

  <bullet> the effects of escaped fish on wild fish stocks and the 
        marine environment; and

  <bullet> the design of facilities and farming practices so as to 
        avoid adverse environmental impacts, and to minimize any 
        unavoidable impacts.

    Another witness, Ms. Marianne Cufone from Environment Matters, 
discussed how the Gulf of Mexico Fishery Management Council and the 
Florida Department of Agriculture and Consumer Services are also 
considering steps to protect unique local resources because S. 1195 in 
its current form does not sufficiently do so. As she attested and as 
was confirmed in Mr. Tim Keeney of NOAA's testimony, under S. 1195 
regional councils would be demoted to a consulting or consenting role 
on offshore aquaculture. States would have little to no role 
whatsoever. Ms. Cufone's testimony further discussed how various user 
conflicts are expected between offshore aquaculture and other ocean 
uses, such as those regarding known fishing grounds and routes to those 
fishing grounds, other vessel traffic lanes, military sites, marine 
reserves, sanctuaries, and other protected or vulnerable areas. Ms. 
Cufone called for buffer zones around these areas. To have such buffer 
zones would require NOAA to perform comprehensive mapping and analysis.
    Whether it is the analysis needed to establish buffer zones, or the 
analysis prescribed in California and Alaska's state policy, it is 
clear that comprehensive analyses should be required before commercial 
aquaculture is allowed in Federal waters. A deliberative and 
precautionary approach is consistent with the Pew Oceans Commission 
recommendation that there be a moratorium on offshore fish farming 
until environmental concerns are addressed. At this time, there has 
been very little study of the likely environmental and socioeconomic 
impacts of offshore aquaculture in Federal waters. Our recent report, 
Seas of Doubt, details the lack of published research on the 
environmental impacts of four marine aquaculture projects currently 
operating in U.S. waters and highlights the significant discrepancies 
in what research does exist. Additionally, the report notes the 
insufficiency of these four projects as viable economic demonstrations 
for a full-scale industry given their limited capacities and the lack 
of true freemarket conditions surrounding their current operations.
    Unfortunately, instead of providing a comprehensive analysis of the 
likely environmental and socioeconomic impacts of offshore aquaculture 
and manner in which it plans to address these impacts, NOAA continues 
to promote S. 1195, which allows for the fast-track permitting of fish 
farming in Federal waters with little analysis and few safeguards 
necessary to protect marine ecosystems, including marine fisheries. It 
is amazing to us that NOAA officials can in one breath talk about the 
agency's 30 years of experience in dealing with some of aquaculture's 
potential negative impacts, and in the next, fail to detail, with any 
specificity, how the agency plans to address these issues.
    While we were pleased that Mr. Keeney testified that the 
administration would be willing to work with the Senate to alter S. 
1195, much more is needed than simply the ``clarifying language,'' that 
he offered the Subcommittee. As a primary step, NOAA should provide the 
following information and make it subject to public scrutiny and 
further legislative hearings:

  <bullet> NOAA has not provided any analysis of the likely individual 
        and cumulative environmental and socioeconomic effects of 
        offshore aquaculture due to, for example, chemical and nutrient 
        pollution, escaped fish, or diseases and parasites transmitted 
        to wild fish populations.

  <bullet> NOAA has not detailed the agency's plans, if any, to 
        minimize the discharge of wastes and chemicals and cumulative 
        impacts from offshore fish farms into the ocean environment. 
        More information is needed on how best to limit wastes and why 
        closed containment systems are not a better option for 
        aquaculture than offshore cages.

  <bullet> NOAA has not provided much detail about the agency's plans, 
        if any, to engage in planning, zoning, or the development of 
        siting criteria for offshore aquaculture. NOAA officials have 
        not discussed whether NOAA plans to assess and maintain 
        environmental carrying capacities of each region where offshore 
        aquaculture is planned.

  <bullet> NOAA has not discussed whether NOAA would prohibit the 
        siting of offshore fish farms in National Marine Sanctuaries or 
        other protected areas. Nothing in S. 1195 currently prohibits 
        such siting.

  <bullet> NOAA has not discussed whether NOAA is opposed to 
        prohibiting non-native or genetically modified species in 
        offshore fish farms. There are no such prohibitions in S. 1195.

  <bullet> While Dr. Hogarth's testimony stated that ``technological 
        innovation, best management practices, and careful species 
        selection'' can limit fish escapes, he did not discuss whether 
        NOAA would support requiring offshore aquaculture facilities to 
        adopt these measures and, if so, the level of mitigation 
        anticipated using different technologies and practices. He did 
        not discuss whether offshore aquaculture facilities would be 
        required to tag or track farmed fish or whether NOAA was 
        opposed to such measures.

  <bullet> While Mr. Keeney and Dr. Hogarth's testimony indicated that 
        NOAA believes that offshore aquaculture could benefit coastal 
        communities, they have yet to provide a detailed analysis of 
        the likely impacts of offshore aquaculture on commercial fish 
        prices and employment.

  <bullet> NOAA has failed to adequately detail how it plans to 
        adequately fund its new offshore aquaculture program. In his 
        April 6th testimony, Dr. Hogarth testified that establishing an 
        offshore aquaculture program would cost approximately $3 
        million per year and that the continuing costs of running the 
        program would be about $7 million per year. He could not answer 
        the question, however, of how NOAA would secure these funds. 
        Just this year, NOAA requested a 65 percent decrease in funding 
        for its Marine Aquaculture Program--a decrease from $4.5 
        million it received in appropriations in FY 2006 to $1.6 
        million requested for FY 2007.

  <bullet> NOAA has failed to provide a Legislative Environmental 
        Impact Statement (LEIS), which is required by the National 
        Environmental Policy Act. An adequate LEIS would enable the 
        Subcommittee and the public to thoroughly evaluate all of the 
        risks of offshore aquaculture, possible alternatives, measures 
        that NOAA would recommend to mitigate these risks, and any 
        unavoidable consequences of offshore aquaculture.

    This information will only help the Senate in assessing S. 1195 or 
any other offshore aquaculture permitting bill. We urge the 
Subcommittee to not move forward on legislation to permit offshore 
aquaculture in the EEZ until NOAA adequately assesses all the potential 
problems of offshore aquaculture and how these can best be mitigated.
    We would be happy to discuss our concerns further and look forward 
to working with you to protect our oceans and America's fisheries.
                                 ______
                                 
             Joint Prepared Statement of the United States 
                     Offshore Aquaculture Community
    Dear Committee Members,
    We, the undersigned, represent a group of U.S.-based small 
businesses, academic institutions, and market interests who wish to 
tender support for the passage of the National Offshore Aquaculture Act 
(S. 1195). The passage of this Act is a critical step toward securing 
an economically viable and environmentally sound domestic source of 
healthy seafood for American consumers.
    In contrast to those who oppose S. 1195, we do not believe its 
passage will result in the rapid, unfettered, and environmentally 
harmful development of aquaculture in the U.S. Exclusive Economic Zone 
(EEZ). Our beliefs rest on direct experience and peer-reviewed 
scientific research. Ongoing commercial, demonstration, and research 
projects in the U.S. have proven that, with current technology, we can 
safely farm a number of species in open ocean waters of up to 200 feet 
in depth. The water and sediment quality monitoring programs under 
which these projects operate demonstrate that the environmental impacts 
of offshore finfish culture operations are typically negligible when 
sited and managed appropriately. This is well documented in technical 
reports that are regularly submitted to the state and Federal 
environmental agencies, and are a matter of public record.
    The accomplishments of these projects and others in the U.S. 
indicate that, given the proper regulatory environment, the U.S. is 
well positioned to meet and overcome the challenges of establishing 
commercially viable farming operations in distant and deep offshore 
waters. For that to occur, however, S. 1195 must pass into law.
    How that law defines compliance with environmental standards is of 
paramount importance to all stakeholders. We believe that effective 
environmental regulation is based on performance. The a-priori adoption 
of prescribed technologies and management practices that do not assure 
minimal environmental impact is neither sustainable nor cost-effective.
    As with any emerging industry, offshore aquaculture is continually 
evolving. Technical and methods-based innovations that result in 
greater production efficiency and enhanced environmental performance 
must not be precluded because they do not fit a preordained and 
untested set of regulations. A regulatory structure that forces 
companies to adopt specific technologies and practices rather than 
setting strict environmental impact goals will stifle innovation and 
hamper a sustainable approach to offshore aquaculture.
    Current state and Federal regulations already insure environmental 
protection for operations in state waters. The most compelling need 
addressed by S. 1195 is the creation of a Federal permitting process in 
the EEZ. The absence of a formal process and lead agency make it 
virtually impossible for a small business, and in some cases, research 
projects to obtain permits in waters under Federal jurisdiction. With 
NOAA to coordinate existing regulatory processes with the U.S. Army 
Corps of Engineers, the Environmental Protection Agency, and other 
agencies, we can build a regulatory system that protects the 
environment and provides appropriate and attainable environmental 
standards for industry.
    We believe that NOAA is well suited to the task of coordinating and 
managing such an industry. NOAA has been actively involved in the field 
of offshore aquaculture for decades, and it continues to play a pivotal 
role in related research and development. Site visits by NOAA personnel 
to key U.S. projects, NOAA's review of production records and 
environmental reports, and its engagement in an ongoing, constructive 
dialogue with stakeholders has provided the Administration with a solid 
understanding of the scientific, technological, environmental, 
economic, and social aspects of this emerging industry.
    We also believe that for S. 1195 to move forward, open and sincere 
dialogue among stakeholders is necessary. Unfortunately, opposition to 
offshore aquaculture is often based on false, dated, incomplete, or 
out-of-context information. Opponents routinely use conjecture and 
speculation--rather than sound science--to misinform media and inflame 
public fear. U.S. companies and university researchers welcome a 
constructive dialogue on environmental issues, however, many opposition 
groups resist meaningful discussion. Rarely has a conversation between 
members of these groups and the principals of aquaculture projects had 
a fruitful outcome. Instead, statements made by company affiliates and 
university researchers in the aquaculture field have been grossly 
misquoted in advocacy-based ``reports'' and, ultimately, the media. In 
their sweeping condemnation of all of our efforts, they also malign the 
ability of U.S. companies to lead this industry toward a sustainable, 
environmentally sound and healthful future. They would seem to prefer 
that we remain forever reliant on seafood imported from elsewhere.
    We ask that in your deliberations, you please consider the source 
of the information presented to your Committee, and make your decisions 
based on information backed by credible science. You have a tremendous 
amount of influence on the future of offshore aquaculture in this 
country. Please consider the facts, not the misconceptions when 
evaluating S. 1195.
        Sincerely,
          Businesses

            Brian O'Hanlon, President/Founder, Snapperfarm, Inc.

            Neil Anthony Sims, President/Co-Founder, Kona Blue, Inc.

            John ``Randy'' Cates, President/Founder, Cates 
        International, Inc.

            Stephen Page, CEO/Founder, Ocean Farm Technologies Inc.

            Gary F. Loverich, Chairman/Founder, OceanSpar LLC.

            Joe Hendrix, Seafish Mariculture.

            Dr. J.E. Jack Rensel, Rensel Associates Aquatic Sciences.

            Jose A. Rivera, Biologist/Contractor, Boqueron, Puerto 
        Rico.

            Christopher Duffy, Great Bay Aquaculture, LLC.

            George Nardi, Great Bay Aquaculture, LLC.

          Universities and Research Organizations

            Dr. Richard Langan, Director, Open Ocean Aquaculture 
        Program, University of New Hampshire.

            Clifford Goudey, Center for Fisheries Engineering Research, 
        Massachusetts Institute of Technology.

            Dr. Daniel D. Benetti, Rosenstiel School of Marine and 
        Atmospheric Science, University of Miami.

            Dr. Sandra Shumway, Department of Marine Science, 
        University of Connecticut.

            Dr. Barry Costa-Pierce, Director, Rhode Island Sea Grant 
        College Program, University of Rhode Island.

            Dr. La Don Swan, Director, Mississippi-Alabama Sea Grant 
        Consortium.

            Dr. Robert R. Stickney, Department of Oceanography, Texas 
        A&M University.

            Dr. Dale Kiefer, Department of Biological Sciences, 
        University of Southern California.

            Dr. Albert Tacon, Aquaculture Coordinator, University of 
        Hawaii.

            Dr. Kevin D. Hopkins, Professor, College of Agriculture, 
        Forestry & Natural Resource Management, University of Hawaii at 
        Hilo.

            Dr. Bruce S. Anderson, President, Oceanic Institute, 
        Waimanalo, Hawaii.

            Glen Rice, Ocean Engineering, University of New Hampshire.

            Michael Chambers, Ocean Engineering, University of New 
        Hampshire.

            Scott Lindell, Marine Resources Center, Marine Biological 
        Laboratory, Woods Hole, MA.

            Bruno Sardenberg, Rosenstiel School of Marine and 
        Atmospheric Science, Marine Affairs and Policy, University of 
        Miami.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. John E. Sununu to 
                          Timothy R.E. Keeney
    Question 1. Senator Boxer referred to an article in the magazine 
Science outlining concerns with the levels of toxins in farmed salmon. 
Did this study find any toxin levels beyond acceptable limits from the 
Food and Drug Administration, the World Health Organization, or the 
Environmental Protection Agency?
    Answer. The study Senator Boxer referred to at the June 8, 2006, 
subcommittee hearing on offshore aquaculture is titled ``Global 
Assessment of Organic Contaminants in Farmed Salmon'' (Hites et al., 
2004. Science 303:226-229). In that study, the authors compared the 
levels of organic contaminants in wild Pacific salmon, primarily from 
Alaska, with cultured Atlantic salmon from Europe, North America, and 
Chile. They found the levels of organic contaminants to be 
significantly higher in cultured salmon than in wild Alaskan salmon. 
However, the actual amounts of polychlorinated biphenyls (PCBs) found 
in the skin-on cultured salmon used in the study ranged from .02 to .05 
parts per million (20-50 parts per billion), which is within acceptable 
limits of PCB contaminants in seafood set by the Food and Drug 
Administration, the World Health Organization, and guidance issued by 
the Environmental Protection Agency.
    Specifically, the U.S. Food and Drug Administration has established 
a tolerance of 2 parts per million (ppm) for PCBs for fish and 
shellfish (edible portion). The levels of PCBs in farmed Atlantic 
salmon in the Hites study ranged from about .02 to .05 ppm, well below 
the FDA allowable amount (US FDA, 21 C.F.R. 109.30).
    The World Health Organization (WHO), in collaboration with the Food 
and Agriculture Organization of the United Nations (FAO), has 
considered dioxins and dioxin-like compounds such as PCBs on several 
occasions. Most recently, in June 2001 the Joint FAO/WHO Expert 
Committee on Food Additives examined new evidence on the toxicity of 
these chemicals and established a Provisional Tolerable Monthly Intake 
(PTMI) of 70 picograms of dioxins and dioxin-like PCBs. Based on the 
mean contamination levels reported in the Hites study, eating one or 
two portions per week of cultured salmon would result in a monthly 
intake below the PTMI levels set by the FAO/WHO committee. (World 
Health Organization. PCBs and Dioxins in Salmon; Organochloride 
Contamination of Salmon; January 20, 2004.)
    The U.S. Environmental Protection Agency (EPA) regulates the 
discharge of organic contaminants, including PCBs, into the environment 
and sets acceptable amounts in drinking water. The EPA gives guidance 
on consumption of seafood products that contain contaminants such as 
PCBs. The EPA does not give guidance on consumption of terrestrial 
animals that contain PCBs. The time period EPA uses in assessing health 
risk for humans is the entire life span of the consumer. For pollutants 
with carcinogenic properties, EPA currently assumes there is no 
threshold below which the risk is zero. The limits for carcinogens set 
by the EPA are based on the assumption that consumption over a human's 
lifetime, at the monthly rate provided, would yield a lifetime cancer 
risk no greater than an acceptable risk of 1 in 100,000. In making its 
recommendations, EPA assumes the adult is 70 kilograms in weight and 
the serving portion of fish is 8 ounces. For fish tissue concentrations 
of >0.023-0.047 ppm for PCBs, wet weight (roughly the range of values 
from the Hites study for cultured salmon), EPA's risk-based consumption 
limit is not more than four meals per month for ``non-cancer health 
endpoints'' and one meal per month for ``cancer health endpoints.'' (US 
EPA, Guidance for assessing chemical contaminant data for use in fish 
advisories. Vol. 2: Risk assessment and fish consumption limits, third 
edition. See Table 4-24 for Monthly Fish Consumption Limits, PCBs). In 
other words, EPA's risk-based consumption limit of eating no more than 
one portion of fish per month with more than .05 ppm PCB (on a 
continuing monthly basis) is based on the assumption that consumption 
over a lifetime would yield a lifetime cancer risk no greater than an 
acceptable risk of 1 in 100,000.
    In the Hites study, the authors examined levels of contaminants in 
many species of Pacific salmon that are primarily plankton eaters. 
Because these salmon (chum, pink, and sockeye) consume little or no 
contaminated baitfish, the level of organic contaminants in these fish 
would be relatively low. In comparison, Chinook salmon (which are fish 
eaters) residing their entire lives in Puget Sound, Washington, have 
levels of contaminants equal to or higher than cultured Atlantic 
salmon. (O'Neill et al., 1998. Spatial trends in the concentrated PCBs 
in Chinook and Coho salmon in Puget Sound and factors affecting PCB 
accumulation: Results from the Puget Sound Ambient Monitoring Program. 
Puget Sound Research 312-328).
    Organic contaminants in the environment, such as PCBs, are 
associated with industrial development. PCBs are found in chickens, 
eggs, and dairy products at levels comparable to those found in some 
salmon. For example, the FDA allowable levels of PCBs in some common 
food products are as follows: 1.5 ppm for milk, 3 ppm for poultry, 2 
ppm for fish, and 0.3 ppm for chicken eggs. PCBs are found in a variety 
of marine fishes, including baitfish such as anchovies, herring, and 
sardines. Because baitfish are used to make fish meal--a component in 
feeds for poultry, swine, and fish--organic contaminants in baitfish 
can be transferred up the food chain to any farmed animal or their 
products. Because Alaska has experienced little industrial development, 
there are relatively low levels of organic contaminants in its waters 
and, subsequently, in the baitfish.

    Question 2. We've heard calls for a moratorium, in order to allow 
full scale demonstration projects before proceeding to commercial 
operations. How many permits would you envision NOAA granting in the 
first few years of this program?
    Answer. Prospects for future growth of offshore aquaculture in the 
United States depend on many factors, including the details of the 
regulatory structure that would be developed under the National 
Offshore Aquaculture Act of 2005. The industry will be operating and 
competing in a global market, where a range of economic factors (e.g., 
consumer demand and the costs of labor, capital, and competing 
products) will determine the commercial viability of U.S. operations 
and drive the demand for offshore permits.

    Question 3. How would Fisheries Management Councils be involved in 
the decision of whether or not to approve an offshore aquaculture 
application?
    Answer. NOAA has a longstanding working relationship with the 
Regional Fishery Management Councils established under the Magnuson-
Stevens Fishery Conservation and Management Act. The National Offshore 
Aquaculture Act of 2005 requires NOAA to consult with the Councils in 
developing and implementing the regulatory regime for offshore 
aquaculture. NOAA would consult with the Councils when drafting 
implementing regulations, establishing environmental and other 
requirements (especially as they relate to interactions with wild 
stocks managed by the Councils), and reviewing individual permit 
applications. NOAA intends to use the rulemaking process to define the 
Councils' role in permitting individual sites once the bill is enacted. 
In the meantime, NOAA has identified opportunities to begin discussing 
the consultation process with the Councils on an informal basis.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                          Timothy R.E. Keeney
Hawaii and California Aquaculture Legislation
    Question 1. In 1999, the Hawaii Legislature amended existing law 
and allowed the long term leasing of State marine waters for commercial 
aquaculture. This action opened up the opportunity for farming the 
ocean using modern surface and submerged cage culture technologies and 
economically important local species. California just passed 
comprehensive legislation for permitting and regulating aquaculture in 
state waters. Both laws have environmental regulations regarding issues 
of concern for each state.
    How will environmental safeguards in existing state legislation, 
such as in Hawaii and California, be respected in Federal regulations?
    Answer. Environmental safeguards in existing state legislation, 
such as in Hawaii and California, provide a good starting point for the 
development of Federal regulations. NOAA will be looking closely at 
these existing standards, and encouraging the full participation of 
coastal states in the rulemaking process, as we implement the National 
Offshore Aquaculture Act of 2005. In addition, current law already 
requires that offshore aquaculture operations obtain a state 
consistency certification under the Coastal Zone Management Act and a 
state water quality certification under the Clean Water Act.
    NOAA has already begun to compile information on environmental 
safeguards, not only in U.S. coastal states but also in other countries 
with more established marine aquaculture industries. We are finding 
general agreement across a range of jurisdictions on the major issues 
that need to be addressed, and there is great similarity among the 
standards that have been developed.

    Question 2. In what ways are the Hawaii and California aquaculture 
laws and programs similar? In what ways are they different?
    Answer. In Hawaii, more than 100 aquafarms are in operation. More 
than 50 aquatic plant and animal species are being raised for research 
or commercial production in Hawaii, including shellfish (marine shrimp, 
freshwater prawns, and abalone); finfish (Pacific threadfin/moi, 
tilapia, catfish, carp, flounder, sturgeon, amberjack, snappers, mahi-
mahi, and grouper); algae (seaweeds and microalgae); and other products 
such as broodstock shrimp, oyster and clam seed, pearl oysters, and 
various freshwater and marine aquarium fish and invertebrates. Current 
open ocean marine aquaculture leases include two commercial cage 
culture operations that produce Pacific threadfin and greater 
amberjack.
    Regarding regulation, the Hawaii Department of Land and Natural 
Resources (DLNR) issues and administers aquaculture leases. The state's 
Department of Agriculture, through its Aquaculture Development Program 
(ADP), serves as liaison with potential lessees and provides technical 
support to aquaculture businesses.
    In Hawaii, the stated goal is to increase aquaculture production by 
providing a variety of support services to help businesses get started. 
And once a business is established, the state continues to provide 
support services and offer technical assistance. For example, the ADP 
provides business counseling, planning and coordination, informational 
services, marketing, animal health management, and research and 
extension services. The business counseling services include 
preparation and review of business plans; advice on Federal, state, and 
local permit requirements, and on sources of financing and suitable 
sites; and technical assistance to improve farm operational efficiency 
and profitability. The ADP also provides a wide variety of current 
information to aquaculture businesses, including species identification 
and culture technologies, product and service markets, regulations, and 
the cost of doing business in Hawaii. The ADP employs an aquaculture 
veterinary medical officer and technical staff. The program also 
provides health certification services to aquatic livestock exporters 
and serves as a technical resource to state officials in charge of 
aquatic species importation permitting. The ADP also encourages short-
term applied research. California does not have a program similar to 
the Hawaii ADP.
    Aquaculture is found in almost every county in California. But 
unlike Hawaii, the majority of aquaculture production consists of pond 
culture of freshwater fish. Coastal marine aquaculture activities in 
California include farming of oysters, abalone, mussels, clams, and 
scallops. Unlike Hawaii, there are no open ocean operations in state 
waters. As far as aquaculture in Federal waters in California is 
concerned, Hubbs-SeaWorld Research Institute is in the permitting 
process to operate an aquaculture facility at the Grace oil platform.
    Regarding regulatory programs, California's aquaculture industry 
operates under the jurisdiction of a number of state agencies. The 
primary agencies are the California Departments of Fish & Game (CDFG) 
and the California Department of Health Services (CDHS). CDFG is the 
lead agency, and CDHS has regulatory authority over all health and 
sanitation aspects of the shellfish industry, including growing waters, 
harvesting, processing, and shipping of products.
    The chart below compares the approaches to regulation in California 
and Hawaii.

                 Comparison of Approaches to Aquaculture
------------------------------------------------------------------------
                                California                Hawaii
------------------------------------------------------------------------
Environmental            Environmental            --Environmental
 Assessments              assessment if funds      assessment under
                          are appropriated to      rules of Chapter 343
                          the department and       of the code.
                          matching funds from     --Cannot lease in
                          aquaculture industry..   marine life
                                                   conservation
                                                   district, shoreline
                                                   fisheries management
                                                   area, or natural area
                                                   reserve program.
------------------------------------------------------------------------
Prior to Lease           --Basic benthic habitat  Must submit
                          and community            environmental
                          assessment by lessee     assessment or
                          to Control Board..       environmental impact
                         --Lessee must establish   statement.
                          best management
                          practices approved by
                          Commission..
------------------------------------------------------------------------
Escapes                  --All farmed fish must   --Escapes that are not
                          be marked or tagged..    identifiable may
                         --Site designed to        become common
                          prevent escapes and      property.
                          lessee responsible for  --Lessee may be
                          damages..                responsible for
                                                   retrieving escapes if
                                                   demanded by Board.
------------------------------------------------------------------------
Collected Funds          Remaining funds go to    Revenues deposited in
                          Fish and Game Fund..     special land
                                                   development fund for
                                                   aquaculture industry
                                                   after portion
                                                   deposited in public
                                                   land trust.
------------------------------------------------------------------------
Lease Periods            Lease for a period of    Term specified in
                          10 years--renewable      lease issued by Board
                          every 5 years at         of Land and Natural
                          discretion of            Resources (first
                          Commission..             commercial lease was
                                                   for 15 years).
------------------------------------------------------------------------
Fees Collected           Fees sufficient to pay   Annual rent set by
                          for administering the    Board.
                          program and
                          enforcement..
------------------------------------------------------------------------

State vs. Federal Permitting
    Question 3. Any legislation should address how the permitting 
process will include states and other stakeholders in the development 
of permitting and siting criteria. Enhanced coordination is needed to 
provide consistency and to adequately manage potential impacts that 
cross jurisdictional lines, such as the spread of disease. Significant 
state participation and input to guidelines to ensure they are 
complementary at both state and Federal levels is important. Without 
such Federal-state coordination, states have placed limitations on 
aquaculture facilities in their waters. Alaska, for example, has a 
constitutional provision banning finfish aquaculture, and several 
states prohibit the cultivation of genetically-modified species. Can 
minimum national standards avoid ``bad actors,'' who undermine 
environmentally sensitive operations?
    Answer. NOAA agrees that minimum national standards are needed to 
ensure that offshore aquaculture develops in an environmentally 
responsible and sustainable manner, and these standards need to be 
legally enforceable. The National Offshore Aquaculture Act of 2005 
provides the authority to (1) establish these standards, (2) include 
appropriate terms and conditions on offshore aquaculture site and 
operating permits requiring permit holders to comply with these 
standards, (3) monitor operations, (4) enforce the terms and conditions 
of offshore aquaculture permits, and (5) penalize permit holders who 
violate the terms and conditions of their permits. Under the National 
Offshore Aquaculture Act of 2005, permit holders who violate the terms 
and conditions of their permits may be fined or imprisoned, their 
property may be seized, and their permits may be suspended or revoked. 
The Act further provides that permit holders must post a bond or other 
form of financial guarantee as added insurance against ``bad actors.''
    In addition, since the Act does not preempt existing laws and 
regulations, ``bad actors'' should expect the full force of applicable 
criminal and civil remedies beyond those in the Act--for example, those 
under applicable fish and wildlife statutes.

    Question 4. What role should states play in helping set these 
minimum standards?
    Answer. NOAA will encourage the full participation of coastal 
states in the rulemaking process to implement the National Offshore 
Aquaculture Act of 2005. In particular, NOAA will look to the states to 
share their experience and insights on the rationale for the standards 
they have adopted, as well as their experience in implementing state 
legislation and enforcing environmental standards. Information from the 
states about what does and does not work in terms of their regulatory 
approach will be valuable to NOAA in establishing and enforcing 
national standards.

    Question 5. How can we avoid inconsistency with state standards, 
including forum shopping for areas with weaker standards?
    Answer. Current law already provides mechanisms for ensuring 
consistency with state standards. The Clean Water Act requires state 
certification that an offshore aquaculture operation meets water 
quality standards, and the Coastal Zone Management Act requires state 
certification that issuance of an offshore aquaculture permit is 
consistent with state coastal management plans.
    NOAA's rulemaking process to establish environmental requirements 
will draw heavily on state experience in regulating coastal marine 
aquaculture operations. Based on the information NOAA has already 
compiled on environmental safeguards in U.S. coastal states, there is 
general agreement across a range of jurisdictions on the major issues 
that need to be addressed, and there is tremendous similarity among the 
standards that have been developed. This is also true with respect to 
environmental safeguards in other countries with established 
aquaculture industries. So it is reasonable to expect that Federal 
standards developed under the National Offshore Aquaculture Act of 2005 
will be consistent with existing state standards and will not provide 
incentives for forum shopping. NOAA expects aquaculture businesses to 
choose sites for new marine aquaculture operations based primarily on 
the suitability of the site for the specific species and systems in 
which they want to invest. For example, businesses are likely to 
consider site characteristics such as water depth, bottom type, 
salinity levels, currents, proximity to land-based support facilities 
and markets, and potential conflicts with other uses.

    Question 6. As recommended by the Ocean Commission, aquaculture 
legislation should specify how the permitting regime will contribute to 
Federal coordination of existing regimes, including facilities 
established under the Deepwater Ports Act, as well as offshore 
alternative energy facilities and offshore oil and gas drilling 
permitted under the Outer Continental Shelf Lands Act.
    An offshore management regime should provide for effective 
coordination of all ocean activities such as offshore aquaculture and 
alternative energy development. How should aquaculture programs 
coordinate with other agencies of jurisdiction to prioritize 
activities, minimize conflicts, protect resources, and ensure that uses 
are compatible?
    Answer. The National Offshore Aquaculture Act of 2005 specifically 
provides for the establishment of a coordinated permit process that 
will include other agencies with jurisdiction over activities that 
occur in Federal waters of the Exclusive Economic Zone. The bill 
includes specific provisions detailing the role of the Department of 
the Interior with respect to offshore aquaculture facilities located on 
or near facilities permitted under the Outer Continental Shelf Lands 
Act.
    With respect to interagency coordination, NOAA is already an active 
participant in existing institutional structures, including the 
Committee on Ocean Policy and the Joint Subcommittee on Aquaculture, 
that provide good communication channels for working with Federal 
agency partners to develop the coordinated permit process called for 
under the National Offshore Aquaculture Act of 2005. In addition, NOAA 
is already working with the Army Corps of Engineers, the Environmental 
Protection Agency, the Fish and Wildlife Service, and other agencies of 
jurisdiction to address aquaculture permitting issues under current 
law.
    Some issues will need to be addressed through internal NOAA 
processes, as NOAA has major stewardship and management 
responsibilities under the Magnuson-Stevens Fishery Conservation and 
Management Act, Endangered Species Act, Marine Mammal Protection Act, 
Coastal Zone Management Act, and other statutes. NOAA is already 
working to improve coordination between the aquaculture program and 
other NOAA programs that have primary responsibility for implementing 
these statutes.

    Question 7. Will any agency be empowered to reject a proposed 
facility based on safety or environmental standards? Please explain.
    Answer. The National Offshore Aquaculture Act of 2005 specifically 
requires Department of the Interior (DOI) concurrence on permits for 
offshore aquaculture facilities located on or near facilities permitted 
by DOI under the Outer Continental Shelf Lands Act. The bill includes 
specific provisions detailing DOI's continuing role with respect to 
maintenance and safety on existing facilities such as oil and gas 
platforms.
    Because the bill does not supersede any existing statutes, offshore 
aquaculture facilities and operations will need to comply with all 
existing requirements and standards. Therefore, even though there is no 
explicit concurrence requirement for other Federal agencies such as the 
Environmental Protection Agency or the Army Corps of Engineers, an 
offshore aquaculture facility will not be able to operate without the 
proper permits from these other agencies--e.g., a National Pollutant 
Discharge Elimination System permit from EPA and a Section 10 permit 
from the Army Corps of Engineers pursuant to the Rivers and Harbors 
Act. Other requirements, such as Coast Guard rules governing marking of 
a site, would also apply.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                Tim Eichenberg and Marianne Cufone, Esq.
Hawaii and California Aquaculture Legislation
    Question 1. In 1999, the Hawaii Legislature amended existing law 
and allowed the long term leasing of State marine waters for commercial 
aquaculture. This action opened up the opportunity for farming the 
ocean using modern surface and submerged cage culture technologies and 
economically important local species. California just passed 
comprehensive legislation for permitting and regulating aquaculture in 
state waters. Both laws have environmental regulations regarding issues 
of concern for each state.
    How will environmental safeguards in existing state legislation, 
such as in Hawaii and California, be respected in Federal regulations?
    Answer. S. 1195 currently contains no safeguards to ensure that 
Federal regulations protect state environmental standards, such as 
those adopted in California and Hawaii, and likely soon to be finalized 
in Florida. In fact, as currently proposed, nothing in S. 1195 would 
prevent fish farms located in the EEZ--just beyond state waters--from 
seriously undermining efforts in state waters to protect water quality, 
prevent the spread of disease, pathogens and parasites, or protect the 
genetic makeup of wild fish stocks from escaped farmed fish.
    Senators Stevens and Inouye have proposed an amendment that would 
allow states to prevent the approval of Federal aquaculture projects 
under S. 1195 in the EEZ adjacent to state ocean waters. This ``opt-
out'' provision could prevent impacts on some state marine fisheries 
and wildlife from fish farms in nearby Federal waters. However, it will 
not prevent impacts on states that do not elect to opt-out, or prevent 
impacts on states near states that do not elect to opt-out. \1\ Some 
provision for authorizing these nearby states to object to Federal 
aquaculture projects also needs to be included in S. 1195. It is also 
uncertain if it will prevent impacts from aquaculture operations 
authorized under other Federal laws in the EEZ (such as if the Minerals 
Management Service were to assume such authority either under the 2005 
amendments to the Outer Continental Shelf Lands Act or under new 
authority provided by the Deep Oceans Energy Resources Act, H.R. 4761, 
which the House passed on June 29, 2006). For this reason the proposed 
opt-out amendment, even if approved, is no substitute for minimum 
national standards to ensure that Federal aquaculture operations are 
conducted sustainably, and do not undermine state environmental 
safeguards.
---------------------------------------------------------------------------
    \1\ For example, it was recently reported by the Alaska Department 
of Fish and Game that a salmon caught in Cook Inlet was farmed Atlantic 
salmon even though farming salmon is banned in Alaska. Kohl. ``Testing 
proves fish was farmed.'' Peninsula Clarion, July 16, 2006. According 
to the report, about one of every 100 Atlantic salmon raised on farms 
in British Columbia and Washington escapes.

    Question 2. In what ways are the Hawaii and California aquaculture 
laws and programs similar? In what ways are they different?
    Answer. Both Hawaii and California prohibit the farming of non-
native species. California Fish and Game Code Section 15007 also 
prohibits marine fish farms from raising salmon and genetically-
modified species. Requiring native fish species and the use of wild 
broodstock can help minimize the genetic consequences of escaped farmed 
fish. However, additional standards are needed to address potentially 
significant impacts of farming native fish species on the marine 
environment.
    Both Hawaii and California utilize an aquaculture leasing system 
which allows environmental requirements to be imposed on the lease 
itself rather than just the operating permit. Possible termination of a 
lease may provide a stronger incentive for compliance than suspending 
an operating permit.
    Hawaii's approach is derived from land-use zoning policy, and 
submerged lands are broadly zoned for ``resource uses.'' Typically land 
use decisions respond to applications for permits instead of 
proactively assessing and designating areas for aquaculture. As a 
result, some operations in Hawaii have been permitted in relatively 
shallow water, and published research shows this is having significant 
impacts on the benthos in the vicinity of the cages. \2\
---------------------------------------------------------------------------
    \2\ Lee, Han W. et al. ``Temporal changes in the polychaete 
infaunal community surrounding a Hawaiian mariculture operation.'' 
Marine Ecology Progress Series, Vol. 307, pp. 175-185, January 2006.
---------------------------------------------------------------------------
    California has taken a different and more proactive approach. The 
Sustainable Oceans Act (SB 201) provides for the preparation of a 
programmatic environmental impact report (PEIR) to consider, among 
other things, appropriate areas for siting marine fish farms to avoid 
adverse impacts. Lease sites must be considered appropriate for fish 
farms in the PEIR before aquaculture leases can be issued. This will 
help to avoid siting marine finfish aquaculture operations in areas 
that are inappropriate because they may be too shallow, conflict with 
fishing and other uses, are located in sensitive habitats such as 
marine protected areas, or would impact essential fish habitat or 
spawning grounds.
    S. 201 also contains a number of other provisions for farming 
native fish species that should be considered as starting point for 
Federal standards:

  <bullet> Sites can not be leased that conflict with fishing and other 
        public trust uses, disrupt or harm wildlife and habitats, or 
        otherwise harm the marine environment.

  <bullet> Pollution must be prevented to the maximum extent possible.

  <bullet> Alternatives to drugs and chemicals must be required 
        whenever available, and permitted only if minimized to the 
        maximum extent possible.

  <bullet> Alternatives to feeds produced from wild-caught fisheries 
        are required where available, and only sustainably harvested 
        ingredients can be utilized.

  <bullet> Baseline assessments must be conducted prior to issuing 
        permits, and all sites must be monitored regularly.

  <bullet> Lessees are held responsible for damages to the marine 
        environment, and for restoring sites to pre-leased condition.

  <bullet> Fish must be removed, leases terminated, and facilities 
        closed if operations pose a danger to the marine environment.

  <bullet> All facilities and operations must be designed to prevent 
        the escape of farmed fish, escapes must be reported 
        immediately, and fish must be tagged or marked.

    Any Federal offshore aquaculture program should also consider the 
socio-economic effects of farmed species on fishing communities.
State vs. Federal Permitting
    Question 3. Any legislation should address how the permitting 
process will include states and other stakeholders in the development 
of permitting and siting criteria. Enhanced coordination is needed to 
provide consistency and to adequately manage potential impacts that 
cross jurisdictional lines, such as the spread of disease. Significant 
state participation and input to guidelines to ensure they are 
complementary at both state and Federal levels is important. Without 
such Federal-state coordination, states have placed limitations on 
aquaculture facilities in their waters. Alaska, for example, has a 
constitutional provision banning finfish aquaculture, and several 
states prohibit the cultivation of genetically-modified species.
    Can minimum national standards avoid ``bad actors'' who undermine 
environmentally sensitive operations?
    Answer. Yes. For example, minimum national standards under the 
Clean Water Act have improved water quality nationwide. Strong national 
aquaculture standards can do the same.
    However, EPA's current effluent guidelines for aquaculture are weak 
and ignore key issues such as escapes, and impacts from non-native and 
genetically modified species. EPA guidelines do not establish 
enforceable numeric limits on pollutants discharged from offshore 
aquaculture operations such as total suspended solids, fecal coliform, 
nitrates, phosphates, biological oxygen demand, metals, drugs or 
pesticides; nor do they require water quality monitoring or testing for 
toxic substances. Instead the guidelines rely on operational BMPs to 
minimize feed and chemical inputs. 69 Fed. Reg. 51891-51930 (August 23, 
2004). Moreover, ocean discharge standards under the Clean Water Act 
require certain ocean resources to be ``considered,'' but do not 
contain qualitative standards for determining whether a discharge 
causes ``unreasonable degradation'' of the marine environment; nor has 
EPA established water quality standards for the EEZ under which 
degradation can be judged. 40 CFR Sec. 125.122. Thus, minimum national 
standards could, but do not currently, provide adequate protection for 
the marine environment against ``bad actors. Nor does S. 1195 currently 
ensure that adequate minimum standards will be adopted.
    For S. 1195 to establish a national policy for sustainable marine 
aquaculture, the bill must direct NOAA to implement specific national 
standards enumerated in the bill to ensure there are no gaps in Federal 
environmental protection, such as from escapes. Congress should adopt 
very specific measures for NOAA to ensure that marine ecosystems are 
not harmed by offshore aquaculture, and that cumulative and secondary 
impacts are adequately considered in evaluating Federal proposals.

    Question 4. What role should states play in helping set these 
minimum standards?
    Answer. Clearly aquaculture activities in Federal waters can impact 
state assets, and therefore states should play a key role in setting 
Federal environmental standards. However, existing mechanisms do not 
provide an adequate role for states. Under the Coastal Zone Management 
Act (CZMA) Federal consistency requirements, state's with approved 
coastal management programs may object to Federal and federally 
permitted activities, such as Federal aquaculture leases and permits. 
However, some states will be unable to object to Federal aquaculture 
permits because they lack enforceable state aquaculture policies, and 
state objections can be overridden by the Secretary of Commerce under 
Section 307(c)(1) and (3) of the CZMA. Under Section 401 of the Clean 
Water Act, Federal licenses and permits must be consistent with state 
water quality standards. However, section 401 certifications may not be 
applicable to permits or licenses issued in the EEZ. Therefore, the 
CZMA and Clean Water Act do not ensure an adequate role for the states, 
and additional provisions are needed in S. 1195 for state input, 
including the proposed ``opt-out'' amendment, to ensure that 
aquaculture operations in Federal waters do not undermine state 
environmental safeguards and meet stringent minimum environmental 
standards.
    Moreover, states are already participating on regional fisheries 
management councils. These bodies should be integrally involved with 
development of environmental standards and approval of siting permits 
to ensure that aquaculture operations do not conflict with fishing 
operations, essential fish habitat and other fishery management 
concerns.

    Question 5. How can we avoid inconsistency with state standards, 
including forum shopping for areas with weaker standards?
    Answer. Strong national standards for aquaculture activities in the 
EEZ should provide a floor--but not a ceiling--for standards in 
adjacent state waters to ensure that state standards meet minimum 
environmental requirements, and that state standards are essentially 
consistent with one another. States should be permitted to adopt 
regulatory programs that exceed but are not weaker than these Federal 
standards. This will prevent forum shopping for states with weak 
environmental standards, and ensure that the Nation's ocean waters are 
adequately and consistently protected.
Conflicting Uses
    Question 6. As recommended by the Ocean Commission, aquaculture 
legislation should specify how the permitting regime will contribute to 
Federal coordination of existing regimes, including facilities 
established under the Deepwater Ports Act, as well as offshore 
alternative energy facilities and offshore oil and gas drilling 
permitted under the Outer Continental Shelf Lands Act.
    An offshore management regime should provide for effective 
coordination of all ocean activities such as offshore aquaculture and 
alternative energy development. How should aquaculture programs 
coordinate with other agencies of jurisdiction to prioritize 
activities, minimize conflicts, protect resources, and ensure that uses 
are compatible?
    Answer. Congress should ensure that NOAA prepares a legislative or 
programmatic EIS and a comprehensive offshore aquaculture plan for the 
Federal aquaculture program to provide adequate public participation 
and determine how other Federal agency reviews and permits should be 
coordinated with offshore aquaculture leasing program under S. 1195. 
Interagency reviews and permits for individual aquaculture permits and 
leases can also be coordinated through the National Environmental 
Policy Act review process. A legislative EIS would also greatly assist 
the Committee comprehensively evaluate the likely individual and 
cumulative environmental and socio-economic effects, possible 
alternatives and mitigation measures, and any unavoidable consequences 
of offshore aquaculture. A legislative or programmatic EIS can also 
help develop other measures such as planning, zoning, siting criteria 
and environmental carrying capacity as recommended in a recent Sea 
Grant study by the University of Delaware. \3\
---------------------------------------------------------------------------
    \3\ Cicin-Sain, et al. ``Recommendations for an Operational 
Framework for Offshore Aquaculture in U.S. Federal Waters.'' Mangone 
Center for Marine Policy, University of Delaware, October 2005.

    Question 7. Will any agency be empowered to reject a proposed 
facility based on safety or environmental standards? Please explain.
    Answer. As the lead agency for offshore aquaculture, NOAA should be 
given a clear mandate--not just authority--to protect the marine 
environment and minimize adverse environmental effects from offshore 
aquaculture activities. To be meaningful, this authority must include 
the ability to deny permits. Moreover, other Federal agencies with 
permitting authority over offshore aquaculture projects also have the 
authority to reject proposed facilities that do not meet standards 
related to their jurisdictional authority even if NOAA is designated as 
the lead agency for offshore aquaculture leases. Thus, for example, EPA 
and the Corps have the authority to deny a project that has adverse 
water quality or navigational impacts. The Sea Grant study by the 
University of Delaware cited earlier also noted that these are 
important checks and balances for offshore aquaculture. \4\
---------------------------------------------------------------------------
    \4\ Id.
---------------------------------------------------------------------------
                                 ______
                                 
   Response to Written Question Submitted by Hon. John E. Sununu to 
                             Tim Eichenberg
    Question. The Omega-3 acids in fish oil are largely responsible for 
the superior nutritional value of seafood. Have you determined the 
minimum amount of fish meal and oil necessary in order to preserve 
these nutritional benefits?
    Answer. Scottish research suggests that if salmon are fed a 
vegetable based diet for most of their grow-out period, followed by a 
``finishing diet'' containing fish meal and oil, fish flesh is high in 
omega 3 fatty acids. It is therefore possible to drastically reduce 
levels of fisheries products in fish diets, and still obtain fish high 
in omega 3 fatty acids. \1\ In the future, fish high in omega 3 fatty 
acids may be obtained with little or no use of fish meal and oil in 
feeds, since feeds with high levels of omega 3 fatty acids from marine 
algae are now in research and development in the U.S. and abroad.
---------------------------------------------------------------------------
    \1\ Bell, et al. Replacement of Dietary Oil with Increasing Levels 
of Linseed Oil: Modification of Flesh Fatty Acid Composition in 
Atlantic Salmon (Salmo salar) Using a Fish Oil Finishing Diet. Lipids 
39, 1-10 (2004).
---------------------------------------------------------------------------
    David Higgs, head of the fish nutrition program at the DFO/UBC 
Centre for Aquaculture and Environmental Research in West Vancouver, 
Canada, presented a study at the Society for Experimental Biology 
Annual Meeting in Canterbury, England in 2006, in which farm-raised 
salmon were fed diets high in vegetable oil. The study found that up to 
75 percent of the dietary fat in farm-raised salmon can come from 
canola oil without fish suffering any negative health effects or 
significant loss in omega-3 fatty acids. The seven-month feeding trial 
on more than 7,000 spring Chinook salmon investigated four different 
diets, with the canola oil diet providing optimal results.
    Some farmed fish contain high levels of contaminants including PCBs 
and dioxins from fishmeal and oil derived from wild marine fish such as 
anchovies. \2\ The Canadian and Scottish research cited above shows 
that levels of contaminants in farmed fish can be reduced without 
sacrificing omega-3s by using substitutes to fishmeal. Fishmeal 
substitutes can also help address concerns about the ecosystem impacts 
of using wild fish stocks for fish meal which, if current trends 
continue, could use the total global fish catch for fish feed by 2010.
---------------------------------------------------------------------------
    \2\ Hites, R.A. et al. Global Assessment of Organic Contaminants in 
Farmed Salmon. Science 303, 226-229 (2004). Foran, J. et al. 
Quantitative Analysis of the Benefits and Risks of Consuming Farmed and 
Wild Salmon. Journal of Nutrition 135 (2005).
---------------------------------------------------------------------------
                                 ______
                                 
   Response to Written Questions Submitted by Hon. John E. Sununu to 
                             David Bedford
    Question 1. Alaska has had great success with its salmon 
hatcheries. Do you think this success can provide lessons for raising 
other species with a less complex life cycle?
    Answer. Alaska's ocean ranching program for salmon differs 
significantly from fish or shellfish farming because it is designed to 
improve survival of salmon in the natural environment rather than put 
the fish under positive control throughout development. Our hatchery 
program involves human intervention only at the earlier life stages 
with the intent of improving survival of immature salmon at time in 
which immature salmon have the highest levels of natural mortality. For 
the great majority of their development Alaska hatchery salmon share 
the same natural environment that the wild stocks use.
    Hatchery production in Alaska supplements natural production. The 
hatchery salmon are not completely segregated from the wild stock 
because they share the marine environment in significant life stages. 
Furthermore some hatchery fish may stray into streams that are habitat 
for wild stocks. To minimize potential impact on wild stocks our 
hatchery regulatory program implements strict genetic and pathology 
policies and tracks the transport of brood stock and harvested product. 
Similar policies for aquaculture would seem prudent.
    Ocean ranching of salmon, complex as it may be, is in significant 
respects an easy case. Salmon have been subject to intense scientific 
scrutiny for over a century. Salmon hatcheries have been in operation 
for a similar period. Perhaps most pertinent salmon spend important 
parts of their development in fresh water and are consequently 
relatively easy to observe. Aquaculture of species for which the level 
of knowledge is insufficient to fully assess the potential impact of 
cultivation should be preceded by comprehensive research.

    Question 2. Do you see any potential for hatchery programs to 
enhance other wild fish populations while also providing stock for 
aquaculture?
    Answer. Alaska's salmon hatchery program produces additional salmon 
for harvest in the common property fisheries. We are exploring the 
potential for enhancing the productivity of some marine populations. 
The Alaska Department of Fish and Game is in the early phases of 
developing strategies for ocean ranching of king crab. This would 
follow the basic pattern of salmon hatchery production involving 
holding juveniles for a period of time to control sources of natural 
mortality then releasing them into the natural environment to mature 
and finally be harvested in the fisheries. At present we are permitting 
research that looks at the potential for and effects of hatchery 
production of juveniles. There are significant genetic, pathology and 
wild stock interaction issues yet to be addressed.
    We are also permitting an experimental project that would plant a 
species of clams and study the potential for using this approach to 
increase local populations of the species that would be available for 
harvest.
    In both instances we take a precautionary approach. We enjoyed some 
advantages with salmon enhancement. Salmon have been the subject of 
intense scientific scrutiny for over a century. Furthermore we benefit 
in our study of salmon as compared to marine species because the salmon 
reproduce in fresh water and are consequently more susceptible to 
observation at crucial life stages. In addition, we were able to look 
at the experiences of other states with salmon production and 
incorporate the lessons of these programs in the development of our 
own. With other marine species we do not enjoy theses same advantages 
and hence will be cautious.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                             David Bedford
    Question 1. Any legislation should address how the permitting 
process will include states and other stakeholders in the development 
of permitting and siting criteria. Enhanced coordination is needed to 
provide consistency and to adequately manage potential impacts that 
cross jurisdictional lines, such as the spread of disease. Significant 
state participation and input to guidelines to ensure they are 
complementary at both state and Federal levels is important. Without 
such Federal-state coordination, states have placed limitations on 
aquaculture facilities in their waters. Alaska, for example, has a 
constitutional statutory provisions banning finfish aquaculture, and 
several states prohibit the cultivation of genetically-modified 
species.
    Can minimum national standards avoid ``bad actors,'' who undermine 
environmentally sensitive operations?
    Answer. The aquaculture program should be implemented through the 
regional council system created by the Magnuson-Stevens Fishery 
Conservation and Management act. The Council process provides for 
effective scientific review by scientific and technical committees and 
thorough public review in the council process and the advisory panels. 
Magnuson-Stevens incorporates national standards for fishery 
conservation and management. These provide important policy guidance to 
the councils and also allow sufficient flexibility to enable the 
councils to develop management plans that are appropriate for the 
specific region, fisheries and resources at issue. National standards 
for implementing off-shore aquaculture would be useful and important 
guidelines for decisionmaking. The kind of rigorous review undertaken 
by the regional councils would be the first step in preventing abuse by 
reviewing applications and developing permit conditions and oversight.

    Question 2. What role should states play in helping set these 
minimum standards?
    Answer. The minimum standards for implementing the national 
standards and other provisions in statute should be developed by the 
regional councils and would be expected reflect the policy perspectives 
of the states represented on each council. States nominate the majority 
of the members on the councils and participate substantially on the 
scientific and technical committees. The advisory panels would provide 
opportunity for additional review by members of the public and interest 
groups.
    Question 3. How can we avoid inconsistency with state standards, 
including forum shopping for areas with weaker standards?
    Answer. By working through the existing regional councils, state 
participation is ensured and consequently the states could ensure that 
their standards were reflected in the decisions of the council. It 
would likely be necessary to expand the scientific and technical 
committees to add expertise specific to aquaculture. It might also be 
useful to empanel additional advisory panels that focus on aquaculture 
and include some interests not presently engaged in the council 
process.
    We might expect councils in different regions of the country to 
develop different approaches to aquaculture. Operating under the 
national standards we should expect effective but not uniform 
application of the law. It would fall within a council's authority to 
implement national standards in a more rigorous fashion than that 
adopted in another region. This could well create an environment more 
conducive to aquaculture development on some regions however this would 
be consistent with the national standards and reflect the policy 
choices of the states in that region.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. John E. Sununu to 
                  John R. ``Randy'', MacMillan, Ph.D.
    Question 1. Many of the critics of offshore aquaculture point to 
the early problems of near-shore aquaculture operations in the U.S. How 
has your industry learned from the challenges it faced with escapes and 
disease?
    Answer. The loss of animals from any aquaculture operation whether 
off-shore or on-shore is a concern economically for the owner and 
potentially of concern ecologically. Economic concern arises because of 
lost product for market. Depending upon how close to harvest the loss 
occurs, financial loses can be significant. Potential ecologic damage 
arises because non-indigenous species may have potential to displace 
native species or otherwise change an ecosystem. Development of 
predictive science to enable wise decisions in this regard is ongoing. 
Because of escapement concerns producers in near shore operations have 
successfully sought ways to minimize potential for escape. In addition 
to changes in cage (net pent) material to better withstand efforts of 
piscivors (e.g. seals and otters), producers utilize predator exclusion 
devices and double cage the rearing environment. Improved facility 
siting has also further minimized escapes caused by marine mammal 
destruction of cages and has concomitantly significantly reduced 
environmental impacts. Some recent theories offered for escape events 
indicate intentional tampering with aquaculture stocks and equipment by 
those who oppose the industry may have occurred. Such occurrence 
presents significant adverse financial impacts on aquaculture 
operations. One tool to deter such tampering may be amendment of the 
pending aquaculture legislation to include criminal penalties and civil 
liability for damages resulting from tampering with offshore 
aquaculture facilities.
    Claims of more disease in wild species as a consequence of near-
shore aquaculture operations is disputed by various Federal and fish 
health management experts (e.g. LaPatra, S. 2003. The lack of 
scientific evidence to support the development of effluent limitations 
guidelines for aquatic animal pathogens. Aquaculture 226: 191-199). It 
is well established principle that fish disease occurs as a consequence 
of interaction between host, environment and pathogen. Due to careful 
management by fish farmers, and Federal and state regulatory 
authorities, introduction of new pathogens by aquaculturists is very 
rare and unintentional. In open water aquaculture as envisioned in an 
off-shore aquaculture operation, pathogens are more likely to occur as 
a consequence of wild fish carrying pathogens and exposing farmed fish. 
Pathogen amplification on a fish farm can theoretically occur but its 
impact on wild fish has never been scientifically demonstrated. Much of 
the rhetoric concerning near shore aquaculture operations and fish 
disease has focused on sea lice. NOAA fisheries experts report (NOAA 
Technical Memorandum NMFS-NWFSC-71) that ``contrary to some 
circumstantial reports, there is no basis for expecting an increase in 
wild fish infections in the immediate vicinity of any source of lice 
larvae, including those hatched from lice at fish farms.'' Existing 
Federal and state regulatory programs already ensure introduction of 
exotic fish pathogens is unlikely. (The LaPatra article is appended for 
inclusion in the record).

    Question 2. How has the aquaculture industry used alternative feeds 
to reduce its reliance on fish meal and fish oil?
    Answer. The use of fish meal and fish oil is not inherently 
detrimental to marine ecosystems and ecologic sustainability as long as 
the fisheries supplying the fish meal and oil are properly managed. The 
species most used for reduction fish meal and oils are the small 
shoaling pelagic fish (anchovy and menhaden) harvested from surface 
waters feeding at the lowest trophic level above or near to nutrient-
rich oceanic upwellings (NOAA Technical Memorandum NMFS-NWFSC-71). 
These populations are volatile and are dependent on ocean productivity 
which depends on seasonal movement of some deep ocean currently. While 
the fish meal and oils are well-suited for human consumption, they are 
used globally by terrestrial animal and poultry industries as well as 
for aquaculture. Because of the economic and social importance of the 
pelagic industrial fisheries, their population dynamics are routinely 
monitored and assessed by fisheries managers and scientists worldwide. 
Fisheries managers predict each year the strength of the target 
population and manage to ensure sustainability of the population.
    While the pelagic fisheries are regarded as sustainable, the 
resource is nevertheless limited. Global capture has remained stable 
over the past 20 years but demand for fishmeal and oil has increased. 
Increasing demand has caused substantial price increase which has 
encouraged a search for alternative protein and oil sources. Fish 
processing wastes (trimmings) are increasingly used in fish meal as are 
direct protein substitutions (e.g. terrestrial animal, poultry, 
trimmings). Most importantly there is research to substitute grains and 
oilseed meals for fish meal as sources of protein and energy (NOAA 
Technical Memorandum NMFS-NWFSC-71). The challenge is to find suitable 
fish meal substitutes for carnivorous animals such that their 
physiologic homeostasis is maintained, and cost-effective feeds that 
maximize growth rate and reduce or eliminate feed wastage occurs.

    Question 3. Senator Boxer referred to an article in the magazine 
Science outlining concerns with the levels of toxins in farmed salmon. 
Did this study find any toxin levels beyond acceptable limits from the 
Food and Drug Administration, the World Health Organization, or the 
Environmental Protection Agency?
    Answer. The study Senator Boxer referred to did not find any 
contaminant levels beyond acceptable limits established by the Food and 
Drug Administration, the World Health Organization, or the U.S. 
Environmental Protection Agency. A recent (July 11, 2006) National 
Academy of Science review of EPA's 2003 dioxin risk assessment 
concludes that EPA overstates dioxin cancer risks further calling into 
question the Science article referred to by Senator Boxer.

    Question 4. What new information has been gathered in recent years 
to counter the claims of this article?
    Answer. The most recent germane scientific analysis was conducted 
by scientists and physicians at the Harvard School of Public Health, 
Harvard University. These researchers developed a clear, scientifically 
sound argument that consumption of wild and farm raised fish, including 
salmon, is essential for good health (Teutsch SM and Cohen JT. Health 
trade-offs from polices to alter fish consumption. Am J Prev Med 2005; 
29: 324; Cohen JT, Belinger DC, Connor WE., et al. A quantitative risk-
benefit analysis of changes in population fish consumption. Am J Prev 
Med 2005; 29: 325-334; Konig A, Bouzan C, Cohen JT et al. A 
quantitative analysis of fish consumption and coronary heart disease 
mortality. Am J Prev Med 2005; 29: 335-346; Bouzan C, Cohen JT, Connor 
WE, et al. A quantitative analysis of fish consumption and stroke risk. 
Am J Prev Med 2005; 29: 347-352; Cohne JT, Bellinger DC, Shaywitz BA. A 
quantitative analysis of prenatal methyl mercury exposure and cognitive 
development. Am J Prev Med 2005; 29: 353-365; and Cohen JT, Bellinger 
DC, Connor WE, Shaywitz BA. A quantitative analysis of prenatal intake 
of n-3 polyunsaturated fatty acids and cognitive development. Am J Prev 
Med 2005; 29: 366-374).
    Willet (Willet WC. 2005. Fish: Balancing Health Risk and Benefits. 
Am. J. Preventive Medicine 29 (4): 320-321), in introducing the above 
studies, suggests the Science article (Hites RA., Foran J.A., Carpenter 
D.O., Hamilton MC, Knuth BA, and Schwager SJ. 2004. Global assessment 
of organic contaminants in farmed salmon. Science 303: 226-229) was 
``particularly troublesome, perhaps even irresponsible, because the 
implied health consequences (sic. of farmed salmon consumption) were 
based on hypothetical calculations and very small lifetime risks.'' 
Willet also states the Hites et al publication ``likely caused 
substantial numbers of premature deaths'' because of the reduction in 
fish consumption that occurred as a consequence. The conclusion of 
course is that wild and farmed raised seafood consumption is an 
important component of a healthy diet and lifestyle, for all ages. (The 
2005 Willet article is appended for inclusion in the record).
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                  John R. ``Randy'', MacMillan, Ph.D.
    Question 1. Any legislation should address how the permitting 
process will include states and other stakeholders in the development 
of permitting and siting criteria. Enhanced coordination is needed to 
provide consistency and to adequately manage potential impacts that 
cross jurisdictional lines, such as the spread of disease. Significant 
state participation and input to guidelines to ensure they are 
complementary at both state and Federal levels is important. Without 
such Federal-state coordination, states have placed limitations on 
aquaculture facilities in their waters. Alaska, for example, has a 
constitutional provision banning finfish aquaculture, and several 
states prohibit the cultivation of genetically-modified species.
    Can minimum national standards avoid ``bad actors,'' who undermine 
environmentally sensitive operations?
    Answer. There is no distinction likely between the effectiveness of 
national or state standards when it comes to the prevention of 
prohibited actions by individuals who may be characterized as ``bad 
actors.'' By definition, such persons have no regard for operating 
standards regardless of the source of authority, or for the legitimate 
goals of laws established to protect sensitive environmental resources.

    Question 2. What role should states play in helping set these 
minimum standards?
    Answer. The responsibility for creation of Federal aquaculture 
standards established by legislation or regulation lies with the 
Congress and Federal agencies, respectively. Some potential 
environmental impacts of aquaculture in Federal waters are analogous to 
the ``trans-boundary pollution'' aspects of matters regulated by the 
Clean Air Act and Clean Water Act in terms of the state-Federal 
boundary and state-state boundary issues. In such cases, state 
standards must be taken into consideration. In addition, just as is the 
case in these well-established programs, States may choose to take part 
in creation of Federal standards by participating in the rulemaking 
that will be conducted to create the Federal aquaculture program. 
Participation of the states in the rulemaking process provides them 
with appropriate input in the development of Federal standards and also 
provides the Federal agencies with the benefit of state experiences in 
oversight of state aquaculture programs.

    Question 3. How can we avoid inconsistency with state standards, 
including forum shopping for areas with weaker standards?
    Answer. Neither Congress nor Federal agency rule-makers should be 
tasked with the burden of forging a coherent Federal program into an 
amalgam of differing state standards. The Federal program should be 
developed to meet the legislative objectives established by a 
Congressional vision of national goals.
    There is no compelling reason why Federal standards must be made 
``consistent'' with existing (or future) state standards. Indeed, from 
the perspective of the states, some state legislators may find the 
Federal program attractive, and use it as a model for aquaculture in 
state waters. Other states may determine that distinctions are needed 
to meet the unique local circumstances of their state's natural 
environment or the demands of their constituents. In either such 
instances, there should be no negative inference attached to an 
aquaculturist choosing a location in a particular state simply because 
the standards differ from other states or the Federal program.
    In examples of other Federal environmental legislation, the states 
have been free to choose to apply more stringent standards not 
inconsistent with Federal programs. States also have sometimes been the 
``laboratories'' in which differing experimental approaches have been 
pursued, and successful approaches later adopted elsewhere. Similar 
flexibility would appear to be a reasonable and useful option in the 
context of state aquaculture programs.
    However, it would be wholly inconsistent with the prerogative 
afforded Federal legislators, if those crafting the national program 
were thought to be bound by state standards when it comes to the 
regulation of Federal waters. This is especially true if we were simply 
to follow the path of those who engaged in a ``race to legislate'' at 
the state level and thereby presumed to set the terms of Federal 
legislation. The worst case scenario would be for Congress to feel 
compelled to follow the legislative example of a state where 
substantial influences actually opposed development of a viable marine 
finfish aquaculture industry in either their state waters or nearby 
Federal waters, and as a result created hollow legislation intended to 
suit such purposes.

    Question 4. As recommended by the Ocean Commission, aquaculture 
legislation should specify how the permitting regime will contribute to 
Federal coordination of existing regimes, including facilities 
established under the Deepwater Ports Act, as well as offshore 
alternative energy facilities and offshore oil and gas drilling 
permitted under the Outer Continental Shelf Lands Act.
    Answer. An offshore management regime should provide for effective 
coordination of all ocean activities such as offshore aquaculture and 
alternative energy development. How should aquaculture programs 
coordinate with other agencies of jurisdiction to prioritize 
activities, minimize conflicts, protect resources, and ensure that uses 
are compatible?
    Answer. There are steps that could be taken by Federal authorities 
immediately to efficiently coordinate the development of a commercial 
aquaculture industry in Federal waters once Federal legislation is 
passed.
Creation of an Information Data base
    Readily available, accurate information would be of considerable 
assistance to sound and efficient decision-making by both project 
proponents and regulators. The agency charged with oversight of the 
Federal offshore aquaculture program should create a data base of 
information relevant to the proper siting of aquaculture operations and 
avoidance of ocean-user conflicts and conflicts with other agency 
programs. This information should include: existing offshore uses (oil 
and gas leases, mineral leases and similar federally-established 
private rights and the operational restrictions relevant to proposed 
aquaculture activities), navigational constraints (shipping lanes, 
anchorages, security-sensitive areas, etc.), sensitive resource areas 
(marine protected areas and preserves, designated historic landmarks, 
marine mammal migration routes, etc.), and similar potential conflict 
factors that can be established in advance of designing a proposed 
aquaculture project. This information should be Internet-based and 
available without charge. Last, it is important to keep in mind that 
while this information would facilitate efficient application 
proceedings, the creation of such a data base should not be a condition 
precedent to acceptance of permit applications for aquaculture 
projects.
Pre-designated Aquaculture Sites
    Ongoing development of new aquaculture operations would benefit 
from creation of an inventory of available facility sites. The Federal 
agency charged with aquaculture responsibility should initiate a site 
selection process for various types of aquaculture operations (finfish, 
shellfish, other species) in different regions of the country. By 
conducting the various review and approval procedures required to pre-
approve such sites, Federal authorities would create a powerful tool to 
support development of U.S. production capabilities. In addition, the 
review process may offer a useful example of the approval process that 
developers with self-selected sites could anticipate following in 
approval of their projects.
Coordination is Appropriate; Consolidation is not Necessary
    A number of Federal programs already exist for approval and 
management of marine structures, dredging, extraction of minerals, oil 
and gas, navigation and other varied offshore uses. Several different 
Federal agencies have jurisdiction for different activities. All 
Federal agencies engaged in management of offshore activities have 
procedures for review and approval of offshore activities, including 
solicitation of public comment and comment from sister Federal 
agencies. A similar approach is anticipated for review and approval of 
proposed aquaculture projects.
    While coordination between agencies certainly is appropriate, 
offshore aquaculture should not have to wait for creation of a 
universal, ``Ocean'' agency before projects are approved. There has 
been some discussion of creating an overarching body to manage all uses 
of the Federal oceans. We have no way of knowing whether such an 
approach would be taken, or whether it would be advisable. But 
aquaculture should not be delayed in order to determine if new 
``ocean'' agency will be created. Federal authorities certainly should 
be capable of appropriately reviewing proposed offshore aquaculture 
projects through a notice and comment application review process 
similar to the process used for so many other federally-approved 
activities.

    Question 5. Will any agency be empowered to reject a proposed 
facility based on safety or environmental standards? Please explain.
    Answer. The criteria for approval of offshore aquaculture 
facilities will be established by regulations. The agency with approval 
authority would be empowered to reject a proposed facility if the 
application failed to meet any applicable standards, presumably 
including safety or environmental standards established by new rules or 
existing applicable rules (such as the absence of any required 
discharge permit under the Clean Water Act). Sister agencies would 
advise the permit authority of any conflicts the proposed facility 
created with their rules or policies during the application review 
process. The permit authority would then determine if the other agency 
rule were controlling. In some instances, differences between standards 
of different agencies may need to be resolved at the Secretary-level.
                                 ______
                                 

                 Science Direct--Aquaculture 226 (2003)

The lack of scientific evidence to support the development of effluent 
          limitations guidelines for aquatic animal pathogens

                          by Scott E. LaPatra

Abstract
    The biological significance of aquatic animal pathogens in 
effluents is unknown. In general, most of these pathogens existed in 
aquatic populations either prior to or in the absence of aquaculture. 
Huge gaps exist in our knowledge regarding pathogen distribution in the 
environment, the environmental fate of pathogens and host 
susceptibility in aquatic ecosystems. There are no reliable, 
standardized or validated methods for testing effluents for aquatic 
animal pathogens. There are internationally accepted analytical methods 
available to qualify and/or quantify aquatic animal pathogens in 
tissues. These methods are used in regulatory control programs to limit 
the introduction of important fish pathogens into new regions. Federal, 
state, and tribal pathogen control programs have existed for many 
years. The goal of these programs is to prevent the introduction of 
significant fish pathogens into the United States, specific states, 
regions or facilities. These regulatory control programs have been 
successful at limiting the introduction of important fish pathogens. 
Additionally, there are health management strategies to minimize the 
occurrence and impact of disease if it does occur, including the use of 
vaccines. However, there are currently no consistently used practices 
to control the discharge of aquatic animal pathogens in effluents of 
commercial or public aquaculture facilities if pathogens do occur. The 
most cost-effective way to effectively limit the impact of significant 
aquatic animal pathogens is to prevent their introduction into 
facilities. D 2003 Elsevier B.V. All rights reserved.
1. Introduction
    In 1989, the Natural Resources Defense Council filed a lawsuit 
against the Environmental Protection Agency (EPA) for lack of 
enforcement of the Clean Water Act. The lawsuit resulted in a 
settlement and Consent Decree on January 31, 1992. The Consent Decree 
provided EPA to develop effluent limitation guidelines for certain 
specified industries and laid out a timetable for initiating guidelines 
for additional industries. EPA originally designated the Industrial 
Container Cleaning industry as a category for rulemaking. However, in 
late 1999, EPA asked the court to substitute aquaculture for the 
Industrial Container Cleaning industry. The reasons given by EPA for 
this action include the following: (1) the only relevant EPA guidance 
on aquaculture was over 20 years old, (2) the aquaculture industry has 
changed significantly in terms of the types of species raised and the 
industrial processes employed, and (3) aquaculture point sources appear 
to discharge nutrients which states regularly identify as one of the 
most common causes of water quality impairment in this country. EPA has 
also indicated that in addition to developing effluent limitation 
guidelines for nutrients, they would also consider effluent limitation 
guidelines for aquatic animal pathogens.
    Huge gaps exist in our knowledge regarding pathogen distribution in 
the environment, the environmental fate of pathogens and host 
susceptibility in aquatic ecosystems. There are many misperceptions 
held by the public and scientific community regarding the spread of 
infectious agents from cultured aquatic animals to wild aquatic 
animals. While it is true that human activities have affected aquatic 
animal health through direct changes in habitat and ecosystems, these 
changes do not necessarily mean that the aquatic animal pathogens were, 
or are, actively introduced through these actions. While intensive 
culture may magnify the effects of these pathogens within cultured 
populations, it does not create or establish the association of the 
agent and the aquatic species. The assumption that aquacultural 
activities create and spread disease in the aquatic ecosystem is 
misleading and an erroneous inference. Infectious disease agents are an 
integral part of the existence of all animals, including both cultured 
and wild aquatic animal populations. In general, most of these 
pathogens existed in aquatic populations either prior to or in the 
absence of aquaculture. However, studies to examine the prevalence and 
the impacts of infection or disease on free-ranging fish populations 
have been limited. Detection of infected fish and the potential impacts 
of disease in a free-ranging population are both difficult and 
expensive. Issues associated with sampling free-ranging populations and 
the possible removal of infected fish by predators are complex. In 
contrast to free-ranging populations, artificial propagation of aquatic 
animals presents a captive population and an intensively monitored 
population. Captivity coupled with the routine monitoring of the health 
and performance of fish in aquaculture systems facilitates the 
identification of pathogens that have evolved with their hosts in 
natural environments.
    One of the primary concerns of any aquaculture program is the 
potential introduction and transmission of pathogens in both cultured 
and native populations. Exposure to infectious disease agents is a 
continual process during the life span of any organism. However, 
exposure to an infectious microorganism does not necessarily result in 
infection or manifestation of clinical disease. The latter depends on 
the interaction of several factors including (1) the health and 
immunological status of the host, (2) the dose and virulence or 
contagiousness of the pathogen, and (3) the environmental conditions 
that affect the host and pathogen interaction. Although clinical 
disease is easily qualified and quantified, subclinical disease is more 
difficult to characterize and may only be detected with the assistance 
of diagnostic tests or aids. However, it must be emphasized that the 
presence or detection of any infectious agent does not imply the 
presence of disease. Simply put, infection--defined as invasion of a 
host by a pathogenic agent--is a more common event. In contrast, 
disease is defined as the condition that results in morbidity and, 
possibly, mortality in the individual host or population as a 
consequence of infection.
    Significant gaps in our knowledge exist due in part to the lack of 
reliable, standardized or validated methods for testing effluents for 
aquatic animal pathogens. This is further compounded by the lack of 
information on pathogen amplification when an aquatic animal host, at 
various life stages and under different environmental conditions, 
becomes infected or diseased. Additionally, many characteristics of 
aquatic animal pathogens are poorly described yet are required in any 
risk assessment. These include information on the ability of the 
pathogen to multiply and remain viable in water, the survival time 
outside the host, and the number of infectious units required to cause 
infection and pathogenicity.
2. Literature Review
    Several reviews have been written recently that have examined the 
interactions between hatchery and wild salmonids and the possible 
spread of disease. Flagg et al. (2000) of the National Marine Fisheries 
Service wrote a white paper entitled ``Ecological and behavioral 
impacts of artificial production strategies on the abundance of wild 
salmon populations'', which included a reference list of 175 citations 
pertinent to the subject. In this document, the authors suggest that 
with the exception of the unintentional introduction of ``exotic'' 
pathogen(s) in an aquatic ecosystem, most if not all pathogenic 
microorganisms existed in wild aquatic animal populations before the 
establishment of aquaculture facilities. While cultured populations can 
be considered reservoirs of infectious agents because of intensive 
culture practices, there is little evidence to suggest that disease 
transmission to wild stocks is routine. Therefore, it is extremely 
difficult to determine the incidence of disease transmission from 
cultured to wild aquatic animals, as well as the impacts such 
transmission would have on wild stocks. To specifically determine 
whether a particular pathogen found in wild fish originated from a 
cultured fish requires the ability to distinguish different strains of 
a pathogen at the genetic level. While such epidemiological tracking 
can be done on all classes of infectious pathogens using a variety of 
molecular methods, these techniques have not been applied to many 
aquatic animals. However, a recent article by Anderson et al. (2000) 
illustrated the usefulness of these molecular methods in understanding 
how fish viruses evolve and are transmitted in aquatic ecosystems. The 
goal of this study was to characterize infectious hematopoietic 
necrosis virus (IHNV) genetic heterogeneity and viral traffic over time 
at a study site in the Deschutes River watershed in Oregon, USA, with 
an emphasis on the epidemiology of IHNV types causing epidemics in wild 
kokanee Oncorhynchus nerka between 1991 and 1995. The study site 
included kokanee spawning grounds in the Metolius River and Lake Billy 
Chinook downstream, in which the IHNV epidemics occurred in 2- and 3-
year-old kokanee, and the Round Butte Fish Hatchery at the outflow of 
the lake. Virus isolates collected from this area between 1975 and 1995 
were characterized on a genetic basis by ribonuclease protection 
fingerprint analyses of the virus nucleocapsid, glycoprotein, and 
nonvirion genes. Analysis of the genetic differences between the IHNV 
isolates suggested that both virus evolution and occurrence of new IHNV 
strains contributed to the genetic diversity that was observed. The 
results indicated that the 1991-1995 epidemics in wild kokanee from 
Lake Billy Chinook were due to a unique IHNV type that was first 
detected in spawning wild adult kokanee in 1988 and that this virus 
type was transmitted from the wild kokanee to hatchery fish downstream 
in 1991. This work shows that aquatic animal virus trafficking can be 
much more complex than was previously recognized and that pathogens are 
natural components of wild fish populations that can impact cultured 
fish.
    In 1997, a symposium was held entitled ``Pathogens and diseases of 
fish in aquatic ecosystems: implications in fisheries management'' 
(Moffitt et al., 1998). The science of fish health has evolved 
primarily for captive populations and the recent attention to whirling 
disease in the United States provided an example of the need for a 
scientific approach to assess the risk of pathogens on free-ranging 
fish populations. One report by Reno (1998) introduced the concept that 
infectious diseases have been observed in both human and animal 
populations for millennia. However, unlike diseases of higher animals, 
the dispersal of disease in fish populations rarely has been studied 
quantitatively, but the principles that govern the spread of diseases 
of human and other mammals, should with modification, be applicable to 
the study of infectious diseases in fish. Among the factors shown to be 
important in other systems are the contagiousness of the pathogen, 
duration of infection, host population density, and development of 
immunity.
    Foott et al. (2000) investigated the dispersal of a pathogen in 
fish populations. Coleman National Fish Hatchery in northern 
California, USA has a long history of IHN virus dating back to the 
1940s and asymptomatic IHNV carrier chinook salmon O. tshawytscha 
adults and IHN epizootics in juvenile fish are commonly detected. When 
epizootics are detected in the hatchery, juvenile fish are released 
into the Sacramento River. This practice has raised concerns over 
potential impacts to the ``natural'' or wild chinook salmon juveniles. 
Hatchery smolts that were released after an IHN epizootic was detected 
and captured down river had a prevalence of infection ranging from 9 
percent to 12 percent over a 2-week period. However, viral infection 
was not detected in more than 500 natural chinook salmon juveniles that 
were tested. Uninfected, natural chinook salmon juveniles were also 
cohabitated with different ratios of infected hatchery chinook salmon 
(1:1, 1:10, 1:20) in the laboratory for either 5 min or 24 h in a flow 
through circular tank. Gill, liver, and kidney tissue from the natural 
fish were assayed for virus at 4-6-day post-exposure. No virus was 
detected in any natural fish from any exposure group. The authors 
concluded that the data indicated a low ecological risk to natural 
chinook salmon stocks from the release of IHNV infected hatchery 
chinook salmon smolts. This study illustrates the complexities of 
understanding pathogen transmission and dissemination of disease in 
fish populations but suggests that neither effluents or infected 
hatchery fish posed a risk to the natural populations in this 
particular system.
    Kent et al. (1998) surveyed wild fishes captured around marine net-
pen salmon farms and from open waters near British Columbia, Canada for 
certain salmonid pathogens. The results substantiated the recent 
observations of others that some pathogens thought to be restricted to 
salmonids have a broader host range, and it expanded the list of 
pathogens important to salmon farming for which wild marine fishes may 
act as reservoirs. There has been speculation that certain pathogens 
may have been introduced into free-ranging populations through the 
stocking of cultured animals. However, as this study illustrated, there 
is very little credible scientific information regarding the presence 
or distribution of pathogens in the wild that currently exist or may 
have existed prior to stocking.
    A national Wild Fish Health Survey has been initiated by the U.S. 
Fish and Wildlife Service. A survey of this type has helped to identify 
where certain pathogens are known to exist and will assist in 
identifying the geographic range of other pathogens. Additionally, this 
will allow for comparisons from state to state or watershed to 
watershed that may help identify why a pathogen in one area has 
negative impacts on certain fish stocks but not in others. Most 
importantly, this information will provide a scientific basis for 
management decisions regarding stocking and fish transport activities, 
which has been lacking for many years. The real challenge will be to 
determine how to use this information in establishing new regulation 
and control programs or modifying existing ones.
    The need for this type of survey is further supported by the work 
of Noakes et al. (2000). They concluded that the evidence to date with 
respect to the prevalence of pathogens as well as the frequency and 
pattern of disease outbreaks both now and in the past indicate that 
salmon aquaculture is not having a significant incremental impact on 
wild and hatchery Pacific salmon. However, it is clear that a more 
comprehensive review of disease issues including ongoing monitoring of 
wild, enhanced, and farmed salmon is required to resolve the concerns 
raised.
    Stephen and Iwama (2000) suggest that in assessing the risks of the 
transmission of pathogens, the characteristics of the pathogen must be 
considered including its ability to multiply and remain viable in 
water, survival time outside the host, and the number of infectious 
units required to cause infections and pathogenicity. Host factors also 
must be considered such as susceptibility to infection, exposure to 
pathogens, age, health status, pre-existing conditions and culture and 
ecosystem conditions. Environmental considerations also must be 
included such as the effects of climate, hydrography and water quality. 
This is an extremely complex analysis that is further compounded by the 
lack of credible scientific information on many of these factors that 
vary significantly depending on the pathogen, the aquatic animal host 
and the type of natural ecosystem or artificial culture environment in 
which they reside.
    In an attempt to develop the scientific information required to 
assess the risk(s) of the transmission of a pathogen, LaPatra et al. 
(2001) examined the survival of an aquatic animal virus under different 
environmental conditions, using IHN virus as an example. Three IHNV 
isolates, which exhibited antigenic differences, were diluted either in 
fresh water collected from a spring, after this water had passed 
through a fish farm, or in river water from the river, which received 
water from the fish farm. Each treatment was incubated at 15 jC in a 
water bath and samples were removed at hourly and daily intervals. 
Virus suspended in spring water survived longer than virus incubated in 
water obtained from a fish farm or the river. Virus suspended in river 
water exhibited a 99 percent reduction in virus concentration in 24 h. 
More recent studies have shown a 99.99 percent reduction in virus 
concentrations after 30 h in river water at 15 jC. Subsequent exposure 
of small (mean weight, 0.5 g), susceptible rainbow trout to the virus--
seeded river water after 30 h failed to induce any clinical disease 
(unpublished results).
    A preliminary study was also conducted to determine the genetic 
similarity of IHNV isolates from the state of Idaho, USA, to isolates 
from other areas of North America where IHNV is endemic. It has been 
hypothesized that rainbow trout aquaculture facilities on the Snake 
River in southern Idaho may have been the source of and/or enhanced the 
emergence of IHNV in salmon and trout downstream in the Columbia River 
basin. This was suggested by the temporal correlation between the 
emergence of IHNV in rainbow trout in southern Idaho between 1977 and 
1980 and the increased incidence of IHNV in juvenile and adult 
salmonids in the lower Columbia River basin in the early 1980s 
(Groberg, 1983). Isolates were analyzed using the ribonuclease 
protection assay (RPA) and by nucleotide sequencing of reverse 
transcription polymerase chain reaction (RT-PCR) products of specific 
isolates. By RPA, a high level of genetic heterogeneity was found in 
Idaho compared to isolates from the other locations. A phylogenetic 
analysis indicated that the isolates from Idaho could be grouped 
separately from all other IHNV isolates from across the Pacific 
Northwest, USA, and Canada. The results suggested that the IHNV 
lineages from southern Idaho may be phylogenetically distinct. These 
studies illustrated the complexity of evaluating virus survival and 
trafficking and the importance of developing this type of information 
for use in risk assessment (LaPatra et al., 2001).
    McAllister and Bebak (1997) monitored effluents from three fish 
hatcheries known to contain fish infected with infectious pancreatic 
necrosis virus (IPNV) for discharge and downstream distribution of 
IPNV. They found no virus upstream of the hatcheries or in the hatchery 
spring water supplies. However, virus could be detected 19.3 km (the 
furthest distance tested) below the hatchery discharge. Virus 
concentrations detected downstream were affected by stream dilution 
parameters. A total of 106 resident fish downstream of the hatcheries 
were sampled and no IPNV was detected in 61 nonsalmonid fishes. 
However, IPNV was detected in 3 of 11 brook trout Salvelinus fontinalis 
but not in 30 brown trout Salmo trutta or 4 rainbow trout which 
illustrates the differences in species susceptibility to infection. Of 
the three positive brook trout, two were adults and believed to be 
hatchery escapees. The third, a fingerling brook trout, captured about 
5 miles downstream was believed to be the consequence of instream 
infection, however, no clinical signs were found in any of the positive 
fish. Although the sample size was limited, the results suggested that 
the prevalence of IPNV in stream fish captured below the hatcheries was 
very low. Based on the IPNV prevalence, it appeared that chronic, low-
level exposure to IPNV (10-100 plaque forming units/l) in stream water 
did not pose a significant risk to resident salmonid and non-salmonid 
fish. Research by other workers supports the hypothesis that low-level 
virus exposure may not pose a significant risk to fish under natural 
conditions (Yamamoto, 1975; Yamamoto and Kilistoff, 1979). Even though 
the stream fish were exposed continuously to IPNV in these studies, 
infection might not have occurred because the virus concentration in 
the water was to low or because natural defense mechanisms of the fish 
effectively controlled low level virus exposure.
    Following the outbreak of infectious salmon anemia (ISA) at salmon 
farms in Scotland, UK, a survey was conducted by Raynard et al. (2001) 
to determine the extent of infection in wild fish. Isolations of ISA 
virus (ISAV) were made from five sea trout Salmo trutta within areas 
where ISA affected salmon farms were located, however, there were no 
clinical signs. Evidence for ISAV in other sea trout was provided by 
ISAV RT-PCR diagnostic tests. Results from these tests revealed 
evidence for ISAV presence in salmon parr, adult salmon and juvenile 
brown trout S. trutta in rivers distant from the salmon farms, but 
again there were no clinical signs. This suggested that at the time of 
the survey (1998-1999) ISAV may have already been widely distributed in 
wild fish.
    These types of studies are complex because of difficulties in 
reproducing aquatic animal pathogen ``life cycles'', determination if 
the agent is in fact infectious, and quantitatively assessing risk of 
pathogen presence and/or the presence of asymptomatically infected 
fish. This is further compounded by the lack of information on pathogen 
amplification when an aquatic animal host, at various life stages and 
under different environmental conditions, becomes infected and exhibits 
asymptomatic, subclinical or clinical manifestation of the disease. 
Additionally, previously mentioned characteristics of the pathogen that 
are poorly described and must be considered in any risk assessment 
include the ability to multiply and remain viable in water, the 
survival time outside the host, and the number of infectious units 
required to cause infection and pathogenicity. Currently, the 
biological significance of aquatic animal pathogens in effluents is 
unknown.
3. Conclusions
    State, Federal, and tribal pathogen control programs have existed 
for a long time. Their goal is to prevent the introduction of 
significant fish pathogens into the US, specific states, regions or 
facilities. Pathogens are regulated that meet criteria such as (1) 
serious pathogens exotic to an area, (2) pathogens known to cause 
serious problems, (3) pathogens which are highly infectious and easily 
transmitted, and/or (4) pathogens which regional watershed compacts 
have agreed are of concern in that region. Additionally, pathogen 
inspections are required before fish are brought onto an aquaculture 
facility and routine disease inspections may be required of fish on the 
facility. State resource management agencies and/or state agriculture 
departments oversee these programs in public and private aquaculture 
operations. The U.S. Fish and Wildlife Service also has an importation 
inspection program (Title 50) to prevent the introduction of foreign 
animal pathogens and the National Marine Fisheries Service and the U.S. 
Department of Agriculture--Animal Plant Health Inspection Service may 
also be involved under certain circumstances. These regulatory control 
programs have been successful at limiting the introduction of important 
fish pathogens. Regulatory control programs are also being revised and/
or established to prevent the introduction of important shellfish 
pathogens.
    There are no reliable, standardized or validated methods for 
testing effluents for aquatic animal pathogens. There are 
internationally accepted analytical methods available to qualify and/or 
quantify aquatic animal pathogens in tissues (Thoesen, 1994; Office 
International Des Epizooties (OEI), 2001). These methods are used in 
the regulatory control programs that have been successful at limiting 
the introduction of important fish pathogens into new regions. There 
are currently no consistently used practices to control the discharge 
of aquatic animal pathogens in effluents of commercial or public 
aquaculture facilities if pathogens do occur. The most cost-effective 
way to effectively limit potentially significant aquatic animal 
pathogens is to prevent their introduction into facilities.
    The biological significance of aquatic animal pathogens in 
effluents is unknown. In general, most of these pathogens existed in 
aquatic populations either prior to or in the absence of aquaculture. 
There exist huge gaps in our knowledge regarding pathogen distribution 
in the environment, the environmental fate of pathogens and host 
susceptibility in aquatic ecosystems. The gaps in the available 
scientific information must be filled before any effluent guidelines 
can be established.
Acknowledgements
    The author would like to thank Randy MacMillan, Andy Morton, Rich 
Schneider (All from Clear Springs Foods), Charlie Smith (Rangen), 
Marilyn Blair (USFWS Idaho Fish Health Center) and Gary Jensen (USDA 
CREES) for their review of the manuscript.
References
Anderson, E.D., Engelking, H.M., Emmenegger, E.J., Kurath, G., 2000. 
            Molecular epidemiology reveals emergence of a virulent 
            infectious hematopoietic necrosis (IHN) virus strain in 
            wild salmon and its transmission to hatchery fish. Journal 
            of Aquatic Animal Health 12, 85-99.
Flagg, T.A., Berejikian, B.A., Colt, J.E., Dickhoff, W.W., Harrell, 
            L.W., Maynard, D.J., Nash, C.E., Strom, M.S., Iwamoto, 
            R.N., Mahnken, C.V.W., 2000. Ecological and behavioral 
            impacts of artificial production strategies on the 
            abundance of wild salmon populations. U.S. Dept. Commerce, 
            NOAATech. Memo. NMFS-NWFSC-41. 92 pp.
Foott, S., Harmon, R., Nichols, K., Free, D., True, K., 2000. Release 
            of IHNV infected chinook smolts from Coleman NFH: risk 
            assessment of the disease impacts on natural chinook. 
            Proceedings of the 41st Annual Western Fish Disease 
            Workshop. Washington Department of Fish and Wildlife, 
            Olympia, WA, p. 7.
Groberg, W.J., 1983. The status of viral fish diseases in the Columbia 
            River basin. In: Leong, J.C., Barilla, T.Y. (Eds.), 
            Proceedings: Viral Diseases in the Columbia River Basin. 
            Special publication. Bonneville Power Administration, 
            Portland, OR, pp. 159-167.
Kent, M.L., Traxler, G.S., Kieser, D., Richard, J., Dawe, S.C., Shaw, 
            R.W., Prosperi-porta, G., Ketcheson, J., Evelyn, T.P.T., 
            1998. Survey of salmonid pathogen in ocean-caught fishes in 
            British Columbia, Canada. Journal of Aquatic Animal Health 
            10, 211-219.
LaPatra, S., Troyer, R., Shewmaker, W., Jones, G., Kurath, G., 2001. 
            Understanding aquatic animal virus survival and trafficking 
            and its role in risk assessment. In: Rogers, C. (Ed.), 
            Proceedings of the Office International des Epizooties 
            (OIE) International Conference on Risk Analysis in Aquatic 
            Animal Health. OIE, Paris, pp. 251-258.
McAllister, P.E., Bebak, J., 1997. Infectious pancreatic necrosis virus 
            in the environment: relationship to effluent from 
            aquaculture facilities. Journal of Fish Diseases 20, 201-
            207.
Moffitt, C.M., Stewart, B.C., LaPatra, S.E., Brunson, R.D., 
            Bartholomew, J.L., Peterson, J.E., Amos, K.H., 1998. 
            Pathogens and diseases of fish in aquatic ecosystems: 
            implications for fisheries management. Journal of Aquatic 
            Animal Health 10, 95-100.
Noakes, D.J., Beamish, R.J., Kent, M.L., 2000. On the decline of 
            Pacific salmon and speculative links to salmon farming in 
            British Columbia. Aquaculture 183, 363-386.
Office International Des Epizooties (OIE), 2001. Diagnostic Manual for 
            Aquatic Animal Diseases. OIE, Paris. 237 pp.
Raynard, R.S., Murray, A.G., Gregory, A., 2001. Infectious salmon 
            anemia virus in wild fish from Scotland. Diseases of 
            Aquatic Organisms 46, 93-100.
Reno, P.W., 1998. Factors involved in the dissemination of disease in 
            fish populations. Journal of Aquatic Animal Health 10, 160-
            171.
Stephen, C., Iwama, G., 2000. Salmon aquaculture review fish health 
            discussion paper. British Columbia Environmental Assessment 
            Office, Nanaimo, Canada. 39 pp.
Thoesen, J.C. (Ed.), 1994. Suggested procedures for the detection and 
            identification of certain finfish and shellfish pathogens, 
            4th ed., version 1. Fish Health Section, American Fisheries 
            Society, Bethesda, MD. 198 S.E. LaPatra / Aquaculture 226 
            (2003) 191-199
Yamamoto, T., 1975. Frequency of detection and survival of infectious 
            pancreatic necrosis virus in a carrier population of brook 
            trout (Salvelinus fontinalis) in a lake. Journal of the 
            Fisheries Research Board of Canada 32, 568-570.
Yamamoto, T., Kilistoff, J., 1979. Infectious pancreatic necrosis 
            virus: quantification of carriers in lake populations 
            during a 6-year period. Journal of the Fisheries Research 
            Board of Canada 36, 562-567.
                                 ______
                                 

          American Journal of Preventive Medicine 2005; 29(4)

               Fish: Balancing Health Risks and Benefits

                    by Walter C. Willett, M.D., DrPH

    In this issue of the American Journal of Preventive Medicine, 
Teutsch, Cohen, and their colleagues \1\<SUP>-</SUP> \6\ present a 
detailed analysis of possible health effects from policies to alter 
fish consumption, which have both potential harms and benefits. As they 
clearly document, the results would have overall benefits under 
optimistic scenarios in which women who may become pregnant replace 
fish high in mercury with low-mercury fish, or in which there is an 
increase in low-mercury fish in the general population. However, the 
overall consequences could be adverse if fish consumption is reduced in 
the general population, which has apparently occurred. This analysis 
supports current guidelines that focus on changes in the type of fish 
eaten by women in the reproductive age, but also highlights concerns 
that educational messages and the implementation of policies must be 
carefully crafted to avoid unintended consequences.
    The recent decreases in fish consumption have probably been 
influenced by not only fears about mercury, but also by a widely 
publicized report in a prominent journal \7\ that farmed salmon 
contains measurable amounts of organochloride compounds. That 
publication was particularly troublesome, perhaps even irresponsible, 
because the implied health consequences were based on hypothetical 
calculations and very small (lifetime risks of 1:10,000). In contrast, 
the benefits of eating salmon are based on human data at the doses 
actually consumed and, as pointed out by Cohen et al. \2\ in the 
present analysis, are likely to be at least 100-fold greater than the 
estimates of harm, which may not exist at all. Because the report on 
organochloride consumption almost certainly contributed to a reduction 
in fish consumption, that publication likely caused substantial numbers 
of premature deaths. Although the monitoring of contaminant levels in 
foods is an important function, reports of findings in places where 
widespread publicity is likely should be accompanied by at least a 
qualitative balancing of likely risks and benefits of changing 
consumption of the foods being considered. A more detailed analysis 
such as that by Cohen et al. \2\ would be even better.
    The nutritional, environmental, and policy issues surrounding 
consumption of fish and omega-3 fatty acids extend well beyond the 
scope of the analysis conducted by Cohen et al. \6\ Catches of wild 
fish are presently near maximum, and perhaps even greater than 
sustainable, so further increases in fish consumption will need to be 
mainly from aquaculture. This method of production has many potential 
environmental impacts, but is worthy of careful development because 
conversion of feed to protein is far more efficient for fish than for 
land animals (because fish are cold blooded and float, no energy is 
needed to maintain body temperature and little is needed for movement). 
However, on a global basis, even large increases in aquaculture are 
unlikely to meet the needs for omega-3 fatty acids, because for a large 
part of the world's population, including Russia and much of Eastern 
Europe, per capita fish intake is extremely low. Thus, for much of the 
world, omega-3 fatty acids will need to be obtained from other sources. 
Fortunately, plant sources are many (as the 18-carbon fatty acid, 
alphalinoleic acid), including soybean and canola oils. However, in the 
United States and many other countries, the partial hydrogenation of 
these oils destroys the omega-3 fatty acids so that intake of these 
essential fatty acids is very low. In such regions, the most rapid way 
to increase consumption of omega-3 fatty acids is to stop the partial 
hydrogenation of these oils, which would also virtually eliminate the 
consumption of trans-fatty acids. Whether alpha-linoleic acid, through 
endogenous conversion to EPA and DHA, can provide all the health 
benefits of fish oil is a research topic of great importance. This has 
potential implications for the analyses of Cohen et al., 
\1\<SUP>-</SUP> \6\ because the background intake of alpha-linoleic 
acid is likely to be increasing in the United States due to reductions 
in partial hydrogenation of soybean oil, the benefits of fish intake 
may decrease. As our food supply is dynamic and human nutrition is 
complex, risk-benefit analyses cannot be static.
    Fish consumption is but one example in human nutrition where 
potential competing risks and benefits exist; dairy products provide 
another. The recent U.S. dietary guidelines \8\ recommend that all 
persons increase consumption of milk, or equivalent dairy products, to 
three glasses per day. The recommendation, if implemented, would lead 
to radical changes in individual diets; for example, average 
consumption by adult men is presently less than one serving per day. It 
would also result in a doubling of milk production in the United 
States, which would have major economic and environmental consequences. 
The recommendation was not based on evidence that there would be an 
improvement in human health if everyone consumed three glasses of milk 
per day, but rather on the mandate by the U.S. Department of 
Agriculture that the guidelines should meet the dietary reference 
intakes (DRIs) for calcium, potassium, and other nutrients from food 
sources alone. The DRIs in turn are also not usually based on health 
outcomes, but rather on a single metabolic criterion, such as the 
short-term maximal calcium retention test. The health consequences of 
high consumption of dairy products are complex and not fully 
understood. For example, although some intake of calcium is essential, 
high milk consumption has consistently not been associated with lower 
risk of fractures in large prospective studies, whereas increased risks 
of advanced or fatal prostate cancer have been observed in many 
studies. Moreover, large amounts of saturated fat would be introduced 
into the food supply if dairy consumption were doubled, even though the 
recommendation is to consume low-fat dairy products.
    Interestingly, detailed economic analyses are required for 
government regulatory actions, but comparable analyses of health risks 
and benefits are not, even for the dietary guidelines, which have huge 
policy implications for government food programs. The field of 
nutrition would benefit from further work like that of Cohen et al. 
\1\<SUP>-</SUP> \6\
ENDNOTES
    \1\ Teutsch SM, Cohen JT. Health trade-offs from policies to alter 
fish consumption. Am J Prev Med 2005;29:324.
    \2\ Cohen JT, Bellinger DC, Connor WE, et al. A quantitative risk-
benefit analysis of changes in population fish consumption. Am J Prev 
Med 2005;29:325-34.
    \3\ Konig A, Bouzan C, Cohen JT, et al. A quantitative analysis of 
fish consumption and coronary heart disease mortality. Am J Prev Med 
2005;29:335-46.
    \4\ Bouzan C, Cohen JT, Connor WE, et al. A quantitative analysis 
of fish consumption and stroke risk. Am J Prev Med 2005;29:347-52.
    \5\ Cohen JT, Bellinger DC, Shaywitz BA. A quantitative analysis of 
prenatal methyl mercury exposure and cognitive development. Am J Prev 
Med 2005;29:353-65.
    \6\ Cohen JT, Bellinger DC, Connor WE, Shaywitz BA. A quantitative 
analysis of prenatal intake of n-3 polyunsaturated fatty acids and 
cognitive development. Am J Prev Med 2005;29:366 -74.
    \7\ Hites RA, Foran JA, Carpenter DO, Hamilton MC, Knuth BA, 
Schwager SJ. Global assessment of organic contaminants in farmed 
salmon. Science 2004;303:226 -9.
    \8\ U.S. Department of Health and Human Services, U.S. Department 
of Agriculture. Dietary guidelines for Americans. 6th ed. Washington 
DC: U.S. Government Printing Office, 2005.
                                 ______
                                 
                Information Retained in Committee Files
    ``Fatty acid composition of wild and farmed Atlantic salmon (Salmo 
salar) and rainbow trout (Oncorhynchus mykiss)'' by Carole Blanchet, 
Michel Lucas, Pierre Julien, Richard Morin, Suzanne Gingras and Eric 
Dewailly, Lipids, Vol. 40, no. 5 (2005).

    ``Review of Global Assessment of Organic Contaminants in Farmed 
Salmon'' by Charles R. Santerre, Ph.D., Science Express, January 8, 
2004 and Science, January 9, 2004

    ``Farmed Salmon: Caught in a Numbers Game'' by Dr. Charles 
Santerre, Ph.D., Food Technology, February 2004.

    ``EFSA Study of Farmed and Wild Fish'' (press release and 
background note) by European Food Safety Authority, July 5, 2005.

    Salmon Study in Science magazine-Fact Sheet by Food Standards 
Agency, January 9, 2004.

    FSA Response to Salmon Study Published in Science Magazine-Fact 
Sheet by Food Standards Agency, January 8, 2004.

    Food Safety and PCBs Found in Fish-Fact Sheet by Health Canada, 
January 12, 2004.

                                  <all>

</pre></body></html>
